No. 19-1189

In the Supreme Court of the United States
BP P.L.C., ET AL., PETITIONERS
v.
MAYOR AND CITY COUNCIL OF BALTIMORE

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

JOINT APPENDIX

KANNON K. SHANMUGAM
Paul, Weiss, Rifkind,
Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel of Record
for Petitioners

VICTOR M. SHER
Sher Edling LLP
100 Montgomery Street,
Suite 1410
San Francisco, CA 94104
(628) 231-2500
vic@sheredling.com
Counsel of Record
for Respondent

PETITION FOR A WRIT OF CERTIORARI FILED: MARCH 31, 2020
CERTIORARI GRANTED: OCTOBER 2, 2020

TABLE OF CONTENTS
Page
Court of appeals docket entries .............................................. 1
District court docket entries .................................................... 6
Complaint,
Oct. 30, 2017 (D. Ct. Dkt. 42) ............................................ 23
Notice of removal,
July 31, 2018 (D. Ct. Dkt. 1) ........................................... 187
Supreme Court order,
Oct. 22, 2019 (No. 19A368) .............................................. 243

The following opinions, decisions, judgments, and orders
have been omitted in printing the joint appendix because they
appear as appendices to the petition for certiorari as follows:
Appendix A:

Court of appeals opinion,
Mar. 6, 2020

Appendix B:

District court opinion,
June 10, 2019

Appendix C:

District court memorandum opinion
accompanying stay order,
July 31, 2019

Appendix D:

Court of appeals stay order,
Oct. 1, 2019

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1644
MAYOR AND CITY COUNCIL OF BALTIMORE,
PLAINTIFF-APPELLEE,
v.
BP P.L.C., ET AL., DEFENDANTS-APPELLANTS
DOCKET ENTRIES
DATE

DOCKET
NUMBER

06/18/19

1

PROCEEDINGS

Case docketed. Originating case
number:
1:18-cv-02357-ELH.
Case manager: JRice. [19-1644]
JR [Entered: 06/18/2019 12:55
PM]
*****

07/29/19

73

BRIEF by Chevron Corporation
and Chevron U.S.A. Incorporated in electronic and paper format. Type of Brief: OPENING.
Method of Filing Paper Copies:
mail. Date Paper Copies Mailed,
Dispatched, or Delivered to
Court: 07/30/2019. [1000556234]
[19-1644] Theodore Boutrous
[Entered: 07/29/2019 10:31 PM]

(1)

DATE

DOCKET
NUMBER

07/29/19

74

PROCEEDINGS

FULL ELECTRONIC APPENDIX and full paper appendix by Chevron Corporation and
Chevron U.S.A. Incorporated.
Method of Filing Paper Copies:
mail. Date paper copies mailed
dispatched or delivered to court:
07/30/2019. [1000556236] [191644] Theodore Boutrous [Entered: 07/29/2019 10:33 PM]
*****

08/09/19

80

MOTION by Chevron Corporation and Chevron U.S.A. Incorporated for stay pending appeal.
Date and method of service:
08/09/2019 ecf. [1000564159] [191644] Theodore Boutrous [Entered: 08/09/2019 11:54 AM]

08/09/19

81

Exhibit(s) [80] Motion by Chevron Corporation and Chevron
U.S.A. Incorporated. [1000564198] [19-1644] Theodore Boutrous
[Entered: 08/09/2019 12:29 PM]

08/09/19

82

NOTICE ISSUED to Mayor and
City Council of Baltimore requesting response to Motion for
stay pending appeal [80], exhibit(s) [81]. Response due:
08/16/2019. [1000564309]. [191644] JR [Entered: 08/09/2019
02:31 PM]

2

DATE

DOCKET
NUMBER

08/16/19

83

PROCEEDINGS

RESPONSE/ANSWER by Mayor and City Council of Baltimore
to notice requesting response
[82], Motion [80]. Nature of response: in opposition. [19-1644]
Victor Sher [Entered: 08/16/2019
05:24 PM]
*****

08/23/19

85

REPLY by Chevron Corporation
and Chevron U.S.A. Incorporated to response [83], Motion
[80]. [19-1644] Theodore Boutrous [Entered: 08/23/2019 07:07
PM]

08/27/19

86

BRIEF by Mayor and City
Council of Baltimore in electronic and paper format. Type of
Brief: RESPONSE. Method of
Filing Paper Copies: hand delivery. Date Paper Copies Mailed,
Dispatched, or Delivered to
Court: 08/28/2019. [1000575687]
[19-1644] Victor Sher [Entered:
08/27/2019 10:20 PM]
*****

09/18/19

110

BRIEF by Chevron Corporation
and Chevron U.S.A. Incorporated in electronic and paper format. Type of Brief: REPLY.
Method of Filing Paper Copies:

3

DATE

DOCKET
NUMBER

PROCEEDINGS

mail. Date Paper Copies Mailed,
Dispatched, or Delivered to
Court: 09/18/2019. [1000590027]
[19-1644] Theodore Boutrous
[Entered: 09/18/2019 11:43 AM]
*****
10/01/19

116

COURT ORDER filed [1000598537] denying Motion for stay
pending appeal [80]. Copies to all
parties. [19-1644] JR [Entered:
10/01/2019 03:15 PM]
*****

12/11/19

132

ORAL ARGUMENT heard before the Honorable Roger L.
Gregory, Henry F. Floyd and
Stephanie D. Thacker. Attorneys
arguing case: Mr. Theodore J.
Boutrous, Jr., Esq. for Appellants Chevron Corporation and
Chevron U.S.A. Incorporated
and Victor Marc Sher for Appellee Mayor and City Council of
Baltimore. Courtroom Deputy:
Emma Breeden. [1000643082]
[19-1644]
EB
[Entered:
12/11/2019 12:08 PM]
*****

03/06/20

144

PUBLISHED AUTHORED OPINION filed. Originating case
number:
1:18-cv-02357-ELH.

4

DATE

DOCKET
NUMBER

PROCEEDINGS

[1000696953]. [19-1644] JR [Entered: 03/06/2020 07:34 AM]
03/06/20

145

JUDGMENT ORDER filed. Decision: Affirmed. Originating
case number: 1:18-cv-02357ELH. Entered on Docket Date:
03/06/2020. [1000696954] Copies
to all parties and the district
court. [19-1644] JR [Entered:
03/06/2020 07:35 AM]

03/30/20

146

Mandate issued. Referencing:
[144] published authored Opinion, [145] Judgment Order. Originating case number: 1:18-cv02357-ELH. [19-1644] JR [Entered: 03/30/2020 08:21 AM]

5

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
(NORTHERN DIVISION)
No. 1:18-cv-02357-1644-ELH
MAYOR AND CITY COUNCIL OF BALTIMORE,
PLAINTIFF,
v.
BP P.L.C., ET AL., DEFENDANTS
DOCKET ENTRIES
DATE

DOCKET
NUMBER

07/31/18

1

NOTICE OF REMOVAL from
Circuit Court for Baltimore City,
case number 24-C-18-004219.
(Filing fee $400 receipt number
0416-7477289), filed by Chevron
Corp., Chevron U.S.A. (Attachments: # 1 Civil Cover Sheet)
(Cronin, Tonya) Modified on
8/2/2018 (hmls, Deputy Clerk).
(Entered: 07/31/2018)

09/26/12

2

AFFIDAVIT re 1 Notice of Removal by Chevron Corp. (Attachments: # 1 Exhibit A, # 2 Exhibit B, # 3 Exhibit C, # 4 Exhibit D) (Cronin, Tonya) (Exhibit
A - Complaint rec’d 8/2/2018 and

PROCEEDINGS

6

DATE

DOCKET
NUMBER

PROCEEDINGS

FILED SEPARATELY) (Entered: 07/31/2018)
*****
08/16/18

42

COMPLAINT against BP America, Inc., BP P.L.C., BP Products
North America Inc., CNX Resources Corporation, Chevron
Corp., Chevron U.S.A. Inc.,
Citgo Petroleum Corp., ConocoPhillips, ConocoPhillips Company, Consol Energy Inc., Consol Marine Terminals LLC,
Crown Central LLC, Crown
Central New Holdings LLC,
Crown Central Petroleum Corporation, Exxon Mobil Corp.,
Exxonmobil Oil Corporation,
Hess Corp., Louisiana Land &
Exploration Co., Marathon Oil
Company, Marathon Oil Corporation, Marathon Petroleum
Corporation, Phillips 66, Phillips
66 Company, Royal Dutch Shell
PLC, Shell Oil Company, Speedway LLC, filed by Mayor and
City Council Of Baltimore. (krs,
Deputy
Clerk)
(Entered:
08/16/2018)
*****

09/11/18

111

MOTION to Remand to State
Court by Mayor and City Council

7

DATE

DOCKET
NUMBER

PROCEEDINGS

of Baltimore (Attachments: # 1
Memorandum in Support) (Sher,
Victor) (Entered: 09/11/2018)
*****
10/11/18

124

RESPONSE in Opposition re
111 MOTION to Remand to
State Court filed by BP America,
Inc., BP P.L.C., BP Products
North America Inc., CNX Resources Corporation, Chevron
Corp., Chevron U.S.A. Inc.,
Citgo Petroleum Corp., ConocoPhillips, ConocoPhillips Company, Consol Energy Inc., Consol Marine Terminals LLC,
Crown Central LLC, Crown
Central New Holdings LLC,
Exxon Mobil Corp., Exxonmobil
Oil Corporation, Hess Corp.,
Marathon Petroleum Corporation, Phillips 66, Royal Dutch
Shell PLC, Shell Oil Company,
Speedway LLC. (Cronin, Tonya)
(Entered: 10/11/2018)

10/11/18

125

Supplemental to 124 Response in
Opposition to Motion,, by BP
America, Inc., BP P.L.C., BP
Products North America Inc.,
CNX Resources Corporation,
Chevron Corp., Chevron U.S.A.
Inc., Citgo Petroleum Corp.,
ConocoPhillips, ConocoPhillips
8

DATE

DOCKET
NUMBER

PROCEEDINGS

Company, Consol Energy Inc.,
Consol Marine Terminals LLC,
Crown Central LLC, Crown
Central New Holdings LLC,
Exxon Mobil Corp., Exxonmobil
Oil Corporation, Hess Corp.,
Marathon Petroleum Corporation, Phillips 66, Royal Dutch
Shell PLC, Shell Oil Company,
Speedway LLC (Attachments:
# 1 Exhibit 1, # 2 Exhibit 2, # 3
Exhibit 3, # 4 Exhibit 4, # 5 Exhibit 5, # 6 Exhibit 6, # 7 Exhibit
7, # 8 Exhibit 8, # 9 Exhibit 9,
# 10 Exhibit 10, # 11 Exhibit 11,
# 12 Exhibit 12, # 13 Exhibit 13,
# 14 Exhibit 14, # 15 Exhibit 15,
# 16 Exhibit 16, # 17 Exhibit 17,
# 18 Exhibit 18, # 19 Exhibit 19,
# 20 Exhibit 20, # 21 Exhibit 21,
# 22 Exhibit 22, # 23 Exhibit 23,
# 24 Exhibit 24, # 25 Exhibit 25,
# 26 Exhibit 26, # 27 Exhibit 27,
# 28 Exhibit 28, # 29 Exhibit 29)
(Cronin, Tonya) Modified on
10/15/2018 (krs, Deputy Clerk).
(Entered: 10/11/2018)
10/11/18

126

Supplemental to 124 Response in
Opposition to Motion,, by BP
America, Inc., BP P.L.C., BP
Products North America Inc.,
CNX Resources Corporation,

9

DATE

DOCKET
NUMBER

PROCEEDINGS

Chevron Corp., Chevron U.S.A.
Inc., Citgo Petroleum Corp.,
ConocoPhillips, ConocoPhillips
Company, Consol Energy Inc.,
Consol Marine Terminals LLC,
Crown Central LLC, Crown
Central New Holdings LLC,
Exxon Mobil Corp., Exxonmobil
Oil Corporation, Hess Corp.,
Marathon Petroleum Corporation, Phillips 66, Royal Dutch
Shell PLC, Shell Oil Company,
Speedway LLC (Attachments:
# 1 Exhibit A, # 2 Exhibit B, # 3
Exhibit C, # 4 Exhibit D) (Cronin, Tonya) Modified on 10/15/
2018 (krs, Deputy Clerk). (Entered: 10/11/2018)
10/11/18

127

Supplemental to 124 Response in
Opposition to Motion, by BP
America, Inc., BP P.L.C., BP
Products North America Inc.,
CNX Resources Corporation,
Chevron Corp., Chevron U.S.A.
Inc., Citgo Petroleum Corp.,
ConocoPhillips, ConocoPhillips
Company, Consol Energy Inc.,
Consol Marine Terminals LLC,
Crown Central LLC, Crown
Central New Holdings LLC,
Exxon Mobil Corp., Exxonmobil
Oil Corporation, Hess Corp.,

10

DATE

DOCKET
NUMBER

PROCEEDINGS

Marathon Petroleum Corporation, Phillips 66, Royal Dutch
Shell PLC, Shell Oil Company,
Speedway LLC (Attachments:
# 1 Exhibit A, # 2 Exhibit B, # 3
Exhibit C, # 4 Exhibit D, # 5 Exhibit E, # 6 Exhibit F, # 7 Exhibit G) (Cronin, Tonya) Modified on 10/15/2018 (krs, Deputy
Clerk). (Entered: 10/11/2018)
*****
10/25/18

133

REPLY to Response to Motion
re 111 MOTION to Remand to
State Court filed by Mayor and
City Council of Baltimore. (Sher,
Victor) (Entered: 10/25/2018)
*****

12/27/18

147

NOTICE by Mayor and City
Council of Baltimore re 111 Motion to Remand (Attachments:
# 1 Exhibit A Corrected Memorandum in Support of Motion to
Remand) (Sher, Victor) Modified
on 12/28/2018 (krs, Deputy
Clerk). (Entered: 12/27/2018)
*****

02/20/19

154

Request for Hearing re 111 MOTION to Remand to State Court,
124 Response in Opposition to
Motion, to Remand to State

11

DATE

DOCKET
NUMBER

PROCEEDINGS

Court (Cronin, Tonya) (Entered:
02/20/2019)
02/20/19

155

RESPONSE re 154 Request for
Hearing in Opposition filed by
Mayor and City Council of Baltimore. (Sher, Victor) (Entered:
02/22/2019)
*****

04/03/19

161

MOTION to Stay by BP America, Inc., BP P.L.C., BP Products
North America Inc., CNX Resources Corporation, Chevron
Corp., Chevron U.S.A. Inc.,
Citgo Petroleum Corp., ConocoPhillips, ConocoPhillips Company, Consol Energy Inc., Consol Marine Terminals LLC,
Crown Central LLC, Crown
Central New Holdings LLC,
Crown Central Petroleum Corporation, Exxon Mobil Corp.,
Exxonmobil Oil Corporation,
Hess Corp., Marathon Petroleum Corporation, Phillips 66,
Phillips 66 Company, Royal
Dutch Shell PLC, Shell Oil Company, Speedway LLC (Attachments: # 1 Text of Proposed Order) (Cronin, Tonya) (Entered:
04/03/2019)

12

DATE

DOCKET
NUMBER

04/05/19

162

PROCEEDINGS

RESPONSE in Opposition re
161 MOTION to Stay filed by
Mayor and City Council of Baltimore. (Sher, Victor) (Entered:
04/05/2019)
*****

04/12/19

165

REPLY to Response to Motion
re 161 MOTION to Stay filed by
BP America, Inc., BP P.L.C., BP
Products North America Inc.,
CNX Resources Corporation,
Chevron Corp., Chevron U.S.A.
Inc., Citgo Petroleum Corp.,
ConocoPhillips, ConocoPhillips
Company, Consol Energy Inc.,
Consol Marine Terminals LLC,
Crown Central LLC, Crown
Central New Holdings LLC,
Exxon Mobil Corp., Exxonmobil
Oil Corporation, Hess Corp.,
Marathon Petroleum Corporation, Phillips 66, Royal Dutch
Shell PLC, Shell Oil Company,
Speedway LLC. (Cronin, Tonya)
(Entered: 04/12/2019)
*****

04/19/19

170

STIPULATION re 162 Response in Opposition to Motion,
165 Reply to Response to Motion,
161 MOTION to Stay by BP
America, Inc., BP P.L.C., BP

13

DATE

DOCKET
NUMBER

PROCEEDINGS

Products North America Inc.,
CNX Resources Corporation,
Chevron Corp., Chevron U.S.A.
Inc., Citgo Petroleum Corp.,
ConocoPhillips, ConocoPhillips
Company, Consol Energy Inc.,
Consol Marine Terminals LLC,
Crown Central LLC, Crown
Central New Holdings LLC,
Crown Central Petroleum Corporation, Exxon Mobil Corp.,
Exxonmobil Oil Corporation,
Hess Corp., Marathon Petroleum Corporation, Phillips 66,
Phillips 66 Company, Royal
Dutch Shell PLC, Shell Oil Company, Speedway LLC (Attachments: # 1 Text of Proposed Order) (Cronin, Tonya) (Entered:
04/19/2019)
04/22/19

171

CONSENT ORDER accepting
170 Parties’ Joint Stipulation to
Temporarily Stay Execution of
Any Remand Order; denying as
moot 161 Defendants’ Conditional Motion to Stay. Signed by
Judge Ellen L. Hollander on
4/22/2019. (krs, Deputy Clerk)
(Entered: 04/22/2019)

14

DATE

DOCKET
NUMBER

06/10/19

172

MEMORANDUM OPINION.
Signed by Judge Ellen L. Hollander on 6/10/2019. (krs, Deputy
Clerk) (Entered: 06/11/2019)

06/10/19

173

ORDER granting 111 Motion to
Remand; remanding case to the
Circuit Court for Baltimore City
for all further proceedings; staying execution of this Order for a
period of 30 days from the date of
docketing of this Order. Signed
by Judge Ellen L. Hollander on
6/10/2019. (krs, Deputy Clerk)
(Entered: 06/11/2019)

06/11/19

[]

Case Stayed (krs, Deputy Clerk)
(Entered: 06/11/2019)

PROCEEDINGS

*****
06/13/19

178

NOTICE OF APPEAL by BP
America, Inc., BP P.L.C., BP
Products North America Inc.,
CNX Resources Corporation,
Chevron Corp., Chevron U.S.A.
Inc., Citgo Petroleum Corp.,
ConocoPhillips, ConocoPhillips
Company, Consol Energy Inc.,
Consol Marine Terminals LLC,
Crown Central LLC, Crown
Central New Holdings LLC,
Exxon Mobil Corp., Exxonmobil
Oil Corporation, Hess Corp.,

15

DATE

DOCKET
NUMBER

PROCEEDINGS

Marathon Petroleum Corporation, Phillips 66, Royal Dutch
Shell PLC, Shell Oil Company,
Speedway LLC. Filing fee $ 505,
receipt number 0416-8069478.
(Cronin,
Tonya)
(Entered:
06/13/2019)
*****
06/20/19

181

MEMORANDUM to Counsel re:
West Publishing. Signed by
Judge Ellen L. Hollander on
6/20/2019. (hmls, Deputy Clerk)
(Entered: 06/21/2019)

06/20/19

182

MEMORANDUM OPINION.
Signed by Judge Ellen L. Hollander on 6/20/2019. (hmls, Deputy Clerk) (Entered: 06/21/2019)

06/23/19

183

MOTION to Stay re 173 Order
on Motion to Remand to State
Court, by BP America, Inc., BP
P.L.C., BP Products North
America Inc., CNX Resources
Corporation, Chevron Corp.,
Chevron U.S.A. Inc., Citgo Petroleum Corp., ConocoPhillips,
ConocoPhillips Company, Consol
Energy Inc., Consol Marine Terminals LLC, Crown Central
LLC, Crown Central New Holdings LLC, Exxon Mobil Corp.,
Exxonmobil Oil Corporation,

16

DATE

DOCKET
NUMBER

PROCEEDINGS

Hess Corp., Marathon Petroleum Corporation, Phillips 66,
Phillips 66 Company, Royal
Dutch Shell PLC, Shell Oil Company, Speedway LLC (Attachments: # 1 Memorandum in Support, # 2 Text of Proposed Order) (Cronin, Tonya) (Entered:
06/23/2019)
06/23/19

184

STIPULATION re 183 MOTION to Stay re 173 Order on
Motion to Remand to State
Court, by BP America, Inc., BP
P.L.C., BP Products North
America Inc., CNX Resources
Corporation, Chevron Corp.,
Chevron U.S.A. Inc., Citgo Petroleum Corp., ConocoPhillips,
ConocoPhillips Company, Consol
Energy Inc., Consol Marine Terminals LLC, Crown Central
LLC, Crown Central New Holdings LLC, Exxon Mobil Corp.,
Exxonmobil Oil Corporation,
Hess Corp., Marathon Petroleum Corporation, Phillips 66,
Phillips 66 Company, Royal
Dutch Shell PLC, Shell Oil Company, Speedway LLC (Attachments: # 1 Text of Proposed Order) (Cronin, Tonya) (Entered:
06/23/2019)

17

DATE

DOCKET
NUMBER

06/24/19

185

ORDER accepting 184 Joint
Stipulation to Extend the Current Temporary Stay of the Execution of the Remand Order Until Motion To Extend the Stay
Pending Appeal Is Resolved by
the Court, or, if the Motion Is Denied, Through Resolution of Defendants’ Anticipated Motion to
Stay in the U.S. Court of Appeals
for the Fourth Circuit; staying
this case through and including
this Court’s resolution of Defendants’ Motion to Extend the Stay
Pending Appeal, and if that motion is denied, through the resolution of Defendants’ anticipated
Motion to Stay in the U.S. Court
of Appeals for the Fourth Circuit; directing Clerk to refrain
from mailing to the Clerk of the
Circuit Court for Baltimore City
the Remand Order until further
Order of this Court. Signed by
Judge Ellen L. Hollander on
6/24/2019. (krs, Deputy Clerk)
(Entered: 06/24/2019)

07/08/19

186

RESPONSE in Opposition re
183 MOTION to Stay re 173 Order on Motion to Remand to
State Court, filed by Mayor and

PROCEEDINGS

18

DATE

DOCKET
NUMBER

PROCEEDINGS

City Council of Baltimore. (Sher,
Victor) (Entered: 07/08/2019)
07/22/19

187

REPLY to Response to Motion
re 183 MOTION to Stay re 173
Order on Motion to Remand to
State Court, filed by BP America, Inc., BP P.L.C., BP Products
North America Inc., CNX Resources Corporation, Chevron
Corp., Chevron U.S.A. Inc.,
Citgo Petroleum Corp., ConocoPhillips, ConocoPhillips Company, Consol Energy Inc., Consol Marine Terminals LLC,
Crown Central LLC, Crown
Central New Holdings LLC,
Exxon Mobil Corp., Exxonmobil
Oil Corporation, Hess Corp.,
Marathon Petroleum Corporation, Phillips 66, Phillips 66 Company, Royal Dutch Shell PLC,
Shell Oil Company, Speedway
LLC. (Cronin, Tonya) (Entered:
07/22/2019)
*****

07/31/19

192

MEMORANDUM. Signed by
Judge Ellen L. Hollander on
7/31/2019. (ol, Deputy Clerk)
(Entered: 07/31/2019)

07/31/19

193

ORDER denying 183 Motion to
Stay pending disposition of the

19

DATE

DOCKET
NUMBER

PROCEEDINGS

merits of the appeal of the Remand Order; Staying the remand
order pending resolution of the
defendants’ anticipated appeal of
this Order. Signed by Judge Ellen L. Hollander on 7/31/2019. (ol,
Deputy Clerk) (Entered: 07/31/
2019)
*****
10/01/19

197

MOTION to Stay re 173 Order
on Motion to Remand to State
Court, 185 Order, by BP America, Inc., BP P.L.C., BP Products
North America Inc., CNX Resources Corporation, Chevron
Corp., Chevron U.S.A. Inc.,
Citgo Petroleum Corp., ConocoPhillips, ConocoPhillips Company, Consol Energy Inc., Consol Marine Terminals LLC,
Crown Central LLC, Crown
Central New Holdings LLC,
Exxon Mobil Corp., Exxonmobil
Oil Corporation, Hess Corp.,
Marathon Petroleum Corporation, Phillips 66, Royal Dutch
Shell PLC, Shell Oil Company,
Speedway LLC (Attachments:
# 1 Exhibit, # 2 Text of Proposed Order) (Cronin, Tonya)
(Entered: 10/01/2019)

20

DATE

DOCKET
NUMBER

10/02/19

198

PROCEEDINGS

ORDER granting 197 Defendants’ Motion to Temporarily Extend Stay of Remand Order
Pending Resolution of Stay Application to the Supreme Court.
Signed by Judge Ellen L. Hollander on 10/2/2019. (krs, Deputy
Clerk) (Entered: 10/02/2019)
*****

11/08/19

203

MOTION to Lift Stay of Execution of Remand Order by Mayor
and City Council Of Baltimore
(Attachments: # 1 Memorandum
in Support, # 2 Text of Proposed
Order) (Edling, Matthew) (Entered: 11/08/2019)

11/12/19

204

ORDER LIFTING STAY of Execution of Remand Order. Signed
by Judge Ellen L. Hollander on
11/12/2019. (c/m: CCBC) (hmls,
Deputy Clerk) (Entered: 11/12/
2019)

11/12/19

205

Correspondence from Clerk to
the Circuit Court for Baltimore
City re: Remand. (hmls, Deputy
Clerk) (Additional attachment(s)
added on 11/15/2019: # 1 Green
card receipt) (krs, Deputy
Clerk). (Entered: 11/12/2019)

11/18/19

206

Correspondence from Clerk of
the Circuit Court for Baltimore
21

DATE

DOCKET
NUMBER

PROCEEDINGS

City re: Return Receipt Letter.
(bmhs, Deputy Clerk) (Entered:
11/18/2019)

22

IN THE CIRCUIT COURT
FOR BALTIMORE CITY
MAYOR AND CITY COUNCIL OF BALTIMORE,
PLAINTIFF,
v.
BP P.L.C.; BP AMERICA, INC.; BP PRODUCTS NORTH
AMERICA INC.; CROWN CENTRAL PETROLEUM
CORPORATION; CROWN CENTRAL LLC; CROWN
CENTRAL NEW HOLDINGS LLC; CHEVRON CORP.;
CHEVRON U.S.A. INC.; EXXON MOBIL CORP.; EXXONMOBIL OIL CORPORATION. ROYAL DUTCH SHELL PLC;
SHELL OIL COMPANY; CITGO PETROLEUM CORP.;
CONOCOPHILLIPS; CONOCOPHILLIPS COMPANY; LOUISIANA LAND & EXPLORATION CO.; PHILLIPS 66; PHILLIPS
66 COMPANY; MARATHON OIL COMPANY; MARATHON OIL
CORPORATION; MARATHON PETROLEUM CORPORATION;
SPEEDWAY LLC; HESS CORP.; CNX RESOURCES
CORPORATION; CONSOL ENERGY INC.; CONSOL
MARINE TERMINALS LLC, DEFENDANTS.
PLAINTIFF’S COMPLAINT
I. INTRODUCTION[*]
1. Defendants, major corporate members of the fossil
fuel industry, have known for nearly a half century that
unrestricted production and use of their fossil fuel products create greenhouse gas pollution that warms the
planet and changes our climate. They have known for decades that those impacts could be catastrophic and that
[*]

Table of contents omitted.

23

only a narrow window existed to take action before the
consequences would be irreversible. They have nevertheless engaged in a coordinated, multi-front effort to conceal
and deny their own knowledge of those threats, discredit
the growing body of publicly available scientific evidence,
and persistently create doubt in the minds of customers,
consumers, regulators, the media, journalists, teachers,
and the public about the reality and consequences of the
impacts of their fossil fuel pollution. At the same time, Defendants have promoted and profited from a massive increase in the extraction and consumption of oil, coal, and
natural gas, which has in turn caused an enormous, foreseeable, and avoidable increase in global greenhouse gas
pollution and a concordant increase in the concentration
of greenhouse gases,1 particularly carbon dioxide (“CO2”)
and methane, in the Earth’s atmosphere. Those disruptions of the Earth’s otherwise balanced carbon cycle have
substantially contributed to a wide range of dire climaterelated effects, including, but not limited to, global warming, rising atmospheric and ocean temperatures, ocean
acidification, melting polar ice caps and glaciers, more extreme and volatile weather, and sea level rise. Plaintiff,
the Mayor and City Council of Baltimore,2 along with the

As used in this Complaint, the term “greenhouse gases” refers
collectively to carbon dioxide, methane, and nitrous oxide. Where a
cited primary source refers to a specific gas or gases, or when a process relates only to a specific gas or gases, this Complaint refers to
each gas by name.
1

2
ln this Complaint, the words “City” and “Plaintiff” refer to the
Mayor and City Council of Baltimore, unless otherwise stated. The
word “Baltimore” refers to Baltimore City’s geographic area, and
specifically to non-federal lands within its boundaries, unless otherwise stated.

24

Baltimore’s residents, infrastructure, and natural resources, suffer the consequences.
2. Defendants are vertically integrated extractors,
producers, refiners, manufacturers, distributors, promoters, marketers, and sellers of fossil fuel products. Decades
of scientific research show that pollution from the production and use of Defendants’ fossil fuel products plays a direct and substantial role in the unprecedented rise in
emissions of greenhouse gas pollution and increased atmospheric CO2 concentrations that has occurred since the
mid-20th century. This dramatic increase in atmospheric
CO2 and other greenhouse gases is the main driver of the
gravely dangerous changes occurring to the global climate.
3. Anthropogenic (human-caused) greenhouse gas
pollution, primarily in the form of CO2 is far and away the
dominant cause of global warming resulting in severe impacts, including, but not limited to, sea level rise, disruption to the hydrologic cycle, more frequent and intense extreme precipitation and associated flooding, more frequent and intense heatwaves, and associated consequences of those physical and environmental changes.3
The primary source of this pollution is the extraction, production, and consumption of coal, oil, and natural gas, referred to collectively in this Complaint as “fossil fuel products.”4
See IPCC, Climate Change 2014: Synthesis Report, Contribution
of Working Groups I, II and III to the Fifth Assessment Report of
the lntergovernmental Panel on Climate Change [Core Writing
Team, R.K. Pachauri and L.A. Meyer (eds.)]. IPCC. Geneva, Switzerland (2014) 6. Figure SMP.3, https://www.ipcc.ch/report/ar5h/syr.
3

4
See C. Le Quéré et al., Global Carbon Budget 2016, 8 Earth Syst.
Sci. Data 632 (2016), http://www.earth-syst-sci-data.net/8/605/2016.

25

4. The rate at which Defendants have extracted and
sold fossil fuel products has exploded since the Second
World War, as have emissions from those products. The
substantial majority of all greenhouse gas emissions in
history has occurred since the 1950s, a period known as
the “Great Acceleration.”5 About three quarters of all industrial CO2 emissions in history have occurred since the
1960s,6 and more than half have occurred since the late
1980s.7 The annual rate of CO2 emissions from extraction,
production, and consumption of fossil fuels has increased
by more than 60 percent since 1990.8
5. Defendants have known for nearly 50 years that
greenhouse gas pollution from their fossil fuel products
has a significant impact on the Earth’s climate and sea
levels. Defendants’ awareness of the negative implications
of their actions corresponds almost exactly with the Great
Acceleration, and with skyrocketing greenhouse gas
emissions. With that knowledge, Defendants took steps to
protect their own assets from these threats through im-

Cumulative emissions since the beginning of the industrial revolution
to 2015 were 413 GtC attributable to fossil fuels, and 190 GtC attributable to land use change. Id. Global CO2 emissions from fossil fuels and
industry remained nearly constant at 9.9 GtC in 2015, distributed
among coal (41%), oil (34%), gas (19%), cement (5.6%), and gas flaring
(0.7%). Id. at 629.
Will Steffen et al., The Trajectory of the Anthropocene: The Great
Acceleration, 2 THE ANTHROPOCENE REVIEW 81, 81 (2015).
5

6
R. J. Andres et al., A Synthesis of Carbon Dioxide Emissions
from Fossil-Fuel Combustion, 9 BIOGEOSCIENCES 1845, 1851 (2012).
7

Id.

C. Le Quéré et al., Global Carbon Budget 2016, supra note 4, at
630.
8

26

mense internal investment in research, infrastructure improvements, and plans to exploit new opportunities in a
warming world.
6. Instead of working to reduce the use and combustion of fossil fuel products, lower the rate of greenhouse
gas emissions, minimize the damage associated with continued high use and combustion of such products, and ease
the transition to a lower carbon economy, Defendants concealed the dangers, sought to undermine public support
for greenhouse gas regulation, and engaged in massive
campaigns to promote the ever-increasing use of their
products at ever greater volumes. Thus, each Defendant’s
conduct has contributed substantially to the buildup of
CO2 in the environment that drives global warming and its
physical, environmental, and socioeconomic consequences.
7. Defendants’ products—based on the volume of oil,
gas, and coal these companies extracted from the earth—
are directly responsible for at least 151,000 gigatons of
CO2 emissions between 1965 and 2015, representing approximately 15 percent of total emissions of that potent
greenhouse gas during that period. Accordingly, Defendants are directly responsible for a substantial portion of
past and committed sea level rise (sea level rise that will
occur even in the absence of any future emissions), as well
as for a substantial portion of changes to the hydrologic
cycle, because of the consumption of their fossil fuel products. Defendants, individually and collectively, have made
even greater contributions to fossil fuel pollution based on
their shares of “downstream” operations, that is, refinery
output, as well as wholesale and retail sales of their products. And the Defendants, individually and collectively,
have played leadership roles in denialist campaigns to
confuse and obscure the role of their products in causing

27

climate change and the associated dire effects on the
world, including Baltimore.
8. As a direct and proximate consequence of Defendants’ wrongful conduct described in this Complaint, flooding and storms will become more frequent and more severe, and average sea level will rise substantially along
Maryland’s coast, including in Baltimore. Disruptions to
weather cycles, extreme precipitation, heatwaves, and associated consequences—all due to anthropogenic global
warming—will increase in Baltimore. Because Baltimore
is situated on the eastern seaboard in the Mid-Atlantic region and features over 60 miles of waterfront land, it is
particularly vulnerable to sea level rise and flooding, and
the City has already spent significant funds to study, mitigate, and adapt to the effects of global warming. Climate
change impacts already adversely affect Baltimore and
jeopardize City-owned or operated facilities deemed critical for operations, utility services, and risk management,
as well as other assets that are essential to community
health, safety, and well-being.
9. The City has engaged in several planning processes to prepare for the multitude of impacts from climatic shifts, and has recognized increasingly severe consequences therefrom.
10. Defendants’ production, promotion, marketing of
fossil fuel products, simultaneous concealment of the
known hazards of those products, and their championing
of anti-science campaigns, actually and proximately
caused Plaintiff’s injuries.
11. Accordingly, the City brings a claim against Defendants for Public Nuisance, Strict Liability for Failure
to Warn, Strict Liability for Design Defect, Negligent De-

28

sign Defect, Negligent Failure to Warn, Trespass, and violations of the Maryland Consumer Protection Act, Md.
Code Ann., Comm. L. § 13-301.
12. By this Complaint, the City seeks to ensure that
the parties who have profited from externalizing the responsibility for sea level rise, extreme precipitation
events, heatwaves, other results of the changing hydrologic regime caused by increasing temperatures, and associated consequences of those physical and environmental changes, bear the costs of those impacts on the City,
rather than Plaintiff, local taxpayers, residents, or
broader segments of the public. The City does not seek to
impose liability on Defendants for their direct emissions
of greenhouse gases and does not seek to restrain Defendants from engaging in their business operations.
II.

PARTIES
A. Plaintiff

13. Plaintiff, the Mayor and City Council of Baltimore,
brings this action as an exercise of its police power, which
includes, but is not limited to, its power to prevent pollution of the Baltimore’s property and waters, to prevent
and abate nuisances, and to prevent and abate hazards to
public health, safety, welfare, and the environment.
14. Baltimore is already experiencing sea level rise
and associated impacts. Baltimore will experience significant additional sea level rise over the coming decades
through at least the end of the century.9

Union of Concerned Scientist, When Rising Seas Hit Home, 10–
11 (April 2017), https://www.ucsusa.org/sites/default/files/attach/
2017/07/when-rising-seas-hit-home-full-report.pdf
9

29

15. The sea level rise impacts to Baltimore associated
with an increase in average mean sea level height adjacent
and near to Baltimore include, but are not limited to, increased inundation (permanent) and flooding (temporary)
in natural and built environments with higher tides and
intensified wave and storm surge events, and aggravated
wave impacts, including erosion, damage, and destruction
of built structures and infrastructure.
16. In addition, Baltimore is and will continue to be impacted by increased temperatures and disruptions to the
hydrologic cycle. Baltimore is already experiencing a climatic and meteorological shift toward winters and springs
with more extreme precipitation events contrasted by
hotter, dryer, and longer summers. These changes have
led to increased property damage, economic injuries, and
impacts to public health. The City must spend substantial
funds to plan for and respond to these phenomena, and to
mitigate their secondary and tertiary impacts.
17. Compounding these environmental impacts are
cascading social and economic impacts, which cause injuries to the City that will arise out of localized climate
change-related conditions.
B. Defendants
18. Defendants are responsible for a substantial portion of the total greenhouse gases emitted since 1965. Defendants, individually and collectively, are responsible for
extracting, refining, processing, producing, promoting,
and marketing fossil fuel products, the normal and intended use of which has led to the emission of a substantial
percentage of the total volume of greenhouse gases released into the atmosphere since 1965. Indeed, between
1965 and 2015, the named Defendants extracted from the

30

earth enough fossil fuel materials (i.e. crude oil, coal, and
natural gas) to account for more than one in every six tons
of CO2 and methane emitted worldwide. Accounting for
their wrongful promotion and marketing activities, Defendants bear a dominant responsibility for global warming generally, and for the City’s injuries in particular. Defendants’ responsibility is even greater considering their
production, marketing and promotion activities in the
wholesale and retail markets for their products.
19. When reference in this Complaint is made to an act
or omission of the Defendants, unless specifically attributed or otherwise stated, such references should be
interpreted to mean that the officers, directors, agents,
employees, or representatives of the Defendants committed or authorized such an act or omission, or failed to adequately supervise or properly control or direct their employees while engaged in the management, direction, operation or control of the affairs of Defendants, and did so
while acting within the scope of their employment or
agency.
20. BP Entities
a. BP P.L.C. is a multi-national, vertically integrated energy and petrochemical public limited
company, registered in England and Wales
with its principal place of business in London,
England. BP P.L.C. consists of three main operating segments: (1) exploration and production, (2) refining and marketing, and (3) gas
power and renewables. BP P.L.C. is the ultimate parent company of numerous subsidiaries, referred to collectively as the “BP Group,”
which explore for and extract oil and gas worldwide; refine oil into fossil fuel products such as

31

gasoline; and market and sell oil, fuel, other refined petroleum products, and natural gas
worldwide. BP P.L.C.’s subsidiaries explore for
oil and natural gas under a wide range of licensing, joint arrangement, and other contractual
agreements.
b. BP P.L.C. controls and has controlled companywide decisions about the quantity and extent of fossil fuel production and sales, including those of its subsidiaries. BP P.L.C. is the
ultimate decisionmaker on fundamental decisions about the BP Group’s core business, i.e.,
the level of companywide fossil fuels to produce, including production among BP P.L.C.’s
subsidiaries. For instance, BP P.L.C. reported
that in 2016-17 it brought online thirteen major
exploration and production projects. These
contributed to a 12 percent increase in the BP
Group’s overall fossil fuel product production.
These projects were carried out by BP P.L.C.’s
subsidiaries. Based on these projects, BP
P.L.C. expects the BP Group to deliver to customers 900,000 barrels of new product per day
by 2021. BP P.L.C. further reported that in
2017 it sanctioned three new exploration projects in Trinidad, India and the Gulf of Mexico.
c. BP P.L.C. controls and has controlled companywide decisions about the quantity and extent of fossil fuel production, including those of
its subsidiaries. BP P.L.C. makes fossil fuel
production decisions for the entire BP Group
based on factors including climate change. BP
P.L.C.’s Board is the highest decision-making

32

body within the company, with direct responsibility for the BP Group’s climate change policy.
BP P.L.C.’s chief executive is responsible for
maintaining the BP Group’s system of internal
control that governs the BP Group’s business
conduct. BP P.L.C. reviews climate change
risks facing the BP Group through two executive committees—chaired by the Group chief
executive, and one working group chaired by
the executive vice president and Group chief of
staff—as part of BP Group’s established management structure, and directs Group-wide
strategy and decisions regarding climate
change.
d. BP America Inc., is a wholly-owned subsidiary
of BP P.L.C. that acts on BP P.L.C.’s behalf
and subject to BP P.L.C.’s control. BP America
Inc. is a vertically integrated energy and petrochemical company incorporated in the State of
Delaware with its headquarters and principal
place of business in Houston, Texas. BP America Inc., consists of numerous divisions and affiliates in all aspects of the fossil fuel industry,
including exploration for and production of
crude oil and natural gas; manufacture of petroleum products; and transportation, marketing, and sale of crude oil, natural gas, and petroleum products. BP America Inc. has been
qualified to do business in Maryland. BP America Inc. was formerly known as, did or does
business as, and/or is the successor in liability
to Amoco Corporation; Amoco Oil Company;
ARCO Products Company; Atlantic Richfield
Delaware Corporation; Atlantic Richfield Com-

33

pany (a Delaware Corporation); BP Exploration & Oil, Inc.; BP Products North America
Inc.; BP Amoco Corporation; BP Amoco Plc;
BP Oil, Inc.; BP Oil Company; Sohio Oil Company; Standard Oil of Ohio (SOHIO); Standard
Oil (Indiana); The Atlantic Richfield Company
(a Pennsylvania corporation) and its division,
the Arco Chemical Company.
e. BP Products North America Inc. is a subsidiary of BP P.L.C. that acts on BP P.L.C.’s behalf
and subject to BP P.L.C.’s control. BP Products North America Inc. is engaged in fossil
fuel exploration, production, refining, and marketing. It is formed under the laws of Maryland
and domiciled in Maryland. BP Products North
America Inc. maintains its registered offices at
351 West Camden Street, Baltimore, Maryland, 21201.
f. Defendants BP P.L.C., BP America, Inc., and
BP Products North America, Inc., are collectively referred to herein as “BP.”
g. BP transacts and has transacted substantial
fossil fuel-related business in Maryland. A substantial portion of BP’s fossil fuel products are
or have been extracted, refined, transported,
traded, distributed, marketed, manufactured,
promoted, sold, and/or consumed in Maryland,
from which BP derives and has derived substantial revenue. For example, BP operates a
fossil fuel terminal in Curtis Bay, Maryland,
with the capacity to store and distribute approximately 21,840,000 gallons of oil. Additionally, BP markets and/or has promoted and marketed gasoline and other fossil fuel products to
34

consumers, including through at least 180 BPbranded petroleum service stations in Maryland.
21. Crown Central Entities
a. Crown Central Petroleum Corporation has
been among the largest independent refiners
and marketers of petroleum products in the
United States. Crown Central Petroleum Corporation was incorporated in Maryland and had
its principal place of business in Baltimore,
Maryland. Crown Central Petroleum Corporation was formerly known as, did or does business as, and/or is the predecessor in liability to
Crown Central LLC and Crown Central New
Holdings, LLC. Crown Central LLC is incorporated in Maryland and has its principal offices in Baltimore, Maryland. Crown Central
New Holdings LLC is incorporated in Maryland and has its principal offices in Baltimore,
Maryland.
b. Defendants Crown Central Petroleum Corporation, Crown Central LLC, Crown Central
New Holdings LLC, and their predecessors,
successors, parents, subsidiaries, affiliates, and
divisions are collectively referred to herein as
“Crown Central.”
c. Crown Central transacts and/or has transacted
substantial fossil fuel-related business in Maryland. A substantial portion of Crown Central’s
fossil fuel products are or have been extracted,
refined, transported, traded, distributed, marketed, manufactured, sold, and/or consumed in
Maryland, from which Crown Central derives

35

and has derived substantial revenue. For example, Crown Central marketed or markets gasoline and other fossil fuel products to consumers
in Maryland through over 100 Crown-branded
petroleum service stations in Maryland.
22. Chevron Entities
a. Chevron Corporation is a multi-national, vertically integrated energy and chemicals company
incorporated in the State of Delaware, with its
global headquarters and principal place of business in San Ramon, California.
b. Chevron Corporation operates through a web
of United States and international subsidiaries
at all levels of the fossil fuel supply chain. Chevron Corporation’s and its subsidiaries’ operations consist of: 1) exploring for, developing,
and producing crude oil and natural gas; 2) processing, liquefaction, transportation, and regasification associated with liquefied natural
gas; 3) transporting crude oil by major international oil export pipelines; 4) transporting, storage, and marketing of natural gas; 5) refining
crude oil into petroleum products; marketing of
crude oil and refined products; 6) transporting
crude oil and refined products by pipeline, marine vessel, motor equipment, and rail car; 7)
basic and applied research in multiple scientific
fields including chemistry, geology, and engineering; and 8) manufacturing and marketing
of commodity petrochemicals, plastics for industrial uses, and fuel and lubricant additives.

36

c. Chevron Corporation controls and has controlled companywide decisions about the quantity and extent of fossil fuel production and
sales, including those of its subsidiaries.
d. Chevron Corporation controls and has controlled companywide decisions related to climate change and greenhouse gas emissions
from its fossil fuel products, including those of
its subsidiaries.
e. Chevron U.S.A. Inc. is a Pennsylvania corporation with its principal place of business located
in San Ramon, California. Chevron U.S.A. Inc.
is qualified to do business in Maryland. Chevron U.S.A. Inc. is a wholly owned subsidiary of
Chevron Corporation that acts on Chevron
Corporation’s behalf and subject to Chevron
Corporation’s control. Chevron U.S.A. Inc. was
formerly known as, and did or does business as,
and/or is the successor in liability to Gulf Oil
Corporation, Gulf Oil Corporation of Pennsylvania, Chevron Products Company, and Chevron Chemical Company.
f. “Chevron” as used hereafter, means collectively, Defendants Chevron Corporation and
Chevron U.S.A. Inc., and their predecessors,
successors, parents, subsidiaries, affiliates, and
divisions.
g. Chevron transacts and has transacted substantial fossil fuel-related business in Maryland. A
substantial portion of Chevron’s fossil fuel
products are or have been extracted, refined,
transported, traded, distributed, promoted,

37

marketed, manufactured, sold, and/or consumed in Maryland, from which Chevron derives and has derived substantial revenue. For
example, Chevron owned and operated a petroleum and asphalt refinery and fossil fuel-product terminal in Baltimore directly and/or
through its subsidiaries and predecessors-ininterest for a period spanning at least 1948 to
2003. Additionally, Chevron markets and/or
has marketed gasoline and other fossil fuel
products to consumers, including through
Chevron-branded petroleum services stations
in Maryland.
23. Exxon Mobil Entities
a. Exxon Mobil Corporation is a multi-national,
vertically integrated energy and chemicals
company incorporated in the State of New Jersey with its headquarters and principal place of
business in Irving, Texas. Exxon Mobil Corporation is among the largest publicly traded international oil and gas companies in the world.
Exxon Mobil Corporation was formerly known
as, did or does business as, and/or is the successor in liability to ExxonMobil Refining and
Supply Company, Exxon Chemical U.S.A.,
ExxonMobil Chemical Corporation, ExxonMobil Chemical U.S.A., ExxonMobil Refining &
Supply Corporation, Exxon Company, U.S.A.,
Exxon Corporation, and Mobil Corporation.
b. Exxon Mobil Corporation controls and has controlled companywide decisions about the quantity and extent of fossil fuel production and
sales, including those of its subsidiaries. Exxon
Mobil Corporation’s 2017 Form 10-K filed with
38

the United States Securities and Exchange
Commission represents that its success, including its “ability to mitigate risk and provide attractive returns to shareholders, depends on
[its] ability to successfully manage [its] overall
portfolio, including diversification among types
and locations of our projects.”
c. Exxon Mobil Corporation controls and has controlled companywide decisions related to climate change and greenhouse gas emissions
from its fossil fuel products, including those of
its subsidiaries. Exxon Mobil Corporation’s
Board holds the highest level of direct responsibility for climate change policy within the
company. Exxon Mobil Corporation’s Chairman of the Board and Chief Executive Officer,
its President and the other members of its
Management Committee are actively engaged
in discussions relating to greenhouse gas emissions and the risks of climate change on an ongoing basis. Exxon Mobil Corporation requires
its subsidiaries to provide an estimate of greenhouse gas-related emissions costs in their economic projections when seeking funding for
capital investments.
d. Exxonmobil Oil Corporation is wholly-owned
subsidiary of Exxon Mobil Corporation that
acts on Exxon Mobil Corporation’s behalf and
subject to Exxon Mobil Corporation’s control.
Exxonmobil Oil Corporation is incorporated in
the State of New York with its principal place
of business in Irving, Texas. Exxonmobil Oil
Corporation is qualified to do business in Mar-

39

yland. Exxon Mobil Oil Corporation was formerly known as, did or does business as, and/or
is the successor in liability to Mobil Oil Corporation.
e. “Exxon” as used hereafter, means collectively
Defendants Exxon Mobil Corporation and
Exxonmobil Oil Corporation, and their predecessors, successors, parents, subsidiaries, affiliates, and divisions.
f. Exxon consists of numerous divisions and affiliates in all areas of the fossil fuel industry, including exploration for and production of crude
oil and natural gas; manufacture of petroleum
products; and transportation, promotion, marketing, and sale of crude oil, natural gas, and
petroleum products. Exxon is also a major
manufacturer and marketer of commodity petrochemical products.
g. Exxon transacts and has transacted substantial
fossil fuel-related business in Maryland. A substantial portion of Exxon’s fossil fuel products
are or have been extracted, refined, transported, traded, distributed, promoted, marketed, manufactured, sold, and/or consumed in
Maryland, from which Exxon derives and has
derived substantial revenue. For example,
Exxon directly and through its subsidiaries
and/or predecessors in interest owned and operated an oil refinery in Baltimore from 1893 to
the mid-1950s. In the mid-1950s, the facility
was converted to a petroleum storage and marketing facility which Exxon operated until
1998. Additionally, Exxon markets or has marketed gasoline and other fossil fuel products to
40

consumers, including through at least 250
Exxon-branded and at least 40 Mobil-branded
petroleum service stations in Maryland. Exxon
maintains an interactive website that allows
consumers to locate Exxon-branded gas stations in Maryland.
24. Shell Entities
a. Royal Dutch Shell PLC is a vertically integrated, multinational energy and petrochemical company. Royal Dutch Shell PLC is incorporated in England and Wales, with its headquarters and principal place of business in the
Hague, Netherlands. Royal Dutch Shell PLC
consists of over a thousand divisions, subsidiaries, and affiliates engaged in all aspects of the
fossil fuel industry, including exploration, development, extraction, manufacturing, and energy production, transport, trading, marketing, and sales.
b. Royal Dutch Shell PLC controls and has controlled companywide decisions about the quantity and extent of fossil fuel production and
sales, including those of its subsidiaries. Royal
Dutch Shell PLC’s Board of Directors determines whether and to what extent Shell subsidiary holdings around the globe produce Shellbranded fossil fuel products. For instance, in
2015, a Royal Dutch Shell PLC subsidiary employee admitted in a deposition that Royal
Dutch Shell PLC’s Board of Directors made
the decision whether to drill a particular oil deposit off the coast of Alaska.

41

c. Royal Dutch Shell PLC controls and has controlled companywide decisions related to climate change and greenhouse gas emissions
from its fossil fuel products, including those of
its subsidiaries. Overall accountability for climate change within the Shell group of companies lies with Royal Dutch Shell PLC’s Chief
Executive Officer and Executive Committee.
Additionally, in November 2017, Royal Dutch
Shell PLC announced it would reduce the carbon footprint of “its energy products” by
“around” half by 2050. Royal Dutch Shell
PLC’s effort is inclusive of all fossil fuel products produced under the Shell brand, including
those of its subsidiaries. Royal Dutch Shell
PLC’s CEO stated that Royal Dutch Shell PLC
would reduce the carbon footprint of its products, including those of its subsidiaries “by reducing the net carbon footprint of the full range
of Shell emissions, from our operations and
from the consumption of our products.” Additionally, at least as early as 1988, Royal Dutch
Shell PLC, by and through its subsidiaries, was
researching companywide CO2 emissions and
concluded that the Shell group of companies accounted for “4% of the CO2 emitted worldwide
from combustion,” and that climatic changes
could compel the Shell group, as controlled by
Royal Dutch Shell PLC, to “examine the possibilities of expanding and contracting [its] business accordingly.”10
Shell Internationale Petroleum Maatschappij B.V., The Greenhouse Effect at 29 (1988) (prepared for Shell Environmental Conservation Committee).
10

42

d. Shell Oil Company is a wholly owned subsidiary
of Royal Dutch Shell PLC that acts on Royal
Dutch Shell PLC’s behalf and subject to Royal
Dutch Shell PLC’s control. Shell Oil Company
is incorporated in Delaware and with its principal place of business in Houston, Texas. Shell
Oil Company is qualified to do business in Maryland. Shell Oil Company was formerly known
as, did or does business as, and/or is the successor in liability to Deer Park Refining LP, Shell
Oil, Shell Oil Products, Shell Chemical, Shell
Trading US, Shell Trading (US) Company,
Shell Energy Services, Texaco Inc., The Pennzoil Company, Shell Oil Products Company
LLC, Shell Oil Products Company, Star Enterprise, LLC, Star Enterprise LLC, and Pennzoil-Quaker State Company.
e. Royal Dutch Shell has purposefully directed,
and purposefully directs fossil fuel products
into Maryland, and has conducted substantial
fossil fuel business in Maryland. In particular,
Shell has marketed and continues to market
gasoline and other fossil fuel products to consumers through over 200 Shell-branded petroleum service stations. Prior to March 2017,
Royal Dutch Shell also solely operated two petroleum storage and distribution terminals in
Baltimore in which it owned a 50 percent stake,
at which it transferred and stored distillate oils,
various grades of gasoline, liquid gasoline additives, and distillate products.
f. Defendants Royal Dutch Shell PLC, Shell Oil
Company, and their predecessors, successors,

43

parents, subsidiaries, affiliates, and divisions
are collectively referred to as “Shell.”
g. Shell transacts and has transacted substantial
fossil fuel-related business in Maryland. A substantial portion of Shell’s fossil fuel products
are or have been extracted, refined, transported, traded, distributed, promoted marketed, manufactured, sold, and/or consumed in
Maryland, from which Shell derives and has derived substantial revenue.
25. Citgo Petroleum Corporation (“Citgo”)
a. Citgo is a direct, wholly owned subsidiary of
PDV America, Incorporated, which is a wholly
owned subsidiary of PDV Holding, Incorporated. These organizations’ ultimate parent is
Petroleos de Venezuela, S.A. (“PDVSA”), an
entity wholly owned by the Republic of Venezuela that plans, coordinates, supervises, and
controls activities carried out by its subsidiaries. Citgo is incorporated in the State of Delaware and maintains its headquarters in Houston, Texas. Citgo is qualified to do business in
Maryland.
b. Citgo controls and has controlled companywide
decisions about the quantity and extent of fossil
fuel production and sales, including those of its
subsidiaries.
c. Citgo controls and has controlled companywide
decisions related to climate change and greenhouse gas emissions from its fossil fuel products, including those of its subsidiaries.

44

d. Citgo and its subsidiaries are engaged in the
refining, marketing, and transportation of petroleum products including gasoline, diesel
fuel, jet fuel, petrochemicals, lubricants, asphalt, and refined waxes.
e. Citgo transacts and has transacted substantial
fossil fuel-related business in Maryland. A substantial portion of Citgo’s fossil fuel products
are or have been extracted refined, transported, traded, distributed, promoted, marketed, manufactured, sold, and/or consumed in
Maryland, from which Citgo derives and has
derived substantial revenue. For instance, the
Citgo Terminal at the Port of Baltimore distributes more than 430 million gallons of gasoline and diesel annually to retail service stations across the northeastern United States, including Maryland. The Citgo Terminal is also a
major supplier of ethanol, a gasoline additive,
to the mid-Atlantic region, including Maryland.
Additionally, Citgo marketed or markets gasoline and other fossil fuel products to consumers
in Maryland, including through approximately
160 Citgo-branded petroleum service stations
in Maryland.
26. ConocoPhillips Entities
a. ConocoPhillips is a multinational energy company incorporated in the State of Delaware and
with its principal place of business in Houston,
Texas. ConocoPhillips consists of numerous divisions, subsidiaries, and affiliates that carry
out ConocoPhillips’s fundamental decisions related to all aspects of the fossil fuel industry,

45

including exploration, extraction, production,
manufacture, transport, and marketing.
b. ConocoPhillips controls and has controlled
companywide decisions about the quantity and
extent of fossil fuel production and sales, including those of its subsidiaries. ConocoPhillips’ most recent annual report subsumes the
operations of the entire ConocoPhillips group
of subsidiaries under its name. Therein, ConocoPhillips represents that its value—for which
ConocoPhillips maintains ultimate responsibility—is a function of its decisions to direct subsidiaries to explore for and produce fossil fuels:
“Unless we successfully add to our existing
proved reserves, our future crude oil, bitumen,
natural gas and natural gas liquids production
will decline, resulting in an adverse impact to
our business.” ConocoPhillips optimizes the
ConocoPhillips group’s oil and gas portfolio to
fit ConocoPhillips’ strategic plan. For example,
in November 2016, ConocoPhillips announced a
plan to generate $5 billion to $8 billion of proceeds over two years by optimizing its business
portfolio, including its fossil fuel product business, to focus on low cost-of-supply fossil fuel
production projects that strategically fit its development plans.
c. ConocoPhillips controls and has controlled
companywide decisions related to global warming and greenhouse gas emissions from its fossil fuel products, including those of its subsidiaries. For instance, ConocoPhillips’ Board has
the highest level of direct responsibility for cli-

46

mate change policy within the company. ConocoPhillips has developed and implements a corporate Climate Change Action Plan to govern
climate change decision-making across all entities in the ConocoPhillips group.
d. ConocoPhillips Company is a wholly owned
subsidiary of ConocoPhillips that acts on ConocoPhillips’ behalf and subject to ConocoPhillips’ control. ConocoPhillips Company is incorporated in Delaware and has its principal office
in Bartlesville, Oklahoma. ConocoPhillips
Company is qualified to do business in Maryland and has a registered agent for service of
process in Maryland.
e. Louisiana Land & Exploration Co. is a wholly
owned subsidiary of ConocoPhillips that acts on
ConocoPhillips’ behalf and subject to ConocoPhillips’ control. Louisiana Land & Exploration Co. is incorporated in Maryland and has its
principal office in New Orleans, Louisiana.
Louisiana Land & Exploration Co. explores
for, develops, and produces petroleum natural
resources. Louisiana Land & Exploration Co.
maintains a registered agent for service of process in Maryland.
f. Phillips 66 is a multinational energy and petrochemical company incorporated in Delaware
and with its principal place of business in Houston, Texas. It encompasses downstream fossil
fuel processing, refining, transport, and marketing segments that were formerly owned
and/or controlled by ConocoPhillips.

47

g. Phillips 66 Company is a wholly owned subsidiary of Phillips 66 that acts on Phillips 66’s behalf and subject to Phillips 66’s control. Phillips
66 Company is incorporated in Delaware and
has its principal office in Houston, Texas. Phillips 66 Company is qualified to do business in
Maryland and has a registered agent for service of process in Maryland. Phillips 66 Company was formerly known as, did or does business as, and/or is the successor in liability to
Phillips Petroleum Company, Conoco, Inc.,
Tosco Corporation, and Tosco Refining Co.
h. Defendants ConocoPhillips, ConocoPhillips
Company, Louisiana Land & Exploration Co.,
Phillips 66, Phillips 66 Company, and their predecessors, successors, parents, subsidiaries, affiliates, and divisions are collectively referred
to herein as “ConocoPhillips.”
i. ConocoPhillips transacts and has transacted
substantial fossil fuel-related business in Maryland. A substantial portion of ConocoPhillips’s
fossil fuel products are or have been extracted,
refined, transported, traded, distributed, promoted, marketed, manufactured, sold, and/or
consumed in Maryland, from which ConocoPhillips derives and has derived substantial
revenue. For instance, ConocoPhillips marketed or markets gasoline and other fossil fuel
products to consumers in Maryland, including
through ConocoPhillips- and Phillips 66branded petroleum service stations located in
Maryland.

48

27. Marathon Entities
a. Marathon Oil Company is an energy company
incorporated in the State of Ohio with its principal place of business in Houston, Texas. Marathon Oil Company is a corporate ancestor of
Marathon Oil Corporation and Marathon Petroleum Company.
b. Marathon Oil Corporation is a multinational
energy company incorporated in the State of
Delaware and with its principal place of business in Houston, Texas. Marathon Oil Corporation consists of multiple subsidiaries and affiliates involved in the exploration for, extraction,
production, and marketing of fossil fuel products.
c. Marathon Petroleum Corporation is a multinational energy company incorporated in Delaware and with its principal place of business in
Findlay, Ohio. Marathon Petroleum Corporation was spun off from the operations of Marathon Oil Corporation in 2011. It consists of multiple subsidiaries and affiliates involved in fossil
fuel product refining, marketing, retail, and
transport, including both petroleum and natural gas products.
d. Marathon Oil Corporation and Marathon Petroleum Corporation control and have controlled their companywide decisions about the
quantity and extent of fossil fuel production
and sales, including those of their subsidiaries.
e. Marathon Oil Corporation and Marathon Petroleum Corporation control and have controlled their companywide decisions about the
49

quantity and extent of fossil fuel production, including those of their subsidiaries.
f. Speedway LLC is a wholly owned subsidiary of
Marathon Petroleum Corporation that acts on
Marathon Petroleum Corporation’s behalf and
subject to Marathon Petroleum Corporation’s
control. Speedway LLC is incorporated in the
State of Delaware with its principal place of
business in Enon, Ohio. Speedway LLC is qualified to do business in Maryland and has a registered agent for service of process in Maryland.
g. Defendants Marathon Oil Company, Marathon
Oil Corporation, Marathon Petroleum Corporation, Speedway LLC, and their predecessors,
successors, parents, subsidiaries, affiliates, and
divisions, are collectively referred to as “Marathon.”
h. Marathon transacts and has transacted substantial fossil fuel-related business in Maryland. A substantial portion of Marathon’s fossil
fuel products are or have been extracted, refined, transported, traded, distributed, promoted, marketed, manufactured, sold, and/or
consumed in Maryland, from which Marathon
derives and has derived substantial revenue.
For example, Marathon marketed or markets
gasoline and other fossil fuel products to consumers in Maryland, including through over 25
Marathon- and Speedway-branded petroleum
service stations in Maryland.

50

28. Hess Corporation (“Hess”)
a. Hess is a global, vertically integrated petroleum exploration and extraction company incorporated in the State of Delaware with its
headquarters and principal place of business in
New York, New York. Hess is qualified to do
business in Maryland and has a registered
agent for service of process in Maryland. Hess
was formerly known as, did or does business as,
and/or is the successor in liability to Amerada
Hess Corporation, WilcoHess LLC, Hess Oil
Virgin Islands Corporation, Hess Energy
Trading Company, LLC, and Hartree Partners, LP.
b. Hess is engaged in the exploration, development, production, transportation, purchase,
marketing, and sale of crude oil and natural
gas. Its oil and gas production operations are
located primarily in the United States, Denmark, Equatorial Guinea, Malaysia, Thailand,
and Norway. Prior to 2014, Hess also conducted extensive retail operations in its own
name and through its subsidiaries.
c. Hess controls and has controlled companywide
decisions about the quantity and extent of fossil
fuel production and sales, including those of its
subsidiaries.
d. Hess controls and has controlled companywide
decisions related to climate change and greenhouse gas emissions from its fossil fuel products, including those of its subsidiaries.

51

e. Hess directs and has directed substantial fossil
fuel-related business to Maryland. A substantial portion of Hess’s fossil fuel products are or
have been extracted, refined, transported,
traded, distributed, promoted, marketed, manufactured, sold, and/or consumed in Maryland,
from which Hess derives and has derived substantial revenue. For example, Hess marketed
or markets gasoline and other fossil fuel products to consumers in Maryland, including
through petroleum service stations in Maryland.
29. CONSOL Entities
a. CNX Resources Corporation is a vertically integrated energy company that is or has been
involved in coal mining, oil and natural gas exploration and production, fossil fuel product
distribution, and fossil fuel product marketing.
CNX Resources Corporation is incorporated in
Delaware, with its principal place of business in
Canonsburg, Pennsylvania. CNX Resources
Corporation was formerly known as CONSOL
Energy Inc. CONSOL Energy Inc. and its predecessors in interest mined and sold coal since
the 1860s. In 2017, CNX Resources Corporation split its coal mining and related downstream operations into a new entity, also called
CONSOL Energy Inc.
b. CONSOL Energy Inc. is incorporated in the
state of Delaware, and with its principal place
of business in Canonsburg, Pennsylvania.
CONSOL Energy Inc. was formerly known as,
did or does business as, and/or is the successor
in liability to CNX Resources Corporation.
52

c. CNX Resources Corporation and CONSOL
Energy Inc. control and have controlled their
companywide decisions about the quantity and
extent of fossil fuel production and sales, including those of their subsidiaries.
d. CNX Resources Corporation and CONSOL
Energy Inc. control and have controlled their
companywide decisions about the quantity and
extent of fossil fuel production, including those
of their subsidiaries.
e. CONSOL Marine Terminals LLC is a subsidiary of CONSOL Energy Inc. that acts on CONSOL Energy Inc.’s behalf and subject to CONSOL Energy Inc.’s control. CONSOL Marine
Terminals LLC is incorporated in the State of
Delaware and has its principal place of business
in Canonsburg, Pennsylvania. CONSOL Marine Terminals LLC is qualified to do business
in Maryland and has a registered agent for service of process in Maryland. Defendants CNX
Resources Corporation, CONSOL Energy
Inc., CONSOL Marine Terminals LLC, and
their predecessors, successors, parents, subsidiaries, affiliates, and divisions are collectively referred to herein as “CONSOL.”
f. CONSOL transacts and has transacted substantial fossil fuel-related business in Maryland. A substantial portion of CONSOL’s fossil
fuel products are or have been extracted, refined, transported, traded, distributed, promoted, marketed, manufactured, sold, and/or
consumed in Maryland, from which CONSOL
derives and has derived substantial revenue.
For instance, CONSOL owns and operates one
53

of the largest coal export terminals on the
Eastern Seaboard, located in the Port of Baltimore. In 2017, CONSOL shipped approximately 14.3 million tons of coal from its terminal in Baltimore, 53 percent of which came from
CONSOL’s own coal mines in Appalachia.
From the terminal, CONSOL sells and/or distributes that coal into markets in Brazil, Germany, India, and South Korea, among others.
Relevant Non-Parties: Fossil Fuel Industry Associations
30. As set forth in greater detail below, each Defendant had actual knowledge that its fossil fuel products were
hazardous. Defendants obtained knowledge of the hazards of their products independently and through their
membership and involvement in trade associations.
31. Each Defendant’s fossil fuel promotion and marketing efforts were assisted by the trade associations described below. Acting on behalf of the Defendants, the industry associations engaged in a long-term course of conduct to misrepresent, omit, and conceal the dangers of Defendants’ fossil fuel products.
a. The American Petroleum Institute (API):
API is a national trade association representing the oil and gas industry, formed in 1919.
The following Defendants and/or their predecessors in interest are and/or have been API
members at times relevant to this litigation:
BP, Chevron, Crown Central, ExxonMobil,
Shell, ConocoPhillips, Marathon, and Hess.11
American Petroleum Institute, Members (webpage) (accessed
June 18, 2018), http://www.api.org/membership/members.
11

54

b. The Western States Petroleum Association
(WSPA): WSPA is a trade association representing oil producers in Arizona, California,
Nevada, Oregon, and Washington.12 Membership has included, among other entities: BP,
Chevron, Shell, ConocoPhillips, and ExxonMobil. 13
c. The American Fuel and Petrochemical
Manufacturers (AFPM) is a national association of petroleum and petrochemical companies, formerly known as the National Petroleum Refiners Association. At relevant times,
its members included, but were not limited to,
BP, Chevron, Citgo, Exxon Mobil, ConocoPhillips, Marathon, Shell, and Total.14
d. U.S. Oil & Gas Association (USOGA) is a national trade association representing oil and
gas producers, formerly known as the MidContinent Oil & Gas Association. USOGA’s
membership has included BP, Chevron, Citgo,
Exxon, Shell, Marathon, ConocoPhillips, and
Hess.15
Western States Petroleum Association, About (webpage) (accessed June 18, 2018), https://www.wspa.org/about.
12

Western States Petroleum Association, Member Companies
(webpage) (accessed June 18, 2018), https://www.wspa.org/about.
13

American Fuel and Petrochemical Manufacturers, Membership
Directory (webpage) (accessed June 18, 2018), https://www.afpm.org/
membership-directory.
14

See, e.g., Louisiana Mid-Continent Oil & Gas Association, Member Companies (webpage) (accessed June 18, 2018), http://www.
lmoga.com/members/member-companies.
15

55

e. Western Oil & Gas Association was a California nonprofit trade association representing
the oil and gas industries, consisting of over 75
member companies. Its members included
companies and individual responsible for more
than 65 percent of petroleum production and 90
percent of petroleum refining and marketing in
the Western United States.16 WOGA membership included, but was not limited to, Defendants Chevron, ConocoPhillips, Exxon, and
Shell.17 Other fossil fuel company members of
WOGA included, but were not limited to,
Champlin Petroleum Company (Anadarko)18
and Reserve Oil & Gas Company.19
f. The Information Council for the Environment (ICE): ICE was formed by coal companies and their allies, including Western Fuels
Association and the National Coal Association.
Associated companies included Pittsburg and
Midway Coal Mining (Chevron), and Island
Creek Coal Company (Occidental).
g. The Global Climate Coalition (GCC): GCC
was an industry group formed to oppose greenhouse gas emission reduction policies and the
Kyoto Protocol. It was founded in 1989 shortly

Am. Petroleum Inst. v. Knecht, 456 F. Supp. 889, 894 n.2 (C.D.
Cal. 1978), aff’d, 609 F.2d 1306 (9th Cir. 1979).
16

17

Id. at 894 n.3.

Hereinafter, parenthetical references to Defendants indicate
corporate ancestry and/or affiliation.
18

19

Am. Petroleum Inst. v. Knecht, 456 F. Supp. at 894 n.3.

56

after the first Intergovernmental Panel on Climate Change meeting, and disbanded in 2001.
Founding members included the National Association of Manufacturers, the National Coal
Association, the Edison Electric Institute, and
the United States Chamber of Commerce. The
GCC’s early individual corporate members included Amoco (BP), API, Chevron, Exxon,
Ford, Shell Oil, Texaco (Chevron) and Phillips
Petroleum (ConocoPhillips). Over its existence
other members and funders included ARCO
(BP), and the Western Fuels Association. The
coalition also operated for several years out of
the National Association of Manufacturers’ offices.
III. AGENCY
32. At all times herein mentioned, each of the Defendants was the agent, servant, partner, aider and abettor,
co-conspirator, and/or joint venturer of each of the remaining Defendants herein and was at all times operating
and acting within the purpose and scope of said agency,
service, employment, partnership, conspiracy, and joint
venture and rendered substantial assistance and encouragement to the other Defendants, knowing that their conduct was wrongful and/or constituted a breach of duty.
IV. JURISDICTION AND VENUE
33. This Court has subject matter jurisdiction over
this matter under § 1-501 of the Courts and Judicial Proceedings Article of the Maryland Code.
34. This Court has personal jurisdiction over Defendants because they either are domiciled in Maryland; were

57

served with process in Maryland; are organized under the
laws of Maryland; maintain their principal place of business in Maryland; transact business in Maryland; perform
work in Maryland; contract to supply goods, manufactured products, or services in Maryland; caused tortious
injury in Maryland; engage in persistent courses of conduct in Maryland; derive substantial revenue from manufactured goods, products, or services used or consumed in
Maryland; and/or have interests in, use, or possess real
property in Maryland.
35. Venue in this Court is proper because the City’s
causes of action arose in Baltimore and because at least
one defendant conducts business there.
V.

FACTUAL BACKGROUND
A. Global Warming—Observed Effects and Known
Cause

36. Warming of the climate system is unequivocal.
Since the 1960s, many of the observed changes to the climate system are unprecedented over decades to millennia. Globally, the atmosphere and ocean have warmed, sea
level has risen, and the amounts of snow and ice have diminished, thereby altering hydrologic systems.20 As a result, extreme weather events have increased, including,
but not limited to, heat waves, droughts, and extreme precipitation events.21

20

40.
21

IPCC, Climate Change 2014: Synthesis Report, supra note 3, at
Id. at 8.

58

37. Ocean and land surface temperatures have increased at a rapid pace during the late 20th and early 21st
centuries:
2016 was the hottest year on record by globally averaged surface temperatures, exceeding mid-20th century mean ocean and land surface temperatures by approximately 1.69°F.22 Eight of the twelve months in
2016 were hotter by globally averaged surface temperatures than those respective months in any previous
year. October, November, and December 2016 showed
the second hottest average surface temperatures for
those months, second only to temperatures recorded
in 2015.23
The Earth’s hottest month ever recorded was February 2016, followed immediately by the second hottest
month on record, March 2016.24
The second hottest year on record by globally averaged surface temperatures was 2015, and the third
hottest was 2017.25

NOAA, Global Climate Report—Annual 2017 (accessed July 5,
2018), https://www.ncdc.noaa.gov/sotc/global/201713; NASA, NASA,
NOAA Data Show 2016 Warmest Year on Record Globally (press release) (Jan. 18, 2017), https://www.nasa.gov/press-release/nasa-noaadata-show-2016-warmest-year-on-record-globally.
22

23

Id.

Jugal K. Patel, How 2016 Became Earth’s Hottest Year on Record, N.Y. TIMES (Jan. 18, 2017), https://www.nytimes.com/interactive/2017/01/18/science/earth/2016-hottest-year-on-record.html.
24

25

NOAA, Global Climate Report—Annual 2017, supra note 22.

59

The ten hottest years on record by globally averaged
surface temperature have all occurred since 1998,26
and sixteen of the seventeen hottest years have occurred since 2001.27
Each of the past three decades has been warmer by
average surface temperature than any preceding decade on record.28
The period between 1983 and 2012 was likely the
warmest 30-year period in the Northern Hemisphere
since approximately 700 AD.29
38. The average global surface and ocean temperature
in 2016 was approximately 1.7°F warmer than the 20th
century baseline, which is the greatest positive anomaly
observed since at least 1880.30 The increase in hotter temperatures and more frequent positive anomalies during
the Great Acceleration is occurring both globally and locally, including in Baltimore. The graph below shows the
increase in global land and ocean temperature anomalies
since 1880, as measured against the 1910-2000 global average temperature.31
26

Id.

27
NASA, NASA, NOAA Data Show 2016 Warmest Year on Record
Globally (press release) (Jan. 18, 2017), https://www.nasa.gov/pressrelease/nasa-noaa-data-show-2016-warmest-year-on-record-globally.

IPCC, IPCC Climate Change 2014: Synthesis Report, supra note
3, at 2.
28

29

Id.

NOAA, National Centers for Environmental Information, Climate at a Glance (Global Time Series) (June 2017),
https://www.ncdc.noaa.gov/cag/time-series/global/globe/land_ocean/
ytd/12/1880-2016.
30

31

Id.

60

Fig. 1: Global Land and Ocean Temperature
Anomalies, January–December

39. The mechanism by which human activity causes
global warming and climate change is well established:
ocean and atmospheric warming is overwhelmingly
caused by anthropogenic greenhouse gas emissions.32
40. When emitted, greenhouse gases trap heat within
the Earth’s atmosphere that would otherwise radiate into
space.
41. Greenhouse gases are largely byproducts of humans combusting fossil fuels to produce energy and using
fossil fuels to create petrochemical products.
42. Human activity, particularly greenhouse gas emissions, is the primary cause of global warming and its associated effects on Earth’s climate.
43. Prior to World War II, most anthropogenic CO2
emissions were caused by land-use practices, such as forestry and agriculture, which altered the ability of the land
and global biosphere to absorb CO2 from the atmosphere;
32

4.

IPCC, Climate Change 2014: Synthesis Report, supra note 3, at

61

the impacts of such activities on Earth’s climate were relatively minor. Since the beginning of the Great Acceleration, however, both the annual rate and total volume of anthropogenic CO2 emissions have increased enormously
following the advent of major uses of oil, gas, and coal. The
graph below shows that while CO2 emissions attributable
to forestry and other land-use change have remained relatively constant, total emissions attributable to fossil fuels
have increased dramatically since the 1950s.33
Fig. 2: Total Annual Carbon Dioxide Emissions by
Source, 1860-2016

Global Carbon Project, Global Carbon Budget 2017 (Nov. 13,
2017)
http://www.globalcarbonproject.org/carbonbudget/17/files/
GCP_CarbonBudget_2017.pdf (citing CDIAC; R.A. Houghton & Alexander A. Nassikas, Global and Regional Fluxes of Carbon from
Land Use and Land Cover Change 1850–2015, 31 GLOBAL BIOCHEMICAL CYCLES 3, 456 (Feb. 2017)).
33

62

44. As human reliance on fossil fuels for industrial and
mechanical processes has increased, so too have greenhouse gas emissions, especially of CO2. The Great Acceleration is marked by a massive increase in the annual rate
of fossil fuel emissions: more than half of all cumulative
CO2 emissions have occurred since 1988.34 The rate of CO2
emissions from fossil fuels and industry, moreover, has increased threefold since the 1960s, and by more than 60
percent since 1990.35 The graph below illustrates the increasing rate of global CO2 emissions since the industrial
era began.36

34

R. J. Andres et al., supra note 6, at 1851.

C. Le Quéré et al., Global Carbon Budget 2016, supra note 4, at
630 (“Global CO2 emissions from fossil fuels and industry have increased every decade from an average of 3.1±0.2 GtC/yr in the 1960s
to an average of 9.3±0.5 GtC/yr during 2006–2015”).
35

P. Frumhoff et al., The Climate Responsibilities of Industrial
Carbon Producers, 132 CLIMATIC CHANGE 157, 164 (2015),
https://link.springer.com/article/10.1007/s10584-015-1472-5.
36

63

Fig. 3: Cumulative Annual Anthropogenic Carbon
Dioxide Emissions, 1751-2014

45. Because of the increased use of fossil fuel products,
concentrations of greenhouse gases in the atmosphere are
now at a level unprecedented in at least 800,000 years.37
The graph below illustrates the nearly 30 percent increase
in atmospheric CO2 concentration above pre-Industrial
levels since 1960.38

37

4.

IPCC, Climate Change 2014: Synthesis Report, supra note 3, at

C. Le Quéré et al., Global Carbon Budget 2017, 10 EARTH SYST.
SCI. DATA 405, 408 (2018).
38

64

Fig. 4: Atmospheric Carbon Dioxide Concentration in
Parts Per Million, 1960-2015

B. Sea Level Rise—Known Causes and Observed
Effects
46. Sea level rise is the physical consequence of (a) the
thermal expansion of ocean waters as they warm; (b) increased mass loss from land-based glaciers that are melting as ambient air temperature increases; and (c) the
shrinking of land-based ice sheets due to increasing ocean
and air temperature.39

NOAA, Is Sea Level Rising? (webpage) (last updated June 25,
2018) http://oceanservice.noaa.gov/facts/sealevel.html.
39

65

47. Of the increase in energy that has accumulated in
the Earth’s atmosphere between I971 and 2010, more
than 90 percent is stored in the oceans.40
48. Anthropogenic forcing, in the form of greenhouse
gas pollution largely from the production, use, and combustion of fossil fuel products, is the dominant cause of
global mean sea level rise observed during the twentieth
century, particularly since the Great Acceleration.41
49. Anthropogenic greenhouse gas pollution is the
dominant factor in each of the independent causes of sea
level rise,42 including the increase in ocean thermal expansion, in glacier mass loss, and in more negative surface
mass balance from the ice sheets.43
50. There is a well-defined relation between cumulative emissions of CO2 and committed global mean sea
level. This relation, moreover, holds proportionately for
committed regional sea level rise.44
51. Nearly one hundred percent of the sea level rise
from any projected greenhouse gas emissions scenario
will persist for at least 10,000 years.45 This owes to the
40

4.

IPCC, Climate Change 2014: Synthesis Report, supra note 3, at

Aimée B. A. Slangen et al., Anthropogenic Forcing Dominates
Global Mean Sea-Level Rise Since 1970, 6 NATURE CLIMATE
CHANGE 701, 701 (2016).
41

42

Id.

43

Id.

Peter U. Clark et al., Consequences of Twenty-First-Century
Policy for Multi-Millennial Climate and Sea-Level Change, 6 NATURE CLIMATE CHANGE 360, 365 (2016).
44

45

Id. at 361.

66

long residence time of CO2 in the atmosphere that sustains temperature increases, and inertia in the climate
system.46
52. Anthropogenic greenhouse gas pollution caused
the increased frequency and severity of extreme sea level
events (temporary sea level height increases due to storm
surges or extreme tides, exacerbated by elevated baseline
sea level) observed during the Great Acceleration.47 The
incidence and magnitude of extreme sea level events has
increased globally since 1970.48 The impacts of such
events, which generally occur with large storms, high tidal
events, offshore low-pressure systems associated with
high winds, or the confluence of any of these factors,49 are
exacerbated with higher average sea level, which functionally raises the baseline for the destructive impact of
extreme weather and tidal events. Indeed, the magnitude
and frequency of extreme sea level events can occur in the
absence of increased intensity of storm events, given the
increased average elevation from which flooding and inundation events begin. These effects, and others, significantly and adversely affect Plaintiff, with increased severity in the future.

46

Id. at 360.

IPCC, Climate Change 2013: Summary for Policymakers, 7, Table SPM.1, (2013), https://www.ipcc.ch/pdf/assessment-report/ar5/
wg1/WGIAR5_SPM_brochure_en.pdf.
47

IPCC, Climate Change 2013: The Physical Science Basis, Contribution of Working Group I to the Fifth Assessment Report of the
IPCC, 290 (2013), http://www.climatechange2013.org/images/report/WGIAR5_ALL_FINAL.pdf.
48

49

Id.

67

53. Historic greenhouse gas emissions through 2000
alone will cause a global mean sea level rise of at least 7.4
feet.50 Additional greenhouse gas emissions from 20012015 have caused approximately 10 additional feet of committed sea level rise. Even immediate and permanent cessation of all additional anthropogenic greenhouse gas
emissions would not prevent the eventual inundation of
land at elevations between current average mean sea level
and 17.4 feet of elevation in the absence of adaptive
measures.
54. The relationship between anthropogenic CO2 emissions and committed sea level rise is nearly linear and always positive. For emissions, including future emissions,
from the year 2001, the relation is approximately 0.25
inches of committed sea level rise per 1 GtCO2 released.
For the period 1965 to 2000, the relation is approximately
0.05 inches of committed sea level rise per 1 GtCO2 released. For the period 1965 to 2015, normal use of Defendants’ fossil fuel products caused a substantial portion of
committed sea level rise. Each and every additional unit
of CO2 emitted from the use of Defendants’ fossil fuel
products will add to the sea level rise already committed
to the geophysical system.
55. Projected onshore impacts associated with rising
sea temperature and water level include, but are not limited to, increases in flooding and erosion; increases in the
occurrence, persistence, and severity of storm surges; infrastructure inundation; saltwater intrusion in groundwater; public and private property damage; and pollution associated with damaged wastewater infrastructure. All of
these effects significantly and adversely affect Plaintiff.

50

Peter U. Clark et al., supra note 44, at 365.

68

56. Sea level rise has already taken grave tolls on inhabited coastlines. For instance, the U.S. National Oceanic and Atmospheric Administration (“NOAA”) estimates that nuisance flooding occurs from 300 percent to
900 percent more frequently within U.S. coastal communities today than just 50 years ago.51
57. Nationwide, more than three quarters (76%) of
flood days caused by high water levels from sea level rise
between 2005 and 2014 (2,505 of the 3,291 flood days)
would not have happened but for human-caused climate
change. More than two-thirds (67%) of flood days since
1950 would not have happened without the sea level rise
caused by increasing greenhouse gas emissions.52
58. Regional expressions of sea level rise will differ
from the global mean, and are especially influenced by
changes in ocean and atmospheric dynamics, as well as the
gravitational, deformational, and rotational effects of the
loss of glaciers and ice sheets.53 Due to these effects, Baltimore will experience significantly greater absolute committed sea level rise than the global mean.54
59. Baltimore features 60 miles of waterfront land
within four major watersheds. Relative sea level has risen
at a rate of about 0.125 inches per year between 1902 and
2006, which is significantly higher than the global average

51

NOAA, Is Sea Level Rising?, supra note 39.

Climate Central, Sea Level Rise Upping Ante on ‘Sunny Day’
Floods (Oct. 17, 2016), http://www.climatecentral.org/news/climatechange-increases-sunny-day-floods-20784.
52

53

Peter U. Clark et al., supra note 44, at 364.

54

See id., Figure 3(c).

69

of 0.08 inches per year.55 Sea level in Maryland, including
Baltimore, will continue to rise significantly. At the regional level, the State has been subsiding at a rate of approximately 1.5 mm per year.56 This subsidence exacerbates the effects of relative sea level rise. By 2050, sea
level along Maryland’s coast could rise as high as 2.1 feet
above sea level in 2000.57
60. Without Defendants’ fossil fuel-related greenhouse gas pollution, current sea level rise would have been
far less than the observed sea level rise to date.58 Similarly, committed sea level rise that will occur in the future
would also be far less.59

City of Baltimore, Disaster Preparedness and Planning Project
(Oct. 2013), http://www.baltimoresustainability.org/plans/disasterpreparedness-plan.
55

City of Baltimore, Disaster Preparedness and Planning Project,
supra note 55, at 99.
56

Maryland Commission on Climate Change, 2015 Annual Report,
13, (Dec. 2015), http://mde.maryland.gov/programs/Air/Climate
Change/MCCC/Publications/MCCC2015Report.pdf.
57

See, e.g., Robert E. Kopp et al., Temperature-driven Global Sealevel Variability in the Common Era, 113 PROCEEDINGS OF THE NATIONAL ACADEMY OF SCIENCES, E1434-E1441, E1438 (2016),
http://www.pnas.org/content/113/11/E1434.full
(“Counterfactual
hindcasts with this model indicate is extremely likely (P=0.95) that
less than about half of the observed 20th century GSL rise would have
occurred in the absence of global warming.”)
58

Peter U. Clark et al., supra note 44, at 365 (“Our modelling suggests that the human carbon footprint of about [470 billion tons] by
2000 . . . has already committed Earth to a [global mean sea level] rise
of ~1.7m (range of 1.2 to 2.2 m).”).
59

70

C. High Temperatures and Heat Waves
61. Heatwaves are prolonged periods with excessive
ambient temperatures, often (but not necessarily) defined
with reference to historical temperatures at a given locale.
62. Average air temperatures in Maryland have increased by 1.8°F, and all model scenario projections indicate it will continue to rise. The average annual temperatures are projected to increase 3 to 8°F by 2100, and potentially higher in Baltimore.60 As the Earth’s surface
temperature warms, there is not only an overall increase
in average temperature but also more frequent periods of
extreme heat, corresponding with less frequent periods of
extreme cold.
63. The relationship between increased average temperatures and extreme weather is non-linear—even a
small increase in average daily temperatures will correlate to a substantially larger number of extremely hot
days over the course of each year. Because average daily
surface temperatures have risen globally since at least the
mid-20th century and are continuing to rise, the IPCC
projects it is virtually certain (greater than 99 percent
probability) that hot days and nights will become warmer
and more frequent, and very likely (greater than 90 percent probability) that heat waves will become more frequent, over most land areas globally through the mid- to

City of Baltimore, Disaster Preparedness and Planning Project,
supra note 55.
60

71

late-21st century.61 The schematic at Figure 5 below, created by the IPCC, illustrates the relationship between increased mean surface temperatures from anthropogenic
global warming and the occurrence of extreme temperatures.62
Fig. 5: Schematic of Mean Temperature on Extreme
Temperature Occurrence

64. Since as early as the 1950s, increases in the duration, intensity, and especially the frequency of heatwaves
have been detected over many regions,63 including the

IPCC, Fourth Assessment Report: Climate Change 2007: Synthesis Report, Table 3.2, https://www.ipcc.ch/publications_and_data/
ar4/syr/en/mains3-3-5.html#table-3-2.
61

IPCC, Fourth Assessment Report: Climate Change 2007: Working Group I: The Physical Science Basis, Box TS.5, Figure 1,
https://www.ipcc.ch/publications_and_data/ar4/wg1/en/box-ts-5-figure-1.html.
62

S.E. Perkins-Kirkpatrick & P.B. Gibson, Changes in Regional
Heatwave Characteristics as a Function of Increasing Global Temperature. SCIENTIFIC REPORTS 7:12256, 1 (2017).
63

72

eastern United States.64
65. Record-breaking high temperatures are now outnumbering record lows by an average decadal ratio of 2:1
across the United States.65 This represents an increase
from approximately 1.09 high temperature records for
every one low temperature record in the 1950s, and 1.36
high temperature records for every one low temperature
record in the 1990s.66
66. The frequency of record high temperatures relative to record low temperatures will continue to increase
with future anthropogenic global warming. For instance,
under even a moderate rising emissions scenario, the ratio
of record high maximum to record low minimum temperatures in the United States will continue to increase,
reaching ratios of about 20:1 by 2050, and roughly 50:1 by
2100.67
67. Baltimore is particularly vulnerable to rising temperatures. Because of Baltimore’s urban infrastructure,
increased temperatures will add to the heat load of buildings and exacerbate existing urban heat islands adding to
the risk of high ambient temperatures. On some summer
Noah S. Diffenbaugh & Moestasim Ashfaq, Intensification of
Hot Extremes in the United States, 37 Geophysical Research Letters
L15701, 2 (2010).
64

Gerald A. Meehl et al., Relative Increase of Record High Maximum Temperatures Compared to Record Low Minimum Temperatures in the U.S., 36 GEOPHYSICAL RESEARCH LETTERS L23701, at 3
(2009).
65

See Climate Signals, Record High Temps vs. Record Low Temps
(webpage) (accessed June 27, 2018), http://www.climatesignals.org/data/record-high-temps-vs-record-low-temps.
66

67

Gerald A. Meehl et al., supra note 65, at 3.

73

days, air in urban areas can be up to 10°F warmer than in
other areas.68
68. Baltimore is expected to experience a threefold increase in the average number of days exceeding 90 degrees by 2050.69 By 2100, average annual temperatures in
Baltimore are projected to increase by as much as 12°F. 70
Baltimore has already seen an increase in the number of
heat waves, and it is projected that by the end of the century, as many as 95 percent of summer days could reach
extreme maximum temperatures.71 By contrast, an average of 60 percent of Baltimore’s summer days met the
maximum temperature extremes between the 1950s and
1970s.72
D. Disruption to the Hydrologic Cycle—Known
Causes and Observed Effects
69. The “hydrologic cycle” describes the temporal and
spatial movement of water through oceans, land, and the
atmosphere.73 “Evapotranspiration” is the process by
which water on the Earth’s surface turns to vapor and is
City of Baltimore, Disaster Preparedness and Planning Project,
supra note 55, at 84.
68

Baltimore Climate Action Plan, 12 (Jan. 15, 2013),
https://www.baltimoresustainability.org/wp-content/uploads/2015/
12/BaltimoreClimateActionPlan.pdf.
69

City of Baltimore, Disaster Preparedness and Planning Project,
supra note 55, at 36.
70

71

Id. at 84.

72

Id.

NASA Earth Observatory, The Water Cycle (webpage) (accessed
June 27, 2018), https://earthobservatory.nasa.gov/Features/Water.
73

74

absorbed into the atmosphere. The vast majority of evapotranspiration is due to the sun’s energy heating water
molecules, resulting in evaporation.74 Plants also draw water into the atmosphere from soil through transpiration.
Volcanoes, sublimation (the process by which solid water
changes to water vapor), and human activity also contribute to atmospheric moisture.75 As water vapor rises
through the atmosphere and reaches cooler air, it becomes more likely to condense and fall back to Earth as
precipitation.
70. Upon reaching Earth’s surface as precipitation,
water may take several different paths. It can be reevaporated into the atmosphere; seep into the ground as soil
moisture or groundwater; run off into rivers and streams;
or stop temporarily as snowpack or ice. It is during these
phases, when water is available at or near the Earth’s surface, that water is captured for use by humans.
71. Anthropogenic global warming caused by Defendants’ fossil fuel products is disrupting and will continue to
disrupt the hydrologic cycle in Baltimore by changing
evapotranspiration patterns.76 As the lower atmosphere
becomes warmer, evaporation rates have and will continue to increase, resulting in an increase in the amount of
moisture circulating throughout the lower atmosphere.
One observed consequence of higher water vapor concentrations is a shift toward increased frequency of intense
precipitation events, mainly over land areas. Further-

74
See USGS, The Water Cycle: Evaporation (webpage) (accessed
June 27, 2018), https://water.usgs.gov/edu/watercycleevaporation.
html.
75

NASA Earth Observatory, supra note 73.

76

Id.

75

more, because of warmer temperatures, more precipitation is falling as rain rather than snow. These changes affect both the quantity and quality of water resources
available to both human and ecological systems, including
in Baltimore.
72. Maryland, including Baltimore, will see significant
impacts to the hydrologic cycle due to rising temperatures. As the Earth’s surface temperature has increased,
so has evaporation.77 For every 1.8°F of anthropogenic
global warming, the atmosphere’s capacity to hold water
vapor increases by 7 percent.78 Thus, anthropogenic
global warming has increased substantially the total volume of water vapor in the atmosphere at any given time.79
Extreme precipitation events occur when the air is almost
completely saturated, so the occurrence of such events
generally increase in intensity by 6 to 7 percent with each
degree Celsius of increased temperature.80
73. The upward trend of heavy precipitation is particularly evident in the northeastern United States, including Maryland. Calculating maximum daily precipitation
totals for consecutive five-year blocks from 1901 to 2016
revealed a significant increase over the eastern United

77

NASA Earth Observatory, supra note 73.

IPCC, Climate Change 2013: The Physical Science Basis, supra
note 48.
78

79

NASA Earth Observatory, supra note 73.

U.S. Global Change Research Program, Climate Science Special
Report, Fourth National Climate Assessment, Vol. I, 210 (2017),
https://science2017.globalchange.gov/downloads/CSSR2017_FullReport.pdf.
80

76

States, especially in the Northeast (including Maryland),
which saw a 27 percent increase since 1901.81
74. Because of anthropogenic global warming, Baltimore’s hydrologic regime is shifting toward one characterized by more frequent and extreme precipitation
events and associated flooding. These impacts will impact
all sectors, and low-income communities will be particularly affected by flooding, extreme weather, and heat
waves exacerbated by climate change.82 These individual
consequences of changes to the hydrologic regime are described below.
i. Extreme Precipitation and Flooding
75. A consequence of higher water vapor concentrations in the atmosphere is the increased frequency of intense precipitation events.83 Moreover, a larger proportion of precipitation will fall in a shorter amount of time as
compared to the historical average.84 Extreme precipitation events (the upper 0.1 percent of daily rain events)
have increased substantially over the past 100 years in the
United States, by about 33 percent.85 Extreme precipitation episodes in Maryland will become even more extreme
as the climate changes.

81

Id. at 212.

Maryland Commission on Climate Change, 2015 Annual Report,
supra note 57, at 18.
82

83

NASA Earth Observatory, supra note 73.

84

Id.

Pavel Ya. Groisman et al., Trends in intense precipitation in the
climate record, 18 JOURNAL OF CLIMATE 1326, 1328 (2005).
85

77

76. Over the last century, average precipitation has increased by 10 percent in most of Maryland, and intense
precipitation events have increased by 20 percent.86
Heavy precipitation events (defined as rainfall equal to or
greater than the historical 95th percentile) will significantly increase in frequency at least through the year
2100.87
77. Baltimore is vulnerable to tropical storms and hurricanes, which produce wind damage, riverine flooding,
and inundation of shorelines and harbors. Although a
combination of factors generally cause major hurricanes
to weaken upon reaching the Mid-Atlantic coast, severe
damage can and has occurred from less-than-major category hurricanes.88 Flooding and property damage associated with tropical storms has worsened during the second
half of the 20th century.89
78. Extreme precipitation events, including tropical
storms and hurricanes, result in flood events separate
from and additional to tidal influenced floods (i.e., storm
surges). It is possible to have a storm surge coupled with

City of Baltimore, Disaster Preparedness and Planning Project,
supra note 55, at 36.
86

Xiang Gao et al., 21st Century Changes in U.S. Heavy Precipitation Frequency Based on Resolved Atmospheric Patterns, MIT
Joint Program on the Science and Policy of Global Change: Report
302, 15 (2016).
87

City of Baltimore, Disaster Preparedness and Planning Project,
supra note 55, at 62–63.
88

89

Id. at 36, 60–63.

78

a precipitation event.90 In this way, sea level rise and extreme precipitation can interact to create even more extreme flooding events.
79. Baltimore is subject to flash floods, which occur
when water flow from rainfall or snowmelt exceeds the capacity of the City’s stormwater drainage system, especially in the vicinity of Jones Falls, Gywnns Falls, and
Herring Run.
80. The consequences of increased precipitation and
consequent flooding are already affecting Baltimore and
the surrounding region. The City of Baltimore, surrounding municipalities in Baltimore County, and municipalities
in nearby Howard County all experienced extreme rainfall and flooding during major storms in July 2016, and
again in May 2018.
81. On July 30, 2016, nearly unprecedented torrential
rain and flash-flooding hit the Baltimore area. During the
storm, Howard County’s Ellicott City, which borders Baltimore County and sits less than five miles from Baltimore, experienced more than six inches of rain in less than
three hours.91 Substantial portions of Baltimore also experienced more than four inches of rain over the same
hours.92 The deluge constituted a 1,000-year storm for the
region, meaning the calculated likelihood of such a storm
recurring in a given year were less than 0.1 percent. The
catastrophic rain caused severe flooding in Ellicott City’s
90

Id. at 116.

National Weather Service, Ellicott City Historic Rain and Flash
Flood - July 30, 2016 (webpage) (Sept. 1, 2016), https://www.weather.
gov/lwx/EllicottCityFlood2016.
91

92

Id.

79

downtown, killing two people and causing an estimated
$22.4 million in damages, including damages to 90 businesses, 107 residences, and approximately 170 automobiles.93 A study commissioned by Howard County completed in June 2017 found that infrastructure improvements needed to prevent or mitigate major damage in future flooding would cost between $60 million and $85 million, including $35 million in immediately necessary
measures.94
82. Less than two years later, on May 27, 2018, another 1,000-year storm hit the Baltimore area. During the
storm, multiple rain gauges in Ellicott City measured approximately eight inches of rainfall in under three hours,
Baltimore measured more than 3.5 inches of rain, and the
city of Catonsville, which borders Baltimore, measured
more than ten inches of rain.95 The Federal Emergency
Ava-joye Burnett, Damage Estimate Near $22.4M After Flooding In Historic Ellicott City, CBS BALTIMORE (Aug. 22, 2016),
https://baltimore.cbslocal.com/2016/08/22/damage-estimate-near-224m-after-flooding-in-historic-ellicott-city; Ovetta Wiggins, Mary Hui
& John Woodrow Cox, Two dead after severe flash flood in Maryland,
WASHINGTON POST (July 31, 2016), https://www.washingtonpost.com/local/severe-flash-flood-strikes-ellicott-city-overturning-cars-and-destroying-businesses/2016/07/31/a8e50184-5720-11e6831d-0324760ca856_story.html.
93

See, e.g., Luke Broadwater and Scott Dance, Making Ellicott
City safer would cost tens of millions—and it still might flood.
Should the town be rebuilt?, BALTIMORE SUN (June 1, 2018),
http://www.baltimoresun.com/news/maryland/investigations/bs-mdellicott-city-flood-next-steps-20180531-story.html.
94

Tom Di Liberto, Torrential rains bring epic flash floods in Maryland in late May 2018, NOAA CLIMATE.GOV (May 31, 2018),
https://www.climate.gov/news-features/event-tracker/torrentialrains-bring-epic-flash-floods-maryland-late-may-2018.
95

80

Management Agency (“FEMA”), with the President’s approval, issued a Major Disaster Declaration on July 2,
2018, stating that a major disaster existed in Baltimore
and Howard Counties following the extreme rain and related severe flooding.96
83. Anthropogenic climate change will also increase
winter precipitation in Baltimore including snow storms,
ice storms, and freezing rain events.97 Winter precipitation is projected to increase by approximately 40 percent
with more precipitation falling as rain rather than snow.98
ii. Drought
84. Droughts are extended periods of dry weather
caused by a reduction in the amount of precipitation relative to normal conditions over an extended period of
time.99
85. As a result of anthropogenic global warming, Maryland’s hydrologic regime is shifting toward one that is
characterized by fluctuations between intense storms and
droughts. Under this more episodic cycle, while winter
and spring precipitation will likely increase, droughts

FEMA, President Donald J. Trump Approves Major Disaster
Declaration for Maryland (July 2, 2018), https://www.fema.gov/
news-release/2018/07/02/president-donald-j-trump-approves-majordisaster-declaration-maryland.
96

97

Baltimore Climate Action Plan, supra note 69, at 64.

City of Baltimore, Disaster Preparedness and Planning Project,
supra note 55, at 36.
98

99

Id. at 76.

81

lasting several weeks are more likely to occur during the
summer.100
E. Public Health Impacts of Changes to the
Hydrologic Cycle
86. The City has incurred and will continue to incur expenses in planning and preparing for, and treating, the
public health impacts associated with anthropogenic
global warming including, but not limited to, impacts associated with extreme weather, extreme heat, decreased
air quality, and vector-borne illnesses.
87. Extreme heat-induced public health impacts in
Baltimore will result in increased risk of heat-related illnesses (mild heat stress to fatal heat stroke) and the exacerbation of pre-existing conditions in the medically
fragile, chronically ill, and otherwise vulnerable. Between
2000 and 2012, exposure to extreme heat events increased
Baltimore residents’ risk of hospitalization for heart attack by 43 percent, compared to only an 11 percent increase for Maryland residents as a whole.101
88. Increased heat also intensifies the photochemical
reactions that produce smog, ground-level ozone, and fine

Maryland Commission on Climate Change, Global Warming
and the Free State: Comprehensive Assessment of Climate Change
Impacts in Maryland, 2 (July 2008), http://www.mde.state.md.us/
programs/Air/ClimateChange/Documents/FINAL-Chapt%202%20
Impacts_web.pdf.
100

Maryland Institute for Applied Environmental Health, Maryland Climate and Health Profile Report, 28 (Apr. 2016),
http://mde.maryland.gov/programs/Air/ClimateChange/MCCC/
ARWG/MarylandClimateandHealthProfileReport.pdf.
101

82

particulate matter (PM25), which contribute to and exacerbate respiratory disease in children and adults. Increased heat and CO2 enhance the growth of plants that
produce pollen, which are associated with allergies. Also
between 2000 and 2012, exposure to extreme heat events
in Baltimore increased risk of hospitalization for asthma
by 37 percent.102
89. In addition, the warming climate system will create disease-related public health impacts in Baltimore, including but not limited to, increased incidence of emerging and vector-borne diseases with migration of animal
and insect disease vectors; physical and mental health impacts associated with severe weather events, such as
flooding, when they cause population dislocation and infrastructure loss; exacerbation of existing respiratory disease, cardiovascular disease, and stroke as a result of
heatwaves and increased average temperature; and respiratory distress, and exacerbation of existing disease.103
90. Public health impacts of these climatological
changes are likely to be disproportionately borne by communities made vulnerable by their geographic location,
and by racial and income disparities.
F. Attribution
91. “Carbon factors” analysis, devised by the International Panel on Climate Change (IPCC), the United Nations International Energy Agency, and the U.S. Environmental Protection Agency, quantifies the amount of
102

Id.

City of Baltimore, Disaster Preparedness and Planning Project, supra note 55.
103

83

CO2 emissions attributable to a unit of raw fossil fuel extracted from the Earth.104 Emissions factors for oil, coal,
liquefied natural gas, and natural gas are different for
each material but are nevertheless known and quantifiable for each.105 This analysis accounts for the use of Defendants’ fossil fuel products, including non-combustion
purposes that sequester CO2 rather than emit it (e.g., production of asphalt).
92. Defendants’ historical and current fossil fuel extraction and production records are publicly available in
various fora. These include university and public library
collections, company websites, company reports filed with
the U.S. Securities and Exchange Commission, company
histories, and other sources. The cumulative CO2 and methane emissions attributable to Defendants’ fossil fuel
products were calculated by reference to such publicly
available documents.
93. Cumulative carbon analysis allows an accurate calculation of net annual CO2 and methane emissions attributable to each Defendant by quantifying the amount
and type of fossil fuels products each Defendant extracted
and placed into the stream of commerce, and multiplying
those quantities by each fossil fuel product’s carbon factor.
94. Defendants, through their extraction, promotion,
marketing, and sale of their fossil fuel products, caused
approximately 15 percent of global fossil fuel product-re-

See Richard Heede, Tracing Anthropogenic Carbon Dioxide
and Methane Emissions to Fossil Fuel and Cement Producers, 18542010, 122 CLIMATIC CHANGE 229, 232–33 (2014), https://link.springer.
com/article/10.1007/s10584-013-0986-y.
104

105

See, e.g., id.

84

lated CO2 between 1965 and 2015, with contributions currently continuing unabated. This constitutes a substantial
portion of all such emissions in history, and the attendant
historical, projected, and committed sea level rise and disruptions to the hydrologic cycle associated therewith.
95. By quantifying CO2 and methane pollution attributable to Defendants by and through their fossil fuel
products, ambient air and ocean temperature, sea level,
and hydrologic cycle responses to those emissions are also
calculable, and can be attributed to Defendants on an individual and aggregate basis. Individually and collectively, Defendants’ extraction, sale, and promotion of
their fossil fuel products are responsible for substantial
increases in ambient (surface) temperature, ocean temperature, sea level, droughts, extreme precipitation
events, heat waves, and other adverse impacts on Plaintiff
described herein.
96. Anthropogenic CO2 emissions from Defendants’
products have caused a substantial portion of both observed and committed mean global sea level rise.106
97. Anthropogenic CO2 emissions from Defendants’
products have caused and will continue to cause increased
frequency and severity of droughts.
98. Anthropogenic CO2 emissions from Defendants’
products have caused and will continue to cause increases
in daily precipitation extremes over land.107

106

Peter U. Clark et al., supra note 44, at 365.

See, e.g., E.M. Fischer & R. Knutti, Anthropogenic Contribution
to Global Occurrence of Heavy-Precipitation and High-Temperature
Extremes, 5 NATURE CLIMATE CHANGE 560, 560–64 (2015).
107

85

99. Anthropogenic CO2 emissions from Defendants’
products have caused and will continue to cause increased
frequency and magnitude of maximum temperature extremes relative to the historical baseline.108
100. Defendants, through their extraction, promotion,
marketing, and sale of their fossil fuel products, caused a
substantial portion of both those emissions and the attendant historical, projected, and committed sea level rise
and other consequences of the resulting climatic changes
described herein, including increased droughts and extreme weather events.
101. As explained above, this analysis considers only
the volume of raw material actually extracted from the
Earth by these Defendants. Many of these Defendants actually are responsible for far greater volumes of emissions
because they also refine, manufacture, produce, market,
promote, and sell—at both wholesale and retail—more
fossil fuel products than they derive from the raw materials they extract. In addition to their own exploration and
extraction activities, those Defendants purchase, refine,
transport, and sell raw materials extracted by others.
102. In addition, considering the Defendants’ lead
role in promoting, marketing, and selling their fossil fuels
products between 1965 and 2015; their efforts to conceal
the hazards of those products from consumers; their promotion of their fossil fuel products despite knowing the
dangers associated with those products; their dogged
campaign against regulation of those products based on
falsehoods, omissions, and deceptions; and their failure to
pursue less hazardous alternatives available to them, Defendants, individually and together, have substantially
108

Id.

86

and measurably contributed to the City’s climate changerelated injuries.
G. Defendants Went to Great Lengths to Understand, and Either Knew or Should Have Known
About, the Dangers Associated with Extraction,
Promotion, and Sale of Their Fossil Fuel Products.
103. By 1965, concern about the risks of anthropogenic greenhouse gas emissions reached the highest level
of the United States’ scientific community. In that year,
President Lyndon B. Johnson’s Science Advisory Committee Panel on Environmental Pollution reported that by
the year 2000, anthropogenic CO2 emissions would “modify the heat balance of the atmosphere to such an extent
that marked changes in climate . . . could occur.”109 President Johnson announced in a special message to Congress
that “[t]his generation has altered the composition of the
atmosphere on a global scale through . . . a steady increase
in carbon dioxide from the burning of fossil fuels.”110
104. These statements from the Johnson Administration, at a minimum, put Defendants on notice of the potentially substantial dangers to people, communities, and the
planet associated with unabated use of their fossil fuel
products. Moreover, Defendants had amassed a considerable body of knowledge on the subject through their own
independent efforts.
President’s Science Advisory Committee, Restoring the Quality
of Our Environment: Report of the Environmental Pollution Panel,
9 (Nov. 1965), https://hdl.handle.net/2027/ucl.b4315678.
109

President Lyndon B. Johnson, Special Message to Congress on
Conservation and Restoration of Natural Beauty (Feb. 8, 1965),
http://acsc.lib.udel.edu/items/show/292.
110

87

105. A 1963 Conservation Foundation report of a conference of scientists referenced in the 1966 World Book
Encyclopedia, as well as in presidential panel reports and
other sources around that time, described many specific
consequences of rising greenhouse gas pollution in the atmosphere. It warned that a doubling of carbon dioxide
“could be enough to bring about immense flooding of
lower portions of the world’s land surface, resulting from
increased melting of glaciers.” The publication also asserted that “a continuing rise in the amount of atmospheric carbon dioxide is likely to be accompanied by a significant warming of the surface of the earth which by
melting the polar ice caps would raise sea level and by
warming the oceans would change considerably the distributions of marine species including commercial fisheries.”
It warned of the potential inundation of “many densely
settled coastal areas, including the cities of New York and
London” and the possibility of “wiping out the world’s
present commercial fisheries.” The report, in fact, noted
that “the changes in marine life in the North Atlantic
which accompanied the temperature change have been
very noticeable.”111
106. But industry interest in carbon accumulation
goes back at least to 1958. A review in that year of the
American Petroleum Institute Smoke and Fumes Committee’s Air Pollution Research Program by Charles
Jones (the committee secretary and Shell executive) mentions a project focused on analyzing gaseous carbon data
The Conservation Foundation, Implications of Rising Carbon
Dioxide Content of the Atmosphere: A statement of trends and implications of carbon dioxide research reviewed at a conference of scientists (Mar. 1963), https://babel.hathitrust.org/cgi/pt?id=mdp.
39015004619030;view=1up;seq=5.
111

88

to determine the amount of carbon of fossil origin compared to the total amount.112
107. At that time API’s stance was that “the petroleum industry supplies the fuel used by the automobile,
and thus has a sincere interest in the solution to the problem of pollution from automobile exhaust,” according to
an API presentation at the 1958 National Conference on
Air Pollution. API acknowledged the industry’s responsibility in mitigating some of the negative impacts of its
products, stating that the objective of its Smoke and
Fumes committee was to “determine the causes and
methods of control of objectional atmospheric pollution
resulting from the production, manufacture, transportation, sale, and use of petroleum and its products.”113 In
1968, a Stanford Research Institute (SRI) report commissioned by the American Petroleum Institute (API) and
made available to all its members, concluded, among other
things:
If the Earth’s temperature increases significantly, a
number of events might be expected to occur including
the melting of the Antarctic ice cap, a rise in sea levels,
warming of the oceans and an increase in photosynthesis . . . .

Charles A. Jones, A Review of the Air Pollution Research Program of the Smoke and Fumes Committee of the American Petroleum Institute, Journal of the Air Pollution Control Association
(1958), https://www.tandfonline.com/doi/pdf/10.I080/00966665.1958.
10467854.
112

C.A. Jones, Sources of Air Pollution—Transportation (Petroleum), (Nov. 19, 1958), https://www.industrydocumentslibrary.ucsf.
edu/tobacco/docs/#id=xrcm0047.
113

89

It is clear that we are unsure as to what our long-lived
pollutants are doing to our environment; however,
there seems to be no doubt that the potential damage
to our environment could be severe. . . . [T]he prospect
for the future must be of serious concern.114
108. In a supplement to the 1968 report prepared for
API in 1969, authors Robinson and Robbins projected
that based on current fuel usage atmospheric CO2 concentrations would reach 370 ppm by 2000115—almost exactly
what it turned out to be (369.34 ppm, according to data
from NASA).116 The report also draws the connection between the rising concentration and the use of fossil fuels
stating that “balance between environmental sources and
sinks has been disturbed by the emission to the atmosphere of additional CO2 from the increased combustion of
carbonaceous fuels” and that it seemed “unlikely that the
observed rise in atmospheric CO2 has been due to changes
in the biosphere.” The authors warn repeatedly of the
temptations and consequences of ignoring CO2 as a problem and pollutant:
CO2 is so common and such an integral part of all our
activities that air pollution regulations typically state

Elmer Robinson & R.C. Robbins, Sources, Abundance, and
Fate of Gaseous Atmospheric Pollutants, Stanford Research Institute (Feb. 1968), https://www.smokeandfumes.org/documents/document16.
114

Elmer Robinson & R.C. Robbins, Sources, Abundance, and
Fate of Gaseous Atmospheric Pollutants Supplement, Stanford Research Institute (June 1969).
115

NASA Goddard Institute for Space Studies, Global Mean CO2
Mixing Ratios (ppm): Observations, https://data.giss.nasa.gov/modelforce/ghgases/Fig1A.ext.txt (accessed June 16, 2018).
116

90

that CO2 emissions are not to be considered as pollutants. This is perhaps fortunate for our present mode
of living, centered as it is around carbon combustion.
However, this seeming necessity, the CO2 emission, is
the only air pollutant, as we shall see, that has been
shown to be of global importance as a factor that could
change man’s environment on the basis of a long period of scientific investigation.117
109. In 1969, Shell memorialized an on-going 18month project to collect ocean data from oil platforms to
develop and calibrate environmental forecasting theories
related to predicting wave, wind, storm, sea level, and current changes and trends.118 Several Defendants and/or
their predecessors in interest participated in the project,
including Esso Production Research Company (ExxonMobil), Mobil Research and Development Company
(ExxonMobil), Pan American Petroleum Corporation
(BP), Gulf Oil Corporation (Chevron), Texaco Inc. (Chevron), and the Chevron Oil Field Research Company.
110. In a 1970 report from the Engineering Division
of Imperial Oil (Exxon), the author H.R. Holland stated:
“Since pollution means disaster to the affected species,
the only satisfactory course of action is to prevent it—to
maintain the addition of foreign matter at such levels that
it can be diluted, assimilated or destroyed by natural processes—to protect man’s environment from man.” He also

117

Elmer Robinson & R.C. Robbins, supra note 115.

M.M. Patterson, An Ocean Data Gathering Program for the
Gulf of Mexico, Society of Petroleum Engineers (1969),
https://www.onepetro.org/conference-paper/SPE-2638-MS.
118

91

noted that “a problem of such size, complexity and importance cannot be dealt with on a voluntary basis.” CO2
was listed as an air pollutant in the document.119
111. In 1972, API members, including Defendants, received a status report on all environmental research projects funded by API. The report summarized the 1968
SRI report describing the impact of fossil fuel products,
including Defendants’, on the environment, including
global warming and attendant consequences. Defendants
and/or their predecessors in interest that received this report include, but were not limited to: American Standard
of Indiana (BP), Asiatic (Shell), Ashland (Marathon), Atlantic Richfield (BP), British Petroleum (BP). Chevron
Standard of California (Chevron), Cities Service (Citgo),
Esso Research (ExxonMobil), Ethyl (formerly affiliated
with Esso, which was subsumed by ExxonMobil), Getty
(ExxonMobil), Gulf (Chevron, among others), Humble
Standard of New Jersey (ExxonMobil/Chevron/BP),
Marathon, Mobil (ExxonMobil), Pan American (BP),
Shell, Standard of Ohio (BP), Texaco (Chevron), Union
(Chevron), Skelly (ExxonMobil), Colonial Pipeline (ownership has included BP, Citgo, ExxonMobil, and Chevron
entities, among others), Continental (ConocoPhillips),
Dupont (former owner of Conoco), Phillips (ConocoPhillips), and Caltex (Chevron).120 Other members of the fossil
fuel industry that received the report include, but were

H.R. Holland, Pollution is Everybody’s Business, Imperial Oil
(1970), https://www.desmogblog.com/sites/beta.desmogblog.com/files/DeSmogBlog-Imperial%20Oil%20Archive-Pollution-EveryoneBusiness-1970.pdf
119

American Petroleum Institute, Environmental Research, A
Status Report, Committee for Air and Water Conservation (Jan.
1972), http://files.eric.ed.gov/fulltext/ED066339.pdf.
120

92

not limited to, Sun (Sunoco), Rock Island (Koch Industries), Signal (Honeywell), Great Northern, Edison Electric Institute (representing electric utilities), Bituminous
Coal Research (coal industry research group), Mid-Continent Oil & Gas Association (presently the U.S. Oil & Gas
Association, a national trade association), Western Oil &
Gas Association, National Petroleum Refiners Association (presently the American Fuel and Petrochemical
Manufacturers Association, a national trade association),
and Champlin (Anadarko), among others.121
112. In a 1977 presentation and again in a 1978 briefing. Exxon scientists warned the Exxon Corporation
Management Committee that CO2 concentrations were
building in the Earth’s atmosphere at an increasing rate,
that CO2 emissions attributable to fossil fuels were retained in the atmosphere, and that CO2 was contributing
to global warming.122 The report stated:
There is general scientific agreement that the most
likely manner in which mankind is influencing the
global climate is through carbon dioxide release from
the burning of fossil fuels . . . [and that] Man has a time
window of five to ten years before the need for hard
decisions regarding changes in energy strategies
might become critical.123

121

Id.

Memo from J.F. Black to F.G. Turpin, The Greenhouse Effect,
Exxon Research and Engineering Company (June 6, 1978),
http://www.climatefiles.com/exxonmobil/1978-exxon-memo-ongreenhouse-effect-for-exxon-corporation-management-committee.
122

123

Id.

93

One presentation slide read: “Current scientific opinion overwhelmingly favors attributing atmospheric carbon dioxide increase to fossil fuel combustion.”124 The report also warned that “a study of past climates suggests
that if the earth does become warmer, more rainfall
should result. But an increase as large as 2°C would probably also affect the distribution of the rainfall.” Moreover,
the report concluded that “doubling in CO2 could increase
average global temperature l°C to 3°C by 2050 A.D. (10°C
predicted at poles).”125
113. Thereafter, Exxon engaged in a research program to study the environmental fate of fossil fuel-derived
greenhouse gases and their impacts, which included publication of peer-reviewed research by Exxon staff scientists and the conversion of a supertanker into a research
vessel to study the greenhouse effect and the role of the
oceans in absorbing anthropogenic CO2. Much of this research was shared in a variety of fora, symposia, and
shared papers through trade associations and directly
with other Defendants.
114. Exxon scientists made the case internally for using company resources to build corporate knowledge
about the impacts of the promotion, marketing, and consumption of Defendants’ fossil fuel products. Exxon climate researcher Henry Shaw wrote in 1978: “The rationale for Exxon’s involvement and commitment of funds
and personnel is based on our need to assess the possible
impact of the greenhouse effect on Exxon business. Exxon
must develop a credible scientific team that can critically
evaluate the information generated on the subject and be
124

Id.

125

Id.

94

able to carry bad news, if any, to the corporation.”126
Moreover, Shaw emphasized the need to collaborate with
universities and government to more completely understand what he called the “CO2 problem.”127
115. In 1979, API and its members, including Defendants, convened a Task Force to monitor and share cutting
edge climate research among the oil industry. The group
was initially called the CO2 and Climate Task Force, but
changed its name to the Climate and Energy Task Force
in 1980 (hereinafter referred to as “API CO2 Task
Force”). Membership included senior scientists and engineers from nearly every major U.S. and multinational oil
and gas company, including Exxon, Mobil (ExxonMobil),
Amoco (BP), Phillips (ConocoPhillips), Texaco (Chevron),
Shell, Sunoco, Sohio (BP), as well as Standard Oil of California (BP) and Gulf Oil (Chevron), among others. The
Task Force was charged with assessing the implications
of emerging science on the petroleum and gas industries
and identifying where reductions in greenhouse gas emissions from Defendants’ fossil fuel products could be
made.128
116. In 1979, API sent its members a background
memo related to the API CO2 and Climate Task Force’s
Henry Shaw, Memo to Edward David Jr. on the “Greenhouse
Effect”, Exxon Research and Engineering Company (Dec. 7, 1978),
http://insideclimatenews.org/sites/default/files/documents/Credible
%20Scientific%20Team%201978%20Letter.pdf.
126

127

Id.

American Petroleum Institute, AQ-9 Task Force Meeting
Minutes (Mar. 18, 1980), http://insideclimatenews.org/sites/default/files/documents/AQ-9%20Task%20Force%20Meeting%20%
281980%29.pdf (AQ-9 refers to the “CO2 and Climate” Task Force).
128

95

efforts, stating that CO2 concentrations were rising steadily in the atmosphere, and predicting when the first clear
effects of climate change might be felt.129
117. Also in 1979, Exxon scientists advocated internally for additional fossil fuel industry-generated atmospheric research in light of the growing consensus that consumption of fossil fuel products was changing the Earth’s
climate:
We should determine how Exxon can best participate
in all these [atmospheric science research] areas and
influence possible legislation on environmental controls. It is important to begin to anticipate the strong
intervention of environmental groups and be prepared
to respond with reliable and credible data. It behooves
[Exxon] to start a very aggressive defensive program
in the indicated areas of atmospheric science and climate because there is a good probability that legislation affecting our business will be passed. Clearly, it is
in our interest for such legislation to be based on hard
scientific data. The data obtained from research on the
global damage from pollution, e.g., from coal combustion, will give us the needed focus for further research
to avoid or control such pollutants.130

Neela Banerjee, Exxon’s Oil Industry Peers Knew About Climate Dangers in the 1970s, Too, INSIDE CLIMATE NEWS (Dec. 22,
2015), https://insideclimatenews.org/news/22122015/exxon-mobil-oilindustry-peers-knew-about-climate-change-dangers-1970s-american-petroleum-institute-api-shell-chevron-texaco.
129

Henry Shaw, Exxon, Memo to H.N. Weinberg about “Research
in Atmospheric Science”, Exxon Inter-Office Correspondence (Nov.
19, 1979), https://insideclimatenews.org/sites/default/files/documents/Probable%20Legislation%20Memo%20(1979).pdf.
130

96

118. That same year, Exxon Research and Engineering reported that: “The most widely held theory [about increasing CO2 concentration] is that the increase is due to
fossil fuel combustion, increasing CO2 concentration will
cause a warming of the earth’s surface, and the present
trend of fossil fuel consumption will cause dramatic environmental effects before the year 2050.”131 According to
the report, “ecological consequences of increased CO2” to
500 ppm (1.7 times 1850 levels) could mean: “a global temperature increase of 3°F”; “the southwest states would be
hotter, probably by more than 3°F, and drier”; “most of
the glaciers in the North Cascades and Glacier National
Park would be melted”; “there would be less of a winter
snow pack in the Cascades, Sierras, and Rockies, necessitating a major increase in storage reservoirs”; “marine
life would be markedly changed”; and “maintaining runs
of salmon and steelhead and other subarctic species in the
Columbia River system would become increasingly difficult.”132 With a doubling of the 1860 CO2 concentration,
“ocean levels would rise four feet” and “the Arctic Ocean
would be ice free for at least six months each year, causing
major shifts in weather patterns in the northern hemisphere.”133
119. Further, the report stated that unless fossil fuel
use was constrained, there would be “noticeable temperature changes” associated with an increase in atmospheric
W.L. Ferrall, Exxon, Memo to R.L. Hirsch about “Controlling
Atmospheric CO2”, Exxon Research and Engineering Company (Oct.
16, 1979), http://insideclimatenews.org/sites/default/ files/documents/CO2%20and%20Fuel%20Use%20Projections.pdf.
131

132

Id.

133

Id.

97

CO2 from about 280 parts per million before the Industrial
Revolution to 400 parts per million by the year 2010.134
Those projections proved remarkably accurate—atmospheric CO2 concentrations surpassed 400 parts per million
in May 2013, for the first time in millions of years.135 In
2015, the annual average CO2 concentration rose above
400 parts per million, and in 2016 the annual low surpassed 400 parts per million, meaning atmospheric CO2
concentration remained above that threshold all year.136
120. In 1980, API’s CO2 Task Force members discussed the oil industry’s responsibility to reduce CO2
emissions by changing refining processes and developing
fuels that emit less CO2. The minutes from the Task
Force’s February 29, 1980, meeting included a summary
of a presentation on “The CO2 Problem” given by Dr. John
Laurmann, which identified the “scientific consensus on
the potential for large future climatic response to increased CO2 levels” as a reason for API members to have
concern with the “CO2 problem” and informed attendees
that there was “strong empirical evidence that rise [in CO2
concentration was] caused by anthropogenic release of
CO2, mainly from fossil fuel combustion.”137 Moreover, Dr.
Laurmann warned that the amount of CO2 in the atmosphere could double by 2038, which he said would likely
134

Id.

Nicola Jones, How the World Passed a Carbon Threshold and
Why It Matters, YALE ENVIRONMENT 360 (Jan. 26, 2017),
http://e360.yale.edu/features/how-the-world-passed-a-carbonthreshold-400ppm-and-why-it-matters.
135

136

Id.

American Petroleum Institute, AQ-9 Task Force Meeting
Minutes (Mar. 18, 1980), supra note 128.
137

98

lead to a 2.5°C (4.5°F) rise in global average temperatures
with “major economic consequences.” He then told the
Task Force that models showed a 5°C (9°F) rise by 2067,
with “globally catastrophic effects.”138 A taskforce member and representative of Texaco (Chevron) leadership
present at the meeting posited that the API CO2 Task
Force should develop ground rules for energy release of
fuels and the cleanup of fuels as they relate to CO2 creation.
121. In 1980, the API CO2 Task Force also discussed
a potential area for investigation: alternative energy
sources as a means of mitigating CO2 emissions from Defendants’ fossil fuel products. These efforts called for research and development to “Investigate the Market Penetration Requirements of Introducing a New Energy
Source into World Wide Use.” Such investigation was to
include the technical implications of energy source
changeover, research timing, and requirements.139
122. By 1980, Exxon’s senior leadership had become
intimately familiar with the greenhouse effect and the role
of CO2 in the atmosphere. In that year, Exxon Senior Vice
President and Board member George Piercy questioned
Exxon researchers on the minutiae of the ocean’s role in
absorbing atmospheric CO2, including whether there was
a net CO2 flux out of the ocean into the atmosphere in certain zones where upwelling of cold water to the surface
occurs, because Piercy evidently believed that the oceans
could absorb and retain higher concentrations of CO2 than

138

Id.

139

Id.

99

the atmosphere.”140 This inquiry aligns with Exxon supertanker research into whether the ocean would act as a significant CO2 sink that would sequester atmospheric CO2
long enough to allow unabated emissions without triggering dire climatic consequences. As described below,
Exxon eventually scrapped this research before it produced enough data from which to derive a conclusion.141
123. Also in 1980, Imperial Oil Limited (a Canadian
ExxonMobil subsidiary) reported to managers and environmental staff at multiple affiliated Esso and Exxon
companies that increases in fossil fuel usage aggravates
CO2 in the atmosphere. Noting that the United Nations
was encouraging research into the carbon cycle, Imperial
reported that “[t]echnology exists to remove CO2 from
[fossil fuel power plant] stack gases but removal of only
50 percent of the CO2 would double the cost of power generation.”
124. Exxon scientist Roger Cohen warned his colleagues in a 1981 internal memorandum that “future developments in global data gathering and analysis, along
with advances in climate modeling, may provide strong
evidence for a delayed CO2 effect of a truly substantial
magnitude,” and that under certain circumstances it

Neela Banerjee, More Exxon Documents Show How Much It
Knew About Climate 35 Years Ago, INSIDE CLIMATE NEWS (Dec. 1,
2015), https://insideclimatenews.org/news/01122015/ documents-exxons-early-CO2-position-senior-executives-engage-and-warming-forecast.
140

Neela Banerjee et al., Exxon Believed Deep Dive into Climate
Research Would Protect Its Business, INSIDE CLIMATE NEWS (Sept.
17, 2015), https://insideclimatenews.org/news/16092015/exxon-believed-deep-dive-into-climate-research-would-protect-its-business.
141

100

would be “very likely that we will unambiguously recognize the threat by the year 2000.”142 Cohen had expressed
concern that the memorandum mischaracterized potential effects of unabated CO2 emissions from Defendants’
fossil fuel products: “. . . it is distinctly possible that the
. . . [Exxon Planning Division’s] scenario will produce effects which will indeed be catastrophic (at least for a substantial fraction of the world’s population).”143
125. In 1981, Exxon’s Henry Shaw, the company’s
lead climate researcher at the time, prepared a summary
of Exxon’s current position on the greenhouse effect for
Edward David Jr., president of Exxon Research and Engineering, stating in relevant part:
a. “Atmospheric CO2 will double in 100 years if
fossil fuels grow at 1.4%/a2.
b. 3°C global average temperature rise and 10°C
at poles if CO2 doubles.
i.

Major shifts in rainfall/agriculture

ii.

Polar ice may melt”144

126. In 1982, another report prepared for API by scientists at the Lamont-Doherty Geological Observatory at
Columbia University recognized that atmospheric CO2
142
Roger W. Cohen, Exxon Memo to W. Glass about possible “catastrophic” effect of CO2, Exxon Inter-Office Correspondence (Aug.
18,
1981),
http://www.climatefiles.com/exxonmobil/1981-exxonmemo-on-possible-emission-consequences-of-fossil-fuel-consumption.
143

Id.

144
Henry Shaw, Exxon Memo to E. E. David, Jr. about “CO2 Position Statement”, Exxon Inter-Office Correspondence (May 15, 1981),
https://insideclimatenews.org/sites/default/files/documents/Exxon%
20Position%20on%20CO2%20%281981%29.pdf.

101

concentration had risen significantly compared to the beginning of the industrial revolution from about 290 parts
per million to about 340 parts per million in 1981 and
acknowledged that despite differences in climate modelers’ predictions, all models indicated a temperature increase caused by anthropogenic CO2 within a global mean
range of 4º C (7.2ºF). The report advised that there was
scientific consensus that “a doubling of atmospheric CO2
from [ ] pre-industrial revolution value would result in an
average global temperature rise of (3.0 ± 1.5)ºC [5.4 ±
2.7ºF].” It went further, warning that “[s]uch a warming
can have serious consequences for man’s comfort and survival since patterns of aridity and rainfall can change, the
height of the sea level can increase considerably and the
world food supply can be affected.”145 Exxon’s own modeling research confirmed this, and the company’s results
were later published in at least three peer-reviewed scientific papers.146
127. Also in 1982, Exxon’s Environmental Affairs
Manager distributed a primer on climate change to a
“wide circulation [of] Exxon management . . . intended to

American Petroleum Institute, Climate Models and CO2 Warming: A Selective Review and Summary, Lamont-Doherty Geological
Observatory (Columbia University) (Mar. 1982), https://assets.documentcloud.org/documents/2805626/1982-API-Climate-Models-andCO2-Warming-a.pdf.
145

See Roger W. Cohen, Exxon Memo summarizing findings of
research in climate modeling, Exxon Research and Engineering
Company (Sept. 2, 1982), https://insideclimatenews.org/sites/default/files/documents/%2522Consensus%2522%20on%20CO2%20Impacts%20(1982).pdf (discussing research articles).
146

102

familiarize Exxon personnel with the subject.”147 The primer also was “restricted to Exxon personnel and not to be
distributed externally.”148 The primer compiled science on
climate change available at the time, and confirmed fossil
fuel combustion as a primary anthropogenic contributor
to global warming. The report estimated a CO2 doubling
around 2090 based on Exxon’s long-range modeled outlook. The author warned that “uneven global distribution
of increased rainfall and increased evaporation” were expected to occur, and that “disturbances in the existing
global water distribution balance would have dramatic impact on soil moisture, and in turn, on agriculture.”149
Moreover, the melting of the Antarctic ice sheet could result in global sea level rise of five feet which would “cause
flooding on much of the U.S. East Coast, including the
State of Florida and Washington, D.C.”150 Indeed, it
warned that “there are some potentially catastrophic
events that must be considered,” including sea level rise
from melting polar ice sheets. It noted that some scientific
groups were concerned “that once the effects are measurable, they might not be reversible.”151
128. In a summary of Exxon’s climate modeling research from 1982, Director of Exxon’s Theoretical and
M. B. Glaser, Exxon Memo to Management about “CO2 ‘Greenhouse’ Effect”, Exxon Research and Engineering Company (Nov. 12,
1982),
http://insideclimatenews.org/sites/default/files/documents/
1982%20Exxon%20Primer%20on%20CO2%20Greenhouse%20Effect.pdf.
147

148

Id.

149

Id.

150

Id.

151

Id.

103

Mathematical Sciences Laboratory Roger Cohen wrote
that “the time required for doubling of atmospheric CO2
depends on future world consumption of fossil fuels.” Cohen concluded that Exxon’s own results were “consistent
with the published predictions of more complex climate
models” and “in accord with the scientific consensus on
the effect of increased atmospheric CO2 on climate.”152
129. At the fourth biennial Maurice Ewing Symposium at the Lamont-Doherty Geophysical Observatory in
October 1982, attended by members of API, Exxon Research and Engineering Company, the Observatory’s
president E.E. David delivered a speech titled: “Inventing the Future: Energy and the CO2 ‘Greenhouse Effect.’”153 His remarks included the following statement:
“[F]ew people doubt that the world has entered an energy
transition away from dependence upon fossil fuels and toward some mix of renewable resources that will not pose
problems of CO2 accumulation.” He went on, discussing
the human opportunity to address anthropogenic climate
change before the point of no return:
It is ironic that the biggest uncertainties about the CO2
buildup are not in predicting what the climate will do,
but in predicting what people will do . . . . [It] appears
we still have time to generate the wealth and

Roger W. Cohen, Exxon Memo summarizing findings of research in climate modeling, Exxon Research and Engineering Company (Sept. 2, 1982), https://insideclimatenews.org/sites/default/
files/documents/%2522Consensus%2522%20on%20CO2%20Impacts%20(1982).pdf.
152

153
E. E. David, Jr., Inventing the Future: Energy and the CO2
Greenhouse Effect: Remarks at the Fourth Annual Ewing Symposium, Tenafly, NJ (1982), http://sites.agu.org/publications/files/
2015/09/ch1.pdf.

104

knowledge we will need to invent the transition to a
stable energy system.
130. Throughout the early 1980s, at Exxon’s direction, Exxon climate scientist Henry Shaw forecasted
emissions of CO2 from fossil fuel use. Those estimates
were incorporated into Exxon’s 21st century energy projections and were distributed among Exxon’s various divisions. Shaw’s conclusions included an expectation that
atmospheric CO2 concentrations would double in 2090 per
the Exxon model, with an attendant 2.3–5.6° F average
global temperature increase. Shaw compared his model
results to those of the EPA, the National Academy of Sciences, and the Massachusetts Institute of Technology, indicating that the Exxon model predicted a longer delay
than any of the other models, although its temperature increase prediction was in the mid-range of the four projections.154
131. During the 1980s, many Defendants formed their
own research units focused on climate modeling. The API,
including the API CO2 Task Force, provided a forum for
Defendants to share their research efforts and corroborate their findings related to anthropogenic greenhouse
gas emissions.155
132. During this time, Defendants’ statements express an understanding of their obligation to consider and
mitigate the externalities of unabated promotion, marketing, and sale of their fossil fuel products. For example, in
1988, Richard Tucker, the president of Mobil Oil, presented at the American Institute of Chemical Engineers
Neela Banerjee, More Exxon Documents Show How Much It
Knew About Climate 35 Years Ago, supra note 140.
154

Neela Banerjee, Exxon’s Oil Industry Peers Knew About Climate Dangers in the 1970s, Too, supra note 129.
155

105

National Meeting, the premier educational forum for
chemical engineers, where he stated:
[H]umanity, which has created the industrial system
that has transformed civilities, is also responsible for
the environment, which sometimes is at risk because
of unintended consequences of industrialization. . . .
Maintaining the health of this life-support system is
emerging as one of the highest priorities. . . . [W]e
must all be environmentalists.
The environmental covenant requires action on many
fronts . . . the low-atmosphere ozone problem, the upper-atmosphere ozone problem and the greenhouse
effect, to name a few. . . . Our strategy must be to reduce pollution before it is ever generated—to prevent
problems at the source.
Prevention means engineering a new generation of
fuels, lubricants and chemical products. . . . Prevention
means designing catalysts and processes that minimize or eliminate the production of unwanted byproducts. . . . Prevention on a global scale may even require
a dramatic reduction in our dependence on fossil
fuels—and a shift towards solar, hydrogen, and safe
nuclear power. It may be possible that—just possible—that the energy industry will transform itself so
completely that observers will declare it a new industry. . . . Brute force, low-tech responses and money
alone won’t meet the challenges we face in the energy
industry.156

156
Richard E. Tucker, High Tech Frontiers in the Energy Industry: The Challenge Ahead, AIChE National Meeting (Nov. 30, 1988),
https://hdl.handle.net/2027/purl.32754074119482?urlappend=%3
Bseq=522.

106

133. Also in 1988, the Shell Greenhouse Effect Working Group issued a confidential internal report, “The
Greenhouse Effect,” which acknowledged global warming’s anthropogenic nature: “Man-made carbon dioxide
released into and accumulated in the atmosphere is believed to warm the earth through the so-called greenhouse effect.” The authors also noted the burning of fossil
fuels as a primary driver of CO2 buildup and warned that
warming could “create significant changes in sea level,
ocean currents, precipitation patterns, regional temperature and weather.” They further pointed to the potential
for “direct operational consequences” of sea level rise on
“offshore installations, coastal facilities and operations
(e.g. platforms, harbours, refineries, depots).”157
134. Similar to early warnings by Exxon scientists,
the Shell report notes that “by the time the global warming becomes detectable it could be too late to take effective countermeasures to reduce the effects or even to stabilise the situation.” The authors mention the need to consider policy changes on multiple occasions, noting that
“the potential implications for the world are . . . so large
that policy options need to be considered much earlier”
and that research should be “directed more to the analysis
of policy and energy options than to studies of what we
will be facing exactly.”
135. In 1989, Esso Resources Canada (ExxonMobil)
commissioned a report on the impacts of climate change

Greenhouse effect working group, The Greenhouse Effect, Shell
Internationale Petroleum (May 1988), https://www.documentcloud.org/documents/4411090-Document3.html#document/p9/
a411239.
157

107

on existing and proposed natural gas facilities in the Mackenzie River Valley and Delta, including extraction facilities on the Beaufort Sea and a pipeline crossing Canada’s
Northwest Territory.158 It reported that “large zones of
the Mackenzie Valley could be affected dramatically by
climatic change” and that “the greatest concern in Norman Wells [oil town in North West Territories, Canada]
should be the changes in permafrost that are likely to occur under conditions of climate warming.”159 The report
concluded that, in light of climate models showing a “general tendency towards warmer and wetter climate,” operation of those facilities would be compromised by increased precipitation, increase in air temperature,
changes in permafrost conditions, and significantly, sea
level rise and erosion damage.160 The authors recommended factoring these eventualities into future development planning and also warned that “a rise in sea level
could cause increased flooding and erosion damage on
Richards Island.”
136. In 1991, Shell produced a film called “Climate of
Concern.” The film advises that while “no two [climate
change projection] scenarios fully agree, . . . [they] have
each prompted the same serious warning. A warning endorsed by a uniquely broad consensus of scientists in their
report to the UN at the end of 1990.” The warning was an
increasing frequency of abnormal weather, and of sea
level rise of about one meter over the coming century.
158
See Stephen Lonergan & Kathy Young, An Assessment of the
Effects of Climate Warming on Energy Developments in the Mackenzie River Valley and Delta, Canadian Arctic, 7 ENERGY EXPLORATION & EXPLOITATION 359–81 (1989).
159

Id. at 369, 376.

160

Id. at 360, 377–78.

108

Shell specifically described the impacts of anthropogenic
sea level rise on tropical islands, “barely afloat even now,
. . . [f]irst made uninhabitable and then obliterated beneath the waves. Wetland habitats destroyed by intruding
salt. Coastal lowlands suffering pollution of precious
groundwater.” It warned of “greenhouse refugees,” people who abandoned homelands inundated by the sea, or
displaced because of catastrophic changes to the environment. The video concludes with a stark admonition:
“Global warming is not yet certain, but many think that
the wait for final proof would be irresponsible. Action now
is seen as the only safe insurance.”161
137. The fossil fuel industry was at the forefront of
carbon dioxide research for much of the latter half of the
20th century. They developed cutting edge and innovative
technology and worked with many of the field’s top researchers to produce exceptionally sophisticated studies
and models. For instance, in the mid-nineties Shell began
using scenarios to plan how the company could respond to
various global forces in the future. In one scenario published in a 1998 internal report, Shell paints an eerily prescient scene:
In 2010, a series of violent storms causes extensive
damage to the eastern coast of the U.S. Although it is
not clear whether the storms are caused by climate
change, people are not willing to take further chances.
The insurance industry refuses to accept liability, setting off a fierce debate over who is liable: the insurance
industry or the government. After all, two successive
161
Jelmer Mommers, Shell Made a Film About Climate Change in
1991 (Then Neglected To Heed Its Own Warning), DE CORRESPONDENT (Feb. 27, 2017), https://thecorrespondent.com/6285/shell-madea-film-about-climate-change-in-1991-then-neglected-to-heed-itsown-warning.

109

IPCC reports since 1993 have reinforced the human
connection to climate change . . . Following the storms,
a coalition of environmental NGOs brings a class-action suit against the US government and fossil-fuel
companies on the grounds of neglecting what scientists (including their own) have been saying for years:
that something must be done. A social reaction to the
use of fossil fuels grows, and individuals become ‘vigilante environmentalists’ in the same way, a generation
earlier, they had become fiercely anti-tobacco. Directaction campaigns against companies escalate. Young
consumers, especially, demand action.
138. Fossil fuel companies did not just consider climate change impacts in scenarios. In the mid-1990s, ExxonMobil, Shell, and Imperial Oil (ExxonMobil) jointly undertook the Sable Offshore Energy Project in Nova Scotia. The project’s own Environmental Impact Statement
declared: “The impact of a global warming sea-level rise
may be particularly significant in Nova Scotia. The longterm tide gauge records at a number of locations along the
N.S. coast have shown sea level has been rising over the
past century. . . . For the design of coastal and offshore
structures, an estimated rise in water level, due to global
warming, of 0.5 m [1.64 feet] may be assumed for the proposed project life (25 years).”162
139. Climate change research conducted by Defendants and their industry associations frequently acknowledged uncertainties in their climate modeling—those uncertainties, however, were merely with respect to the
magnitude and timing of climate impacts resulting from
ExxonMobil, Sable Project, Development Plan, Volume 3—Environmental Impact Statement Ch 4: Environmental Setting, 4-77,
http://soep.com/about-the-project/development-plan-application.
162

110

fossil fuel consumption, not that significant changes would
eventually occur. The Defendants’ researchers and the researchers at their industry associations harbored little
doubt that climate change was occurring and that fossil
fuel products were, and are, the primary cause.
140. Despite the overwhelming information about the
threats to people and the planet posed by continued unabated use of their fossil fuel products, Defendants failed
to act as they reasonably should have to mitigate or avoid
those dire adverse impacts. Defendants instead adopted
the position, as described below, that the absence of meaningful regulations on the consumption of their fossil fuel
products was the equivalent of a social license to continue
the unfettered pursuit of profits from those products. This
position was an abdication of Defendants’ responsibility to
consumers and the public, including Plaintiff, to act on
their unique knowledge of the reasonably foreseeable hazards of unabated production and consumption of their fossil fuel products.
H. Defendants Did Not Disclose Known Harms Associated with the Extraction, Promotion, and
Consumption of Their Fossil Fuel Products,
and Instead Affirmatively Acted to Obscure
Those Harms and Engaged in a Concerted Campaign to Evade Regulation.
141. By 1988, Defendants had amassed a compelling
body of knowledge about the role of anthropogenic greenhouse gases, and specifically those emitted from the normal use of Defendants’ fossil fuel products, in causing
global warming, disruptions to the hydrologic cycle, extreme precipitation and drought, heatwaves, and associated consequences for human communities and the environment. On notice that their products were causing
111

global climate change and dire effects on the planet, Defendants were faced with the decision of whether to take
steps to limit the damages their fossil fuel products were
causing and would continue to cause for virtually every
one of Earth’s inhabitants, including the people of Maryland, and the City of Baltimore and its inhabitants.
142. Defendants at any time before or thereafter
could and reasonably should have taken any number of
steps to mitigate the damages caused by their fossil fuel
products, and their own comments reveal an awareness of
what some of these steps may have been. Defendants
should have made reasonable warnings to consumers, the
public, and regulators of the dangers known to Defendants of the unabated consumption of their fossil fuel products, and they should have taken reasonable steps to limit
the potential greenhouse gas emissions arising out of their
fossil fuel products.
143. But several key events during the period 1988–
1992 appear to have prompted Defendants to change their
tactics from general research and internal discussion on
climate change to a public campaign aimed at evading regulation of their fossil fuel products and/or emissions therefrom. These include:
a. In 1988, National Aeronautics and Space Administration (NASA) scientists confirmed that
human activities were actually contributing to
global warming.163 On June 23 of that year,
NASA scientist James Hansen’s presentation
of this information to Congress engendered
significant news coverage and publicity for the

See Peter C. Frumhoff et al., The Climate Responsibilities of
Industrial Carbon Producers, 132 CLIMATIC CHANGE 161 (2015).
163

112

announcement, including coverage on the front
page of the New York Times.
b. On July 28, 1988, Senator Robert Stafford and
four bipartisan co-sponsors introduced S. 2666,
“The Global Environmental Protection Act,” to
regulate CO2 and other greenhouse gases. Four
more bipartisan bills to significantly reduce
CO2 pollution were introduced over the following ten weeks, and in August, U.S. Presidential
candidate George H.W. Bush pledged that his
presidency would “combat the greenhouse effect with the White House effect.”164 Political
will in the United States to reduce anthropogenic greenhouse gas emissions and mitigate
the harms associated with Defendants’ fossil
fuel products was gaining momentum.
c. In December 1988, the United Nations formed
the Intergovernmental Panel on Climate
Change (IPCC), a scientific panel dedicated to
providing the world’s governments with an objective, scientific analysis of climate change and
its environmental, political, and economic impacts.
d. In 1990, the IPCC published its First Assessment Report on anthropogenic climate
change,165 in which it concluded that (1) “there
is a natural greenhouse effect which already

N.Y. TIMES, The White House and the Greenhouse (May 9,
1998), http://www.nytimes.com/1989/05/09/opinion/the-white-houseand-the-greenhouse.html.
164

See IPCC, Reports, http://www.ipcc.ch/publications_and_data/
publications_and_data_reports.shtml.
165

113

keeps the Earth warmer than it would otherwise be,” and (2) that
emissions resulting from human activities
are substantially increasing the atmospheric concentrations of the greenhouse
gases carbon dioxide, methane, chlorofluorocarbons (CFCs) and nitrous oxide.
These increases will enhance the greenhouse effect, resulting on average in an additional warming of the Earth’s surface.
The main greenhouse gas, water vapour,
will increase in response to global warming
and further enhance it.166
The IPCC reconfirmed these conclusions in
a 1992 supplement to the First Assessment
report.167
e. The United Nations began preparation for the
1992 Earth Summit in Rio de Janeiro, Brazil, a
major, newsworthy gathering of 172 world governments, of which 116 sent their heads of
state. The Summit resulted in the United Nations Framework Convention on Climate
Change (UNFCCC), an international environmental treaty providing protocols for future negotiations aimed at “stabiliz[ing] greenhouse
gas concentrations in the atmosphere at a level
IPCC, Climate Change: The IPCC Scientific Assessment, “Policymakers Summary” (1990), http://www.ipcc.ch/ipccreports/far/wg_
I/ipcc_far_wg_I_spm.pdf.
166

IPCC, 1992 IPCC Supplement to the First Assessment Report
(1992), http://www.ipcc.ch/publications_and_data/publications_ipcc_
90_92_assessments_far.shtml.
167

114

that would prevent dangerous anthropogenic
interference with the climate system.”168
144. These world events marked a shift in public discussion of climate change, and the initiation of international efforts to curb anthropogenic greenhouse emissions—developments that had stark implications for, and
would have diminished the profitability of, Defendants’
fossil fuel products.
145. But rather than collaborating with the international community by acting to forestall, or at least decrease, their fossil fuel products’ contributions to global
warming, sea level rise, disruptions to the hydrologic cycle, and associated consequences to Baltimore and other
communities, Defendants embarked on a decades-long
campaign designed to maximize continued dependence on
their products and undermine national and international
efforts to rein in greenhouse gas emissions.
146. Defendants’ campaign, which focused on concealing, discrediting, and/or misrepresenting information that
tended to support restricting consumption of (and thereby
decreasing demand for) Defendants’ fossil fuel products,
took several forms. The campaign enabled Defendants to
accelerate their business practice of exploiting fossil fuel
reserves, and concurrently externalize the social and environmental costs of their fossil fuel products. These activities stood in direct contradiction to Defendants’ own
prior recognition that the science of anthropogenic climate change was clear and that the greatest uncertainties

United Nations, United Nations Framework Convention on
Climate Change, Article 2 (1992), https://unfccc.int/resource/docs/
convkp/conveng.pdf.
168

115

involved responsive human behavior, not scientific understanding of the issue.
147. Defendants took affirmative steps to conceal,
from Plaintiff and the general public, the foreseeable impacts of the use of their fossil fuel products on the Earth’s
climate and associated harms to people and communities.
Defendants embarked on a concerted public relations
campaign to cast doubt on the science connecting global
climate change to fossil fuel products and greenhouse gas
emissions, in order to influence public perception of the
existence of anthropogenic global warming and sea level
rise, disruptions to weather cycles, extreme precipitation
and drought, and associated consequences. The effort included promoting their hazardous products through advertising campaigns and the initiation and funding of climate change denialist organizations, designed to influence consumers to continue using Defendants’ fossil fuel
products irrespective of those products’ damage to communities and the environment.
148. For example, in 1988, Joseph Carlson, an Exxon
public affairs manager, described the “Exxon Position,”
which included among others, two important messaging
tenets: (1) “[e]mphasize the uncertainty in scientific conclusions regarding the potential enhanced Greenhouse
Effect”; and (2) “[r]esist the overstatement and sensationalization [sic] of potential greenhouse effect which could
lead to noneconomic development of non-fossil fuel resources.”169
149. A 1994 Shell report entitled “The Enhanced
Greenhouse Effect: A Review of the Scientific Aspects” by
169
Joseph M. Carlson, Exxon Memo on “The Greenhouse Effect”
(Aug. 3, 1988), https://assets.documentcloud.org/documents/3024180/
1998-Exxon-Memo-on-the-Greenhouse-Effect.pdf.

116

Royal Dutch Shell environmental advisor Peter Langcake
stands in stark contrast to the company’s 1988 report on
the same topic. Whereas before, the authors recommended consideration of policy solutions early on, Langcake warned of the potentially dramatic “economic effects
of ill-advised policy measures.” While the report recognized the IPCC conclusions as the mainstream view,
Langcake still emphasized scientific uncertainty, noting,
for example, that “the postulated link between any observed temperature rise and human activities has to be
seen in relation to natural variability, which is still largely
unpredictable.” The Group position is stated clearly in the
report: “Scientific uncertainty and the evolution of energy
systems indicate that policies to curb greenhouse gas
emissions beyond ‘no regrets’ measures could be premature, divert resources from more pressing needs and further distort markets.”170
150. In 1991, for example, the Information Council for
the Environment (“ICE”), whose members included affiliates, predecessors and/or subsidiaries of Defendants, including Pittsburg and Midway Coal Mining (Chevron) and
Island Creek Coal Company (Occidental), launched a national climate change science denial campaign with fullpage newspaper ads, radio commercials, a public relations
tour schedule, “mailers,” and research tools to measure
campaign success. Included among the campaign strategies was to “reposition global warming as theory (not
fact).” Its target audience included older less-educated
males who are “predisposed to favor the ICE agenda, and

P. Langcake, The Enhanced Greenhouse Effect: A review of the
Scientific Aspects, (Dec. 1994), https://www.documentcloud.org/documents/4411099-Document11.html#document/p15/a411511.
170

117

likely to be even more supportive of that agenda following
exposure to new info.”171
151. An implicit goal of ICE’s advertising campaign
was to change public opinion and avoid regulation. A
memo from Richard Lawson, president of the National
Coal Association asked members to contribute to the ICE
campaign with the justification that “policymakers are
prepared to act [on global warming]. Public opinion polls
reveal that 60% of the American people already believe
global warming is a serious environmental problem. Our
industry cannot sit on the sidelines in this debate.”172
152. The following images are examples of ICEfunded print advertisements challenging the validity of
climate science and intended to obscure the scientific consensus on anthropogenic climate change and induce political inertia to address it.173

171
Union of Concerned Scientists, Deception Dossier #5: Coal’s
“Information Council on the Environment” Sham (1991),
http://www.ucsusa.org/sites/default/files/attach/2015/07/Climate-Deception-Dossier-5_ICE.pdf.

Naomi Oreskes, My Facts Are Better Than Your Facts: Spreading Good News About Global Warming (2010), in Peter Howlett et
al., How Well Do Facts Travel?: The Dissemination of Reliable
Knowledge, 136–66, Cambridge University Press (2011).
172

173

Union of Concerned Scientists, supra note 171, at 47–49.

118

Fig. 6: Information Council for the Environment
Advertisements

153. In 1996, Exxon released a publication called
“Global Warming: Who’s Right? Facts about a debate
that’s turned up more questions than answers.” In the
publication’s preface, Exxon CEO Lee Raymond inaccurately stated that “taking drastic action immediately is
unnecessary since many scientists agree there’s ample
time to better understand the climate system.” The subsequent article described the greenhouse effect as “unquestionably real and definitely a good thing,” while ignoring the severe consequences that would result from
the influence of the increased CO2 concentration on the
Earth’s climate. Instead, it characterized the greenhouse
effect as simply “what makes the earth’s atmosphere livable.” Directly contradicting their own internal reports
and peer-reviewed science, the article ascribed the rise in
temperature since the late 19th century to “natural fluctuations that occur over long periods of time” rather than
to the anthropogenic emissions that Exxon and other scientists had confirmed were responsible. The article also
falsely challenged the computer models that projected the
future impacts of unabated fossil fuel product consumption, including those developed by Exxon’s own employees, as having been “proved to be inaccurate.” The article
119

contradicted the numerous reports circulated among
Exxon’s staff, and by the API, by stating that “the indications are that a warmer world would be far more benign
than many imagine . . . moderate warming would reduce
mortality rates in the US, so a slightly warmer climate
would be more healthful.” Raymond concluded his preface
by attacking advocates for limiting the use of his company’s fossil fuel products as “drawing on bad science,
faulty logic, or unrealistic assumptions”—despite the important role that Exxon’s own scientists had played in
compiling those same scientific underpinnings.174
154. API published an extensive report in the same
year warning against concern over CO2 buildup and any
need to curb consumption or regulate the industry. The
introduction stated that “there is no persuasive basis for
forcing Americans to dramatically change their lifestyles
to use less oil.” The authors discouraged the further development of certain alternative energy sources, writing
that “government agencies have advocated the increased
use of ethanol and the electric car, without the facts to
support the assertion that either is superior to existing
fuels and technologies” and that “policies that mandate
replacing oil with specific alternative fuel technologies
freeze progress at the current level of technology, and reduce the chance that innovation will develop better solutions.” The paper also denied the human connection to climate change, by falsely stating that no “scientific evidence
exists that human activities are significantly affecting sea
levels, rainfall, surface temperatures or the intensity and
frequency of storms.” The report’s message was clear:
Exxon Corp., Global Warming: Who’s Right? (1996),
https://www.documentcloud.org/documents/2805542-Exxon-GlobalWarming-Whos-Right.html.
174

120

“Facts don’t support the arguments for restraining oil
use.”175
155. In a speech presented at the World Petroleum
Congress in Beijing in 1997 at which many of the Defendants were present, Exxon CEO Lee Raymond reiterated
these views. This time, he presented a false dichotomy between stable energy markets and abatement of the marketing, promotion, and sale of fossil fuel products known
to Defendants to be hazardous. He stated:
Some people who argue that we should drastically curtail our use of fossil fuels for environmental reasons
. . . my belief [is] that such proposals are neither prudent nor practical. With no readily available economic
alternatives on the horizon, fossil fuels will continue to
supply most of the world’s and this region’s energy for
the foreseeable future.
Governments also need to provide a stable investment
climate. . . They should avoid the temptation to intervene in energy markets in ways that give advantage to
one competitor over another or one fuel over another.
We also have to keep in mind that most of the greenhouse effects comes from natural sources . . . Leaping
to radically cut this tiny sliver of the greenhouse pie
on the premise that it will affect climate defies common sense and lacks foundation in our current understanding of the climate system.

175
Sally Brain Gentille et al., Reinventing Energy: Making the
Right Choices, American Petroleum Institute (1996), http://www.climatefiles.com/trade-group/american-petroleum-institute/1996-reinventing-energy.

121

Let’s agree there’s a lot we really don’t know about
how climate will change in the 21st century and beyond . . . It is highly unlikely that the temperature in
the middle of the next century will be significantly affected whether policies are enacted now or 20 years
from now. It’s bad public policy to impose very costly
regulations and restrictions when their need has yet to
be proven.176
156. Imperial Oil (ExxonMobil) CEO Robert Peterson falsely denied the established connection between Defendants’ fossil fuel products and anthropogenic climate
change in the Summer 1998 Imperial Oil Review, “A
Cleaner Canada:”
[T]his issue [referring to climate change] has absolutely nothing to do with pollution and air quality. Carbon dioxide is not a pollutant but an essential ingredient of life on this planet. . . . [T]he question of whether
or not the trapping of ‘greenhouse gases will result in
the planet’s getting warmer . . . has no connection
whatsoever with our day-to-day weather.
There is absolutely no agreement among climatologists on whether or not the planet is getting warmer,
or, if it is, on whether the warming is the result of manmade factors or natural variations in the climate. . . . I

Lee R. Raymond, Energy—Key to growth and a better environment for Asia-Pacific nations, World Petroleum Congress (Oct. 13,
1997),
https://assets.documentcloud.org/documents/2840902/1997Lee-Raymond-Speech-at-China-World-Petroleum.pdf.
176

122

feel very safe in saying that the view that burning fossil fuels will result in global climate change remains an
unproved hypothesis.177
157. Mobil (ExxonMobil) paid for a series of “advertorials,” advertisements located in the editorial section of
the New York Times and meant to look like editorials rather than paid ads. These ads discussed various aspects of
the public discussion of climate change and sought to undermine the justifications for tackling greenhouse gas
emissions as unsettled science. The 1997 advertorial below178 argued that economic analysis of emissions restrictions was faulty and inconclusive and therefore a justification for delaying action on climate change.

Robert Peterson, A Cleaner Canada in Imperial Oil Review
(1998), http://www.documentcloud.org/documents/2827818-1998-Imperial-Oil-Robert-Peterson-A-Cleaner-Canada.html.
177

178
Mobil, When Facts Don’t Square with the Theory, Throw Out
the Facts, N.Y. TIMES, A31 (Aug.14, 1997), https://www.documentcloud.org/documents/705550-mob-nyt-1997-aug-14-whenfactsdontsquare.html.

123

Fig. 7: 1997 Mobil Editorial

158. In 1998, API, on behalf of Defendants, among
other fossil fuel companies and organizations supported
by fossil fuel corporate grants, developed a Global Climate Science Communications Plan that stated that unless “climate change becomes a non-issue . . . there may
be no moment when we can declare victory for our efforts.” Rather, API proclaimed that “[v]ictory will be
124

achieved when . . . average citizens ‘understand’ (recognize) uncertainties in climate science; [and when] recognition of uncertainties becomes part of the ‘conventional
wisdom.’”179 The multi-million-dollar, multi-year proposed
budget included public outreach and the dissemination of
educational materials to schools to “begin to erect a barrier against further efforts to impose Kyoto-like measures
in the future”180—a blatant attempt to disrupt international efforts, pursuant to the UNFCCC, to negotiate a
treaty that curbed greenhouse gas emissions.
159. Soon after, API distributed a memo to its members identifying public agreement on fossil fuel products’
role in climate change as its highest priority issue.181 The
memorandum illuminates API’s and Defendants’ concern
over the potential regulation of Defendants’ fossil fuel
products: “Climate is at the center of the industry’s business interests. Policies limiting carbon emissions reduce
petroleum product use. That is why it is API’s highest priority issue and defined as ‘strategic.’”182 Further, the API
memo stresses many of the strategies that Defendants individually and collectively utilized to combat the perception of their fossil fuel products as hazardous. These included:

Joe Walker, E-mail to Global Climate Science Team attaching
the Draft Global Science Communications Plan (Apr. 3, 1998),
https://assets.documentcloud.org/documents/784572/api-global-climate-science-communications-plan.pdf.
179

180

Id.

Committee on Oversight and Government Reform, Allegations
of Political Interference with Government Climate Change Science,
at 51 (Mar. 19, 2007), https://ia601904.us.archive.org/25/items/
gov.gpo.fdsys.CHRG-110hhrg37415/CHRG-110hhrg37415.pdf.
181

182

Id.

125

a. Influencing the tenor of the climate change
“debate” as a means to establish that greenhouse gas reduction policies like the Kyoto Protocol were not necessary to responsibly address climate change;
b. Maintaining strong working relationships between government regulators and communications-oriented organizations like the Global Climate Coalition, the Heartland Institute, and
other groups carrying Defendants’ message
minimizing the hazards of the unabated use of
their fossil fuel products and opposing regulation thereof;
c. Building the case for (and falsely dichotomizing) Defendants’ positive contributions to a
“long-term approach” (ostensibly for regulation of their products) as a reason for society to
reject short term fossil fuel emissions regulations, and engaging in climate change science
uncertainty research; and
d. Presenting Defendants’ positions on climate
change in domestic and international forums,
including by preparing rebuttals to IPCC reports.
160. Additionally, Defendants mounted a campaign
against regulation of their business practices in order to
continue placing their fossil fuel products into the stream
of commerce, despite their own knowledge and the growing national and international scientific consensus about
the hazards of doing so. These efforts came despite Defendants’ recent recognition that “risks to nearly every

126

facet of life on Earth . . . could be avoided only if timely
steps were taken to address climate change.”183
161. The Global Climate Coalition (GCC), on behalf of
Defendants and other fossil fuel companies, funded advertising campaigns and distributed material to generate
public uncertainty around the climate debate, with the
specific purpose of preventing U.S. adoption of the Kyoto
Protocol, despite the leading role that the U.S. had played
in the Protocol negotiations.184 Despite an internal primer
stating that various “contrarian theories” [i.e., climate
change skepticism] do not “offer convincing arguments
against the conventional model of greenhouse gas emission-induced climate change,” GCC excluded this section
from the public version of the backgrounder and instead
funded efforts to promote some of those same contrarian
theories over subsequent years.185
162. A key strategy in Defendants’ efforts to discredit
scientific consensus on climate change and the IPCC was
to bankroll scientists who, although accredited, held
fringe opinions that were even more questionable given
the sources of their research funding. These scientists obtained part or all of their research budget from Defendants directly or through Defendant-funded organizations

Neela Banerjee, Exxon’s Oil Industry Peers Knew About Climate Dangers in the 1970s, Too, supra note 129.
183

184

Id.

Gregory J. Dana, Memo to AIAM Technical Committee Re:
Global Climate Coalition (GCC)—Primer on Climate Change Science—Final Draft, Association of International Automobile Manufacturers (Jan. 18, 1996), http://www.webcitation.org/6FyqHawb9.
185

127

like API,186 but they frequently failed to disclose their fossil fuel industry underwriters.187
163. Creating a false sense of disagreement in the scientific community (despite the consensus that its own scientists, experts, and managers had previously acknowledged) has had an evident impact on public opinion. A
2007 Yale University-Gallup poll found that while 71 percent of Americans personally believed global warming
was happening, only 48 percent believed that there was a
consensus among the scientific community, and 40 percent believed there was a lot of disagreement among scientists over whether global warming was occurring.188
164. 2007 was the same year the IPCC published its
Fourth Assessment Report, in which it concluded that
“there is very high confidence that the net effect of human
activities since 1750 has been one of warming.”189 The

E.g., Willie Soon & Sallie Baliunas, Proxy Climatic and Environmental Changes of the Past 1000 Years, 23 CLIMATE RESEARCH
88, 105 (Jan. 31, 2003), http://www.int-res.com/articles/cr2003/23/
c023p089.pdf.
186

E.g., Newsdesk, Smithsonian Statement: Dr. Wei-Hock (Willie)
Soon, SMITHSONIAN (Feb. 26, 2015), http://newsdesk.si.edu/releases/smithsonian-statement-dr-wei-hock-wiIlie-soon.
187

American Opinions on Global Warming: A Yale/Gallup/Clearvision Poll, Yale Program on Climate Change Communication (July 31, 2007), http://climatecommunication.yale.edu/ publications/american-opinions-on-global-warming.
188

IPCC, Climate Change 2007: The Physical Science Basis, Contribution of Working Group I to the Fourth Assessment Report of the
Intergovernmental Panel on Climate Change (2007), https://
www.ipcc.ch/pdf/assessment-report/ar4/wg1/ar4-wg1-spm.pdf.
189

128

IPCC defined “very high confidence” as at least a 9 out of
10 chance.190
165. Defendants borrowed pages out of the playbook
of prior denialist campaigns. A “Global Climate Science
Team” (“GCST”) was created that mirrored a front group
created by the tobacco industry, known as The Advancement of Sound Science Coalition, whose purpose was to
sow uncertainty about the fact that cigarette smoke is carcinogenic. The GCST’s membership included Steve Milloy
(a key player on the tobacco industry’s front group),
Exxon’s senior environmental lobbyist: an API public relations representative; and representatives from Chevron
and Southern Company that drafted API’s 1998 Communications Plan. There were no scientists on the “Global
Climate Science Team.” GCST developed a strategy to
spend millions of dollars manufacturing climate change
uncertainty. Between 2000 and 2004, Exxon donated
$110,000 to Milloy’s efforts and another organization, the
Free Enterprise Education Institute and $50,000 to the
Free Enterprise Action Institute, both registered to
Milloy’s home address.191
166. Defendants by and through their trade association memberships, worked directly, and often in a deliberately obscured manner, to evade regulation of the emissions resulting from use of their fossil fuel products.

190

Id.

191
Seth Shulman et al., Smoke, Mirrors & Hot Air: How ExxonMobil Uses Big Tobacco’s Tactics to Manufacture Uncertainty on Climate Science, Union of Concerned Scientists, 19 (Jan. 2007),
http://www.ucsusa.org/sites/default/files/legacy/assets/documents/
global_warming/ exxon_report.pdf.

129

167. Defendants have funded dozens of think tanks,
front groups, and dark money foundations pushing climate change denial. These include the Competitive Enterprise Institute, the Heartland Institute, Frontiers for
Freedom, Committee for a Constructive Tomorrow, and
Heritage Foundation. From 1998 to 2014 ExxonMobil
spent almost $31 million funding numerous organizations
misrepresenting the scientific consensus that Defendants’
fossil fuel products were causing climate change, sea level
rise, and injuries to Baltimore, among other coastal communities.192 Several Defendants have been linked to other
groups that undermine the scientific basis linking Defendants’ fossil fuel products to climate change and sea level
rise, including the Frontiers of Freedom Institute and the
George C. Marshall Institute.
168. Exxon acknowledged its own previous success in
sowing uncertainty and slowing mitigation through funding of climate denial groups. In its 2007 Corporate Citizenship Report, Exxon declared: “In 2008, we will discontinue contributions to several public policy research
groups whose position on climate change could divert attention from the important discussion on how the world
will secure the energy required for economic growth in an
environmentally responsible manner.”193 Despite this pronouncement, Exxon remained financially associated with
several such groups after the report’s publication.

ExxonSecrets.org, ExxonMobil Climate Denial Funding 1998–
2014 (accessed June 27, 2018), http://exxonsecrets.org/html/index.php.
192

193
ExxonMobil, 2007 Corporate Citizenship Report (Dec. 3l, 2007),
http://www.documentcloud.org/documents/2799777-ExxonMobil2007-Corporate-Citizenship-Report.html.

130

169. Defendants could have contributed to the global
effort to mitigate the impacts of greenhouse gas emissions
by, for example delineating practical technical strategies,
policy goals, and regulatory structures that would have allowed them to continue their business ventures while reducing greenhouse gas emissions and supporting a transition to a lower carbon future. Instead, Defendants undertook a momentous effort to evade international and national regulation of greenhouse gas emissions to enable
them to continue unabated fossil fuel production.
170. As a result of Defendants’ tortious, false and misleading conduct, reasonable consumers of Defendants’
fossil fuel products and policy-makers have been deliberately and unnecessarily deceived about: the role of fossil
fuel products in causing global warming, sea level rise,
disruptions to the hydrologic cycle, and increased extreme precipitation, heatwaves, and drought; the acceleration of global warming since the mid-20th century and
the continuation thereof; and about the fact that the continued increase in fossil fuel product consumption that
creates severe environmental threats and significant economic costs for coastal communities, including Baltimore.
Reasonable consumers and policy makers have also been
deceived about the depth and breadth of the state of the
scientific evidence on anthropogenic climate change, and
in particular, about the strength of the scientific consensus demonstrating the role of fossil fuels in causing both
climate change and a wide range of potentially destructive
impacts, including sea level rise, disruptions to the hydrologic cycle, extreme precipitation, heatwaves, drought,
and associated consequences.

131

I. In Contrast to Their Public Statements, Defendants’ Internal Actions Demonstrate Their
Awareness of and Intent to Profit from the Unabated Use of Fossil Fuel Products.
171. In contrast to their public-facing efforts challenging the validity of the scientific consensus about anthropogenic climate change, Defendants’ acts and omissions evidence their internal acknowledgement of the reality of climate change and its likely consequences. These
actions include, but are not limited to, making multi-billion-dollar infrastructure investments for their own operations that acknowledge the reality of coming anthropogenic climate-related change. These investments included
(among others), raising offshore oil platforms to protect
against sea level rise; reinforcing offshore oil platforms to
withstand increased wave strength and storm severity;
and developing and patenting designs for equipment intended to extract crude oil and/or natural gas in areas previously unreachable because of the presence of polar ice
sheets.194
172. For example, in 1973 Exxon obtained a patent for
a cargo ship capable of breaking through sea ice195 and for
an oil tanker196 designed specifically for use in previously
unreachable areas of the Arctic.

Amy Lieberman & Suzanne Rust, Big Oil braced for global
warming while it fought regulations, L.A. TIMES (Dec. 31, 2015),
http://graphics.latimes.com/oil-operations.
194

Patents, Icebreaking cargo vessel, Exxon Research Engineering
Co. (Apr. 17, 1973), https://www.google.com/patents/US3727571.
195

Patents, Tanker vessel, Exxon Research Engineering Co. (July
17, 1973), https://www.google.com/patents/US3745960.
196

132

173. In 1974, Chevron obtained a patent for a mobile
arctic drilling platform designed to withstand significant
interference from lateral ice masses,197 allowing for drilling in areas with increased ice flow movement due to elevated temperature.
174. That same year, Texaco (Chevron) worked toward obtaining a patent for a method and apparatus for
reducing ice forces on a marine structure prone to being
frozen in ice through natural weather conditions,198 allowing for drilling in previously unreachable Arctic areas that
would become seasonally accessible.
175. Shell obtained a patent similar to Texaco’s
(Chevron) in 1984.199
176. In 1989, Norske Shell, Royal Dutch Shell’s Norwegian subsidiary, altered designs for a natural gas platform planned for construction in the North Sea to account
for anticipated sea level rise. Those design changes were
ultimately carried out by Shell’s contractors, adding substantial costs to the project.200
a. The Troll field, off the Norwegian coast in the
North Sea, was proven to contain large natural
oil and gas deposits in 1979, shortly after
Norske Shell was approved by Norwegian oil
Patents, Arctic offshore platform, Chevron Research & Technology Co. (Aug. 27. 1974), https://www.google.com/patents/US3831385.
197

198
Patents, Mobile, arctic drilling and production platform, Texaco Inc. (Feb. 26, 1974), https://www.google.com/patents/US3793840.

Patents, Arctic offshore platform, Shell Oil Co. (Jan. 24, 1984),
https://www.google.com/patents/US4427320.
199

200
Greenhouse Effect: Shell Anticipates a Sea Change, N.Y. TIMES
(Dec. 20, 1989), http://www.nytimes.com/1989/12/20/business/greenhouse-effect-shell-anticipates-a-sea-change.html.

133

and gas regulators to operate a portion of the
field.
b. In 1986, the Norwegian parliament granted
Norske Shell authority to complete the first development phase of the Troll field gas deposits,
and Norske Shell began designing the “Troll
A” gas platform, with the intent to begin operation of the platform in approximately 1995.
Based on the very large size of the gas deposits
in the Troll field, the Troll A platform was projected to operate for approximately 70 years.
c. The platform was originally designed to stand
approximately 100 feet above sea level—the
amount necessary to stay above waves in a
once-in-a-century strength storm.
d. In 1989, Shell engineers revised their plans to
increase the above-water height of the platform
by 3–6 feet, specifically to account for higher
anticipated average sea levels and increased
storm intensity due to global warming over the
platform’s 70-year operational life.201
e. Shell projected that the additional 3–6 feet of
above-water construction would increase the
cost of the Troll A platform by as much as $40
million.

Id.; Amy Lieberman & Suzanne Rust, Big Oil Braced for Global
Warming While It Fought Regulations, supra note 194.
201

134

J. Defendants’ Actions Prevented the Development of Alternatives That Would Have Eased
the Transition to a Less Fossil Fuel Dependent
Economy.
177. The harms and benefits of Defendants’ conduct
can be balanced in part by weighing the social benefit of
extracting and burning a unit of fossil fuels against the
costs that a unit of fuel imposes on society, known as the
“social cost of carbon” or “SCC.”
178. Because climatic responses to atmospheric temperature increases are non-linear, and because greenhouse gas pollution accumulates in the atmosphere, some
of which does not dissipate for potentially thousands of
years (namely CO2), there is broad agreement that the
SCC increases as emissions rise, and as the climate
warms. Relatedly, as atmospheric CO2, levels and surface
temperature increase, the costs of remediating any individual environmental injury—for example infrastructure
to mitigate sea level rise, and changes to agricultural processes—also increase. In short, each additional ton of CO2
emitted into the atmosphere will have a greater net social
cost as emissions increase, and each additional ton of CO2
will have a greater net social cost as global warming accelerates.
179. A critical corollary of the non-linear relationship
between atmospheric CO2 concentrations and the SCC is
that delayed efforts to curb those emissions have increased environmental harms and increased the magnitude and cost to remediate harms that have already occurred or are locked in by previous emissions. Therefore,
Defendants’ campaign to obscure the science of climate
change and to expand the extraction and use of fossil fuels

135

greatly increased and continues to increase the harms and
rate of harms suffered by the City and its residents.
180. The consequences of delayed action on climate
change, exacerbated by Defendants’ actions, already have
drastically increased the cost of mitigating further harm.
Had concerted action begun even as late as 2005, an annual 3.5 percent reduction in CO2 emissions to lower atmospheric CO2 to 350 ppm by the year 2100 would have
restored earth’s energy balance202 and halted future
global warming, although such efforts would not forestall
committed sea level rise already locked in.203 If efforts do
not begin until 2020, however, a 15 percent annual reduction will be required to restore the Earth’s energy balance
by the end of the century.204 Earlier steps to reduce emissions would have led to smaller—and less disruptive—
measures needed to mitigate the impacts of fossil fuel production.
181. The costs of inaction and the opportunities to
confront anthropogenic climate change and sea level rise
“Climate equilibrium” is the balance between Earth’s absorption
of solar energy and its own energy radiation. Earth is currently out
of equilibrium due to the influence of anthropogenic greenhouse
gases, which prevent radiation of energy into space. Earth therefore
warms and move back toward energy balance. Reduction of global
CO2 concentrations to 350 ppm is necessary to re-achieve energy balance, if the aim is to stabilize climate without further global warming
and attendant sea level rise. See James Hansen et al., Assessing
“Dangerous Climate Change:” Required Reduction of Carbon Emissions to Protect Young People, Future Generations and Nature, 8
PLOS ONE 1, 4-5 (Dec. 3, 2013), http://journals.plos.org/plosone/article?id=10.1371/journal.pone.0081648.
202

James Hansen et al., Assessing “Dangerous Climate Change:”
Required Reduction of Carbon Emissions to Protect Young People,
Future Generations and Nature, supra note 202, at 10.
203

204

Id.

136

caused by normal consumption of their fossil fuel products, were not lost on Defendants. In a 1997 speech by
John Browne, Group Executive for BP America, at Stanford University, Browne described Defendants’ and the
entire fossil fuel industry’s responsibility and opportunities to reduce use of fossil fuel products, reduce global CO2
emissions, and mitigate the harms associated with the use
and consumption of such products:
A new age demands a fresh perspective of the nature
of society and responsibility.
We need to go beyond analysis and to take action. It is
a moment for change and for a rethinking of corporate
responsibility. . . .
[T]here is now an effective consensus among the
world’s leading scientists and serious and well informed people outside the scientific community that
there is a discernible human influence on the climate,
and a link between the concentration of carbon dioxide
and the increase in temperature.
The prediction of the IPCC is that over the next century temperatures might rise by a further 1 to 3.5 degrees centigrade [1.8º–6.3°F], and that sea levels
might rise by between 15 and 95 centimetres [5.9 and
37.4 inches]. Some of that impact is probably unavoidable, because it results from current emissions. . . .
[I]t would be unwise and potentially dangerous to ignore the mounting concern.
The time to consider the policy dimensions of climate
change is not when the link between greenhouse gases
and climate change is conclusively proven . . . but when
the possibility cannot be discounted and is taken seriously by the society of which we are part. . . .

137

We [the fossil fuel industry] have a responsibility to
act, and I hope that through our actions we can contribute to the much wider process which is desirable
and necessary.
BP accepts that responsibility and we’re therefore
taking some specific steps.
To control our own emissions.
To fund continuing scientific research.
To take initiatives for joint implementation.
To develop alternative fuels for the long term.
And to contribute to the public policy debate in search
of the wider global answers to the problem.205
182. Despite Defendants’ knowledge of the foreseeable, measurable harms associated with the unabated consumption and use of their fossil fuel products, and despite
the existence and Defendants’ knowledge of technologies
and practices that could have helped to reduce the foreseeable dangers associated with their fossil fuel products,
Defendants continued to market and promote heavy fossil
fuel use, dramatically increasing the cost of abatement. At
all relevant times, Defendants were deeply familiar with
opportunities to reduce the use of their fossil fuel products, reduce global CO2 emissions associated therewith,
and mitigate the harms associated with the use and consumption of such products. Examples of that recognition
include, but are not limited to the following:

John Browne, BP Climate Change Speech to Stanford, Climate
Files (May 19, 1997), http://www.climatefiles.com/bp/bp-climatechange-speech-to-stanford.
205

138

a. In 1963, Esso (Exxon Mobil) obtained multiple
patents on technologies for fuel cells, including
on the design of a fuel cell and necessary electrodes,206 and on a process for increasing the oxidation of a fuel, specifically methanol, to produce electricity in a fuel cell.207
b. In 1970, Esso (Exxon Mobil) obtained a patent
for a “low-polluting engine and drive system”
that used an interburner and air compressor to
reduce pollutant emissions, including CO2
emissions, from gasoline combustion engines
(the system also increased the efficiency of the
fossil fuel products used in such engines,
thereby lowering the amount of fossil fuel product necessary to operate engines equipped with
this technology).208
183. Defendants could have made major inroads to
mitigate Plaintiff’s injuries through technology by developing and employing technologies to capture and sequester greenhouse gases emissions associated with conventional use of their fossil fuel products. Defendants had
knowledge dating at least back to the 1960s, and indeed,

Patents, Fuel cell and fuel cell electrodes, Exxon Research Engineering Co. (Dec. 31, 1963), https://www.google.com/patents/
US3116169.
206

Patents, Direct production of electrical energy from liquid fuels,
Exxon Research Engineering Co. (Dec. 3, 1963), https://
www.google.com/patents/US3113049.
207

Patents, Low-polluting engine and drive system, Exxon Research Engineering Co. (May 16, 1970), https://www.google.com/patents/US3513929.
208

139

internally researched and perfected many such technologies. For instance:
a. The first patent for enhanced oil recovery technology, a process by which CO2 is captured and
reinjected into oil deposits, was granted to an
ARCO (BP) subsidiary in 1952.209 This technology could have been further developed as a carbon capture and sequestration technique;
b. Phillips Petroleum Company (ConocoPhillips)
obtained a patent in 1966 for a “Method for recovering a purified component from a gas” outlining a process to remove carbon from natural
gas and gasoline streams;210 and
c. In 1973, Shell was granted a patent for a process to remove acidic gases, including CO2,
from gaseous mixtures.
184. Despite this knowledge, Defendants’ later forays
into the alternative energy sector were largely pretenses.
For instance, in 2001, Chevron developed and shared a sophisticated information management system to gather
greenhouse gas emissions data from its explorations and

James P. Meyer, Summary of Carbon Dioxide Enhanced Oil
Recovery (CO2EOR) Injection Well Technology, American Petroleum Institute, page 1, http://www.api.org/~/media/Files/EHS/ climate-change/Summary-carbon-dioxide-enhanced-oil-recovery-welltech.pdf.
209

Patents, Method for recovering a purified component from a
gas, Phillips Petroleum Co (Jan. 11, 1966), https://www.google.com/
patents/US3228874.
210

140

production to help regulate and set reduction goals.211 Beyond this technological breakthrough, Chevron touted
“profitable renewable energy” as part of its business plan
for several years and launched a 2010 advertising campaign promoting the company’s move towards renewable
energy. Despite all this, Chevron rolled back its renewable and alternative energy projects in 2014.212
185. Similarly, ConocoPhillips’ 2012 Sustainable Development report declared developing renewable energy
a priority in keeping with their position on sustainable development and climate change.213 Their 10-K filing from
the same year told a different story: “As an independent
E&P company, we are solely focused on our core business
of exploring for, developing and producing crude oil and
natural gas globally.”214
186. Likewise, while Shell orchestrated an entire public relations campaign around energy transitions towards
net zero emissions, a fine-print disclaimer in its 2016 netzero pathways report reads: “We have no immediate plans

Chevron, Chevron Introduces New System to Manage Energy
Use (press release) (Sept. 25, 2001), https://www.chevron.com/stories/chevron-introduces-new-system-to-manage-energy-use.
211

Benjamin Elgin. Chevron Dims the Lights on Green Power,
BLOOMBERG (May 29, 2014), https://www.bloomberg.com/news/articles/2014-05-29/chevron-dims-the-lights-on-renewable-energy-projects.
212

ConocoPhillips, Sustainable Development (2013), http://
www.conocophillips.com/sustainable-development/Documents/
2013.11.7%201200%20Our%20Approach%20Section%20Final.pdf.
213

ConocoPhillips, Form 10-K, U.S. Securities and Exchange Commission (Dec. 31, 2012), https://www.sec.gov/Archives/edgar/
data/1163165/000119312513065426/d452384d10k.htm.
214

141

to move to a net-zero emissions portfolio over our investment horizon of 10–20 years.”215
187. BP, appearing to abide by the representations
Lord Browne made in his speech described in paragraph
152, above, engaged in a rebranding campaign to convey
an air of environmental stewardship and renewable energy to its consumers. This included renouncing its membership in the GCC in 2007, changing its name from “British Petroleum” to “BP” while adopting the slogan “Beyond Petroleum,” and adopting a conspicuously green
corporate logo. However, BP’s self-touted “alternative energy” investments during this turnaround included investments in natural gas, a fossil fuel, and in 2007 the company reinvested in Canadian tar sands, a particularly
high-carbon source of oil.216 The company ultimately abandoned its wind and solar assets in 2011 and 2013, respectively, and even the “Beyond Petroleum” moniker in
2013.217
188. After posting a $10 billion quarterly profit,
Exxon in 2005 stated that “We’re an oil and gas company.
In times past, when we tried to get into other businesses,
we didn’t do it well. We’d rather re-invest in what we
know.”218
Energy Transitions Towards Net Zero Emissions (NZE), Shell
(2016).
215

216
Fred Pearce, Greenwash: BP and the Myth of a World ‘Beyond
Petroleum,’ THE GUARDIAN, (Nov. 20, 2008), https://www.theguardian.com/environment/2008/nov/20/fossilfuels-energy.

Javier E. David, ‘Beyond Petroleum’ No More? BP Goes Back
to Basics, CNBC (Apr. 20, 2013), http://www.cnbc.com/id/100647034.
217

James R. Healy, Alternate Energy Not in Cards at ExxonMobil, USA TODAY (Oct. 28, 2005), https://usatoday30.usatoday.com/
money/industries/energy/2005-10-27-oil-invest-usat_x.htm.
218

142

189. Even if Defendants did not adopt technological
or energy source alternatives that would have reduced
use of fossil fuel products, reduced global greenhouse gas
pollution, and/or mitigated the harms associated with the
use and consumption of such products, Defendants could
have taken other practical, cost-effective steps to reduce
the use of their fossil fuel products, reduce global greenhouse gas pollution associated therewith, and mitigate the
harms associated with the use and consumption of such
products. These alternatives could have included, among
other measures:
a. Accepting scientific evidence on the validity of
anthropogenic climate change and the damages
it will cause people, communities, including
Plaintiff, and the environment. Mere acceptance of that information would have altered the debate from whether to combat climate change and sea level rise to how to combat
it; and avoided much of the public confusion
that has ensued over nearly 30 years, since at
least 1988;
b. Forthrightly communicating with Defendants’
shareholders, banks, insurers, the public, regulators and Plaintiff about the global warming
and sea level rise hazards of Defendants’ fossil
fuel products that were known to Defendants,
would have enabled those groups to make material, informed decisions about whether and
how to address climate change and sea level
rise vis-à-vis Defendants’ products;
c. Refraining from affirmative efforts, whether
directly, through coalitions, or through front
groups, to distort public debate, and to cause
many consumers and business and political
143

leaders to think the relevant science was far
less certain that it actually was;
d. Sharing their internal scientific research with
the public, and with other scientists and business leaders, so as to increase public understanding of the scientific underpinnings of climate change and its relation to Defendants’
fossil fuel products;
e. Supporting and encouraging policies to avoid
dangerous climate change, and demonstrating
corporate leadership in addressing the challenges of transitioning to a low-carbon economy;
f. Prioritizing alternative sources of energy
through sustained investment and research on
renewable energy sources to replace dependence on Defendants’ inherently hazardous fossil fuel products;
g. Adopting their shareholders’ concerns about
Defendants’ need to protect their businesses
from the inevitable consequences of profiting
from their fossil fuel products. Over the period
of 1990-2015, Defendants’ shareholders proposed hundreds of resolutions to change Defendants’ policies and business practices regarding climate change. These included increasing renewable energy investment, cutting
emissions, and performing carbon risk assessments, among others.
190. Despite their knowledge of the foreseeable
harms associated with the consumption of Defendants’
fossil fuel products, and despite the existence and fossil
fuel industry knowledge of opportunities that would have
144

reduced the foreseeable dangers associated with those
products, Defendants wrongfully and falsely promoted,
campaigned against regulation of, and concealed the hazards of use of their fossil fuel products.
K. Defendants Caused Plaintiff’s Injuries.
191. Defendants individually and collectively extracted a substantial percentage of all raw fossil fuels extracted globally since 1965. Defendants individually and
collectively manufactured, promoted, marketed, and sold
a substantial percentage of all fossil fuel products ultimately used and combusted. Defendants played a leadership role in campaigns to deny the link between their
products and the adverse effects of fossil fuel emissions,
avoid regulation, and lessen the carbon footprint affecting
the world climate system.
192. CO2 emissions attributable to fossil fuels that Defendants extracted from the Earth and injected into the
market are responsible for a substantial percentage of
greenhouse gas pollution since 1965.
193. Defendants’ individual and collective conduct, including, but not limited to, their extraction, refining,
and/or formulation of fossil fuel products; their introduction of fossil fuel products into the stream of commerce;
their wrongful promotion of their fossil fuel products and
concealment of known hazards associated with use of
those products; and their failure to pursue less hazardous
alternatives available to them; is a substantial factor in
causing the increase in global mean temperature and consequent increase in global mean sea surface height and
disruptions to the hydrologic cycle, including, but not limited to, more frequent and extreme droughts, more fre-

145

quent and extreme precipitation events, increased frequency and severity of heat waves and extreme temperatures, and the associated consequences of those physical
and environmental changes, since 1965.
194. Defendants have actually and proximately
caused the sea levels to rise, increased the destructive impacts of storm surges, increased coastal erosion, exacerbated the onshore impact of regular tidal ebb and flow,
disrupted the hydrologic cycle, caused increased frequency and severity of drought, caused increased frequency and severity of extreme precipitation events,
caused increased frequency and severity of heat waves,
and caused consequent social and economic injuries associated with the aforementioned physical and environmental impacts, among other impacts, resulting in inundation,
destruction, and/or other interference with Plaintiff’s
property and citizenry.
195. The City has already incurred, and will foreseeably continue to incur, injuries, and damages due to anthropogenic global warming, including sea level rise and associated impacts, increased frequency and severity of extreme precipitation events, increased frequency and severity of drought, increased frequency and severity of
heat waves and extreme temperatures, and consequent
social and economic injuries associated with those physical and environmental changes, all of which have been
caused and/or exacerbated by Defendants’ conduct.
196. Baltimore has experienced significant sea level
rise and associated impacts over the last half century attributable to Defendants’ conduct.219 Warming-related sea
See City of Baltimore, Disaster Preparedness and Planning Project, supra note 55, at 36.
219

146

level rise has already increased the likelihood of extreme
floods in Baltimore by approximately 20 percent.220 Even
if all carbon emissions were to cease, Baltimore would still
experience greater future committed sea level rise due to
the “locked in” greenhouse gases already emitted.221 The
City will suffer greater overall sea level rise than the
global average.222
197. Baltimore is particularly vulnerable to the impacts of sea level rise because of its substantial and
densely developed coastline and substantial low-lying areas. The port and waterfront are extremely important assets to the City, providing an abundance of jobs as well as
some of the City’s strongest property tax base. Baltimore’s Inner Harbor is a prominent tourist destination attracting more than 20 million visitors each year. Sea level
rise will present short- and long-term challenges to the
Inner Harbor, along with other waterfront communities.
The figure below delineates the extent of flood impacts of
100- and 500-year storms superimposed on 3-foot, 5-foot,
and 7-foot sea level rise scenarios.

220
Climate Central, Maryland and the Surging Sea, 14 (Sept.
2014), http://sealevel.climatecentral.org/upload/ssrf/MD-Report.pdf.
221

Peter U. Clark et al., supra note 44, at 365.

222

See id. at 364.

147

Fig. 8: Baltimore Storm Inundation Projections

198. Based on NOAA’s highest sea level rise scenario,
within 80 years, floods breaking today’s records would be
expected once a year in Baltimore, according to a 2014

148

analysis by Climate Central.223 There is also a higher than
4 in 5 chance of flooding above nine feet in Baltimore by
2100 under the high sea level rise scenario.224 The same
study also found climate change-related sea level rise has
already increased the likelihood of extreme floods in and
around Baltimore by at least 20 percent.225
199. Sea level rise endangers City property and infrastructure, causing coastal flooding of low-lying areas, erosion, and storm surges. Several critical City assets and
roadways, including highways, rail lines, emergency response facilities, waste water facilities, and power plants,
have suffered and/or will suffer injuries due to sea level
rise and associated flooding expected by the end of this
century. Federal Emergency Management Agency estimates an additional 36 to 58 percent increase in annual
storm damage costs for every one-foot rise in sea level and
a 102 to 200 percent increase in damage costs for a threefoot increase.226
200. The map below depicts critical infrastructure in
FEMA flood zones in Baltimore’s Fells Point neighborhood and other neighborhoods surrounding the harbor
under current conditions. Sea level rise will exacerbate
the vulnerability of this critical infrastructure to storm
surges and flooding.

Ben Strauss et al., Maryland and the Surging Sea, Climate Central (Sept. 2014), 13, http://sealevel.climatecentral.org/upload/ssrf/
MD-Report.pdf.
223

224

Id.

225

Id. at 14.

Maryland Commission on Climate Change, 2015 Annual Report,
supra note 57, at 13.
226

149

Fig. 9: Critical Baltimore Infrastructure Threatened
by Storm Inundation

201. Furthermore, the City has and will continue to
experience injuries due to changes to the hydrologic cycle
caused by Defendants’ conduct. Changes to the hydrologic cycle, including more frequent and intense precipitation events and associated floods, have caused and will
continue to cause the City multiple significant injuries, including, but not limited to, infrastructure damage; disruption to electrical and communications utilities within Baltimore; interference with the use and enjoyment of Cityowned public property; and the financial, manpower, and
other costs to the City of planning for climatic changes
and of responding to acute injuries to assets within Baltimore. For example, increased flooding, higher temperatures, and elevated freeze-thaw cycles will significantly increase the costs of maintaining, replacing and repairing
roads.227
Maryland Commission on Climate Change, 2015 Annual Report,
supra note 57, at 13.
227

150

202. Several locations within Baltimore are subject to
repetitive damage from flood events. Most recently, during and following the severe rains of May 27, 2018, Baltimore experienced a severe flood event that required first
responders to rescue 20 people, including several trapped
aboard public transit.228 The flooding damaged City infrastructure, interrupted utility service, and causes local
business to evacuate and close. Increased extreme precipitation events will increase flood events in Baltimore.229 As
the torrential rain and associated flooding that struck Baltimore, Baltimore County, and Ellicott City in 2016 and
again in 2018 demonstrate, see paragraphs 80–82, supra,
extreme precipitation is a present threat to Baltimore and
the surrounding region.
203. Flood-associated damages have been and will be
exacerbated by anthropogenic climate change, requiring
the City to expend increased resources on retrofitting
storm water infrastructure, emergency response, and/or
implement policy measures such as managed retreat.
204. Heavy rains can also exceed the capacity of the
City’s storm water and sewer systems, resulting in overflows that eventually pour into Baltimore’s waterways
and harbor and pose serious health and environmental
risks. Increased extreme participation events from anthropogenic climate change will exacerbate this environ-

Colin Campbell, Flooding prompts rescues, evacuations
through Baltimore region, BALTIMORE SUN (May 27, 2018),
http://www.baltimoresun.com/news/weather/bs-md-ci-jones-fallsflooding-20180527-story.html.
228

City of Baltimore, Disaster Preparedness and Planning Project, supra note 55, at 44.
229

151

mental and health issue, requiring the City to expend additional resources to retrofit its storm water and waste
water systems.
205. Winter storms also have caused and will cause
substantial injury to infrastructure and properties in Baltimore. Freezing rain and ice can weigh down power lines,
cause branches to break, and cause trees to break or become uprooted. Downed trees and power lines may disrupt traffic, hinder emergency response vehicles, and necessitate costly cleanup and disposal of debris. Damage to
power lines or communication towers has the potential to
cause electrical and communication disruptions for residents, businesses, and critical facilities. In addition to lost
revenues, downed power lines present a threat to personal safety. Furthermore, downed wires have been
known to spark fires.230
206. Over the past decade, Baltimore has experienced
several strong winter storms that have disrupted regular
activities and caused a number of automobile accidents
and power outages.231
207. Climate change also increases Baltimore’s risk of
summer droughts, resulting in additional injuries to the
City. While the City does not anticipate water shortage
problems in the short-term, summer droughts have impacted and will impact City services and costs of maintaining City property, for example by interfering with urban
greening efforts (tree plantings) and increasing costs of
irrigation.
208. Increased extreme temperatures and heat waves
put stress on Baltimore’s electricity grid, as increased
230

Id. at 136.

231

Id. at 73.

152

electricity is required for cooling thereby increasing the
likelihood of power brownouts and blackouts. Increased
temperatures also pose health risks for residents. Baltimore is forecasted to see an increase from an average of
eight excessive heat days per summer to 45 such excessive
heat days by 2050, resulting in 27 additional deaths per
summer without adaptive and preventative measures.232
209. Public health impacts associated with anthropogenic climate change have injured and will continue to
cause injury to the City. Extreme heat-induced public
health impacts in the City will result in increased risk of
heat-related illnesses (mild heat stress to fatal heat
stroke) and the exacerbation of pre-existing conditions in
the medically fragile, chronically ill, and vulnerable. Increased extreme temperatures and heat waves has and
will contribute to and exacerbate, allergies, respiratory
disease, and other health issues in children and adults.
210. The City has incurred and will incur expenses in
planning and preparing for, treating and responding to,
and educating residents about the public health impacts
associated with anthropogenic global warming including,
but not limited to, impacts associated with extreme
weather, extreme heat, vector borne illnesses, and sea
level rise.
211. Anthropogenic climate change-related impacts
on public, industrial, commercial, and residential assets
within Baltimore have caused and will continue to cause
injuries to the City, either directly, or through secondary
and tertiary impacts that cause the City to expend resources in responding to these impacts, to lose revenue

Maryland Commission on Climate Change, 2015 Annual Report,
supra note 57, at 17.
232

153

due to decreased economic activity in Baltimore, and to
suffer other injuries.
212. The City has and is planning, at significant expense, adaptation strategies to address climate change related impacts, including, but not limited to, development
of a Climate Adaptation Plan and Disaster Planning and
Preparedness Project.233 Additionally, the City has incurred and will incur significant expense in educating and
engaging the public on climate change issues, and to promote and implement policies to mitigate and adapt to climate change impacts, including promoting energy and
water efficiency and renewable energy.234 Implementation
of these planning and outreach processes will come at a
substantial cost to the City.
213. As a direct and proximate result of the acts and
omissions of the Defendants’ alleged herein, the City has
incurred and will incur significant expenses related to
planning for and predicting future sea level rise-related
and hydrologic cycle change-related injuries to its real
property, improvements thereon, municipal infrastructure, and citizens, and other community assets in order to
preemptively mitigate and/or prevent injuries to itself and
its citizens.
214. As a direct and proximate result of Defendants’
acts and omissions alleged herein, Maryland has incurred
and will continue to incur sea level rise-related and hydro-

Baltimore Office of Sustainability, “Baltimore & Climate
Change” (accessed June 6, 2018) https://www.baltimoresustainability.org/baltimore-climate-change.
233

234
See Baltimore Climate Adaptation Plan, 24–25 (Jan. 15, 2013),
https://www.baltimoresustainability.org/wp-content/uploads/2015/
12/BaltimoreClimateAction Plan.pdf.

154

logic regime change-related injuries and harms. These include, but are not limited to, infrastructural repair, planning costs, and response costs to flooding and other acute
incidents.
215. As a direct and proximate result of Defendants’
acts and omissions alleged herein, Plaintiff’s real property
has been and/or will be inundated by sea water, and extreme precipitation, among other climate-change related
intrusions, causing injury and damages thereto and to improvements thereon, and preventing free passage on, use
of, and normal enjoyment of that real property, or permanently destroying it.
216. But for Defendants’ conduct, Plaintiff would
have suffered no or far less serious injuries and harms
than they have endured, and foreseeably will endure, due
to anthropogenic sea level rise, increased temperatures,
disruption of the hydrologic cycle, and associated consequences of those physical and environmental changes.
217. Defendants’ conduct as described herein is
therefore an actual, substantial, and proximate cause of
Plaintiff’s sea level rise-related and hydrologic regime
change-related injuries.
VI. CAUSES OF ACTION
FIRST CAUSE OF ACTION
(Public Nuisance)
(Against All Defendants)
218. Plaintiff Mayor and City Council of Baltimore realleges each and every allegation contained above, as
though set forth herein in full.

155

219. Defendants, individually and in concert with each
other, by their affirmative acts and omissions, have created, contributed to, and/or assisted in creating, conditions that significantly interfere with rights general to the
public, including the public health, public safety, the public peace, the public comfort, and the public convenience.
220. The nuisance created and contributed to by Defendants is substantial and unreasonable. It has caused,
continues to cause, and will continue to cause far into the
future, significant harm to the community as alleged
herein, and that harm outweighs any offsetting benefit.
The health and safety of Baltimoreans is a matter of great
public interest and of legitimate concern to the City and
the entire state.
221. Defendants specifically created, contributed to,
and/or assisted, and/or were a substantial contributing
factor in the creation of the public nuisance by, inter alia:
a. Controlling every step of the fossil fuel product
supply chain, including the extraction of raw
fossil fuel products, including crude oil, coal,
and natural gas from the Earth; the refining
and marketing of those fossil fuel products, and
the placement of those fossil fuel products into
the stream of commerce;
b. Affirmatively and knowingly promoting the
sale and use of fossil fuel products which Defendants knew to be hazardous and knew would
cause or exacerbate global warming and related consequences, including, but not limited
to, sea level rise, drought, extreme precipitation events, and extreme heat events;
c. Affirmatively and knowingly concealing the
hazards that Defendants knew would result
156

from the normal use of their fossil fuel products
by misrepresenting and casting doubt on the
integrity of scientific information related to climate change;
d. Disseminating and funding the dissemination
of information intended to mislead customers,
consumers, and regulators regarding known
and foreseeable risk of climate change and its
consequences, which follow from the normal,
intended use of Defendants’ fossil fuel products;
e. Affirmatively and knowingly campaigning
against the regulation of their fossil fuel products, despite knowing the hazards associated
with the normal use of those products, in order
to continue profiting from use of those products
by externalizing those known costs onto people,
the environment, and communities, including
the City; and failing to warn the public about
the hazards associated with the use of fossil fuel
products.
222. Because of their superior knowledge of fossil fuel
products, and their position controlling the extraction, refining, development, marketing, and sale of fossil fuel
products, Defendants were in the best position to prevent
the nuisance, but failed to do so, including by failing to
warn customers, retailers, regulators, public officials, or
the City of the risks posed by their fossil fuel products,
and failing to take any other precautionary measures to
prevent or mitigate those known harms.
223. The public nuisance caused, contributed to,
maintained, and/or participated in by Defendants has

157

caused and/or imminently threatens to cause special injury to the City. The public nuisance has also caused
and/or imminently threatens to cause substantial injury
to real and personal property directly owned by the City
for the cultural, historic, and economic benefit of the Baltimore’s residents, and for their health, safety, and general welfare.
224. The seriousness of rising sea levels, more frequent and extreme drought, more frequent and extreme
precipitation events, increased frequency and severity of
heat waves and extreme temperatures, and the associated
consequences of those physical and environmental
changes, is extremely grave and outweighs the social utility of Defendants’ conduct because, inter alia:
a. interference with the public’s rights due to sea
level rise, more frequent and extreme drought,
more frequent and extreme precipitation
events, increased frequency and severity of
heat waves and extreme temperatures, and the
associated consequences of those physical and
environmental changes as described above, is
expected to become so regular and severe that
it will cause material deprivation of and/or interference with the use and enjoyment of public
and private property in the City;
b. the ultimate nature of the harm is the destruction of real and personal property, loss of public
cultural, historic, and economic resources, and
damage to the public health, safety, and general welfare, rather than mere annoyance;
c. the interference borne is the loss of property,
infrastructure, and public resources within the
City, which will actually be borne by the City’s

158

citizens as loss of use of public and private
property and infrastructure; loss of cultural,
historic, and economic resources; damage to
the public health, safety, and general welfare;
and diversion of tax dollars away from other
public services to the mitigation of and/or adaptation to climate change impacts;
d. Plaintiff’s property, which serves myriad uses
including residential, infrastructural, commercial, historic, cultural, and ecological, is not suitable for regular inundation, flooding, and/or
other physical or environmental consequences
of anthropogenic global warming;
e. the social benefit of placing fossil fuels into the
stream of commerce is outweighed by the availability of other sources of energy that could
have been placed into the stream of commerce
that would not have caused anthropogenic climate change and its physical and environmental consequences as described herein; Defendants, and each of them, knew of the external
costs of placing their fossil fuel products into
the stream of commerce, and rather than striving to mitigate those externalities, Defendants
instead acted affirmatively to obscure them
from public consciousness;
f. the cost to society of each ton of greenhouse
gases emitted into the atmosphere increases as
total global emissions increase, so that unchecked extraction and consumption of fossil
fuel products is more harmful and costly than
moderated extraction and consumption; and

159

g. it was practical for Defendants, and each of
them, considering their extensive knowledge of
the hazards of placing fossil fuel products into
the stream of commerce and extensive scientific engineering expertise, to develop better
technologies and to pursue and adopt known,
practical, and available technologies, energy
sources, and business practices that would have
mitigated greenhouse gas pollution and eased
the transition to a lower carbon economy.
225. Defendants’ conduct also constitutes a nuisance
per se because it independently violates other applicable
statutes. As set forth below, Defendants’ conduct violates
the Maryland Consumer Protection Act.
226. Defendants’ actions were, at the least, a substantial contributing factor in the unreasonable violation of
public rights enjoyed by the City and its residents as set
forth above, because Defendants knew or should have
known that their conduct would create a continuing problem with long-lasting significant negative effects on the
rights of the public, and absent Defendants’ conduct the
violations of public rights described herein would not have
occurred, or would have been less severe.
227. Defendants’ wrongful conduct as set forth herein
was committed with actual malice. Defendants had actual
knowledge that their products were defective and dangerous and were and are causing and contributing to the nuisance complained of, and acted with conscious disregard
for the probable dangerous consequences of their conduct’s and products’ foreseeable impact upon the rights of
others, including the City of Baltimore and its residents.
Therefore, the City requests an award of punitive damages in an amount reasonable, appropriate, and sufficient

160

to punish these Defendants for the good of society and deter Defendants from ever committing the same or similar
acts.
228. Baltimore seeks an order that provides for abatement of the public nuisance Defendants have created, enjoins Defendants from creating future common-law nuisances, and awards Baltimore damages in an amount to
be determined at trial. Baltimore pursues these remedies
in its sovereign capacity for the benefit of the general public.
SECOND CAUSE OF ACTION
(Private Nuisance)
(Against All Defendants)
229. Plaintiff Mayor and City Council of Baltimore realleges each and every allegation contained above, as
though set forth herein in full.
230. Plaintiff owns, occupies, and manages extensive
real property within the City of Baltimore’s borders,
which has been and will continue to be injured rising sea
levels, higher sea level, more frequent and extreme
drought, more frequent and extreme precipitation events,
increased frequency and severity of heat waves and extreme temperatures, and the associated consequences of
those physical and environmental changes.
231. Defendants, and each of them, by their acts and
omission, have created and contributed to conditions on
Plaintiff’s property, and permitted those conditions to
persist, which substantially and unreasonably interfere
with Plaintiff’s use and enjoyment of such property for the
public benefit and welfare, and which materially diminishes the value of such property for its public purposes, by
increasing sea levels, causing more frequent and extreme
161

drought, causing more frequent and extreme precipitation events, causing increased frequency and severity of
heat waves and extreme temperatures, and the associated
consequences of those physical and environmental
changes.
232. Plaintiff has not consented to Defendants’ conduct in creating the unreasonably injurious conditions on
its real property or to the associated harms of that conduct.
233. The seriousness of rising sea levels, higher sea
level, more frequent and extreme drought, more frequent
and extreme precipitation events, increased frequency
and severity of heat waves and extreme temperatures,
and the associated consequences of those physical and environmental changes, is extremely grave and outweighs
the social utility of Defendants’ conduct because, inter
alia,
a. interference with the public’s rights due to sea
level rise, more frequent and extreme drought,
more frequent and extreme precipitation
events, increased frequency and severity of
heat waves and extreme temperatures, and the
associated consequences of those physical and
environmental changes as described above, is
expected to become so regular and severe that
it will cause material deprivation of and/or interference with the use and enjoyment of public
and private property in the City;
b. the ultimate nature of the harm is the destruction of real and personal property, loss of public
cultural, historic, and economic resources, and
damage to the public health, safety, and general welfare, rather than mere annoyance;

162

c. the interference borne is the loss of property,
infrastructure, and public resources within the
City, which will actually be borne by the City’s
citizens as loss of use of public and private
property and infrastructure; loss of cultural,
historic, and economic resources; damage to
the public health, safety, and general welfare;
and diversion of tax dollars away from other
public services to the mitigation of and/or adaptation to climate change impacts;
d. Plaintiffs property, which serves myriad uses
including residential, infrastructural, commercial, historic, cultural, and ecological, is not suitable for regular inundation, flooding, and/or
other physical or environmental consequences
of anthropogenic global warming;
e. the social benefit of placing fossil fuels into the
stream of commerce is outweighed by the availability of other sources of energy that could
have been placed into the stream of commerce
that would not have caused anthropogenic climate change and its physical and environmental consequences as described herein; Defendants, and each of them, knew of the external
costs of placing their fossil fuel products into
the stream of commerce, and rather than striving to mitigate those externalities, Defendants
instead acted affirmatively to obscure them
from public consciousness;
f. the cost to society of each ton of greenhouse
gases emitted into the atmosphere increases as
total global emissions increase, so that unchecked extraction and consumption of fossil

163

fuel products is more harmful and costly than
moderated extraction and consumption; and
g. it was practical for Defendants, and each of
them, considering their extensive knowledge of
the hazards of placing fossil fuel products into
the stream of commerce and extensive scientific engineering expertise, to develop better
technologies and to pursue and adopt known,
practical, and available technologies, energy
sources, and business practices that would have
mitigated greenhouse gas pollution and eased
the transition to a lower carbon economy.
234. Defendants’ conduct was a direct and proximate
cause of Plaintiff’s injuries, and a substantial factor in the
harms suffered by Plaintiff as described in this Complaint.
235. Defendants’ acts and omissions as alleged herein
are indivisible causes of Mayor and City Council of Baltimore’s injuries and damage as alleged herein, because, inter alia, it is not possible to determine the source of any
particular individual molecule of CO2 in the atmosphere
attributable to anthropogenic sources because such
greenhouse gas molecules do not bear markers that permit tracing them to their source, and because greenhouse
gasses quickly diffuse and comingle in the atmosphere.
236. Wherefore, Plaintiff prays for relief as set forth
below.

164

THIRD CAUSE OF ACTION
(Strict Liability Failure to Warn)
(Against All Defendants)
237. Plaintiff Mayor and City Council of Baltimore realleges each and every allegation contained above, as
though set forth herein in full.
238. Defendants, and each of them, at all times had a
duty to issue adequate warnings to the City, the public,
consumers, and public officials of the reasonably foreseeable or knowable severe risks posed by their fossil fuel
products.
239. Defendants knew or should have known, based
on information passed to them from their internal research divisions and affiliates and/or from the international scientific community, of the climate effects inherently caused by the normal use and operation of their fossil fuel products, including the likelihood and likely severity of global warming, global and local sea level rise, more
frequent and extreme drought, more frequent and extreme precipitation events, increased frequency and severity of heat waves and extreme temperatures, and the
associated consequences of those physical and environmental changes, including the City’s harms and injuries
described herein.
240. Defendants knew or should have known, based
on information passed to them from their internal research divisions and affiliates and/or from the international scientific community, that the climate effects described herein rendered their fossil fuel products dangerous, or likely to be dangerous, when used as intended or
in a reasonably foreseeable manner.

165

241. Throughout the times at issue, Defendants
breached their duty of care by failing to adequately warn
any consumers or any other party of the climate effects
that inevitably flow from the intended use of their fossil
fuel products.
242. Throughout the times at issue, Defendants individually and in concert widely disseminated marketing
materials, refuted the scientific knowledge generally accepted at the time, advanced pseudo-scientific theories of
their own, and developed public relations materials that
prevented reasonable consumers from recognizing the
risk that fossil fuel products would cause grave climate
changes, undermining and rendering ineffective any
warnings that Defendants may have also disseminated.
243. Given the grave dangers presented by the climate effects that inevitably flow from the normal use of
fossil fuel products, a reasonable extractor, manufacturer,
formulator, seller, or other participant responsible for introducing fossil fuel products into the stream of commerce, would have warned of those known, inevitable climate effects.
244. Defendants’ conduct was a direct and proximate
cause of Plaintiff’s injuries and a substantial factor in the
harms suffered by Plaintiff as alleged herein.
245. As a direct and proximate result of Defendants’
and each of their acts and omissions, Mayor and City
Council of Baltimore has sustained and will sustain substantial expenses and damages set forth in this Complaint, including damage to publicly owned infrastructure
and real property, and injuries to public resources that interfere with the rights of the City and residents.

166

246. Defendants’ acts and omissions as alleged herein
are indivisible causes of Mayor and City Council of Baltimore’s injuries and damage as alleged herein, because, inter alia, it is not possible to determine the source of any
particular individual molecule of CO2 in the atmosphere
attributable to anthropogenic sources because such
greenhouse gas molecules do not bear markers that permit tracing them to their source, and because greenhouse
gasses quickly diffuse and comingle in the atmosphere.
247. Defendants’ wrongful conduct as set forth herein
was committed with actual malice. Defendants had actual
knowledge that their products were defective and dangerous and that they had not provided reasonable and adequate warnings against those known dangers, and acted
with conscious disregard for the probable dangerous consequences of their conduct’s and products’ foreseeable impact upon the rights of others, including the City of Baltimore. Therefore, the City requests an award of punitive
damages in an amount reasonable, appropriate, and sufficient to punish these Defendants for the good of society
and deter Defendants from ever committing the same or
similar acts.
248. Wherefore, Plaintiff prays for relief as set forth
below.
FOURTH CAUSE OF ACTION
(Strict Liability for Design Defect)
(Against All Defendants)
249. Plaintiff Mayor and City Council of Baltimore realleges each and every allegation contained above, as
though set forth herein in full.
250. Defendants, and each of them, extracted raw fossil fuel products, including crude oil, coal, and natural gas
167

from the Earth and placed those fossil fuel products into
the stream of commerce; and owed a duty to all persons
whom Defendants’ fossil fuel products might foreseeably
harm, including Plaintiff, not to market any product which
is unreasonably dangerous for its intended or reasonably
foreseeable uses.
251. Defendants, and each of them, extracted, refined, formulated, designed, packaged, distributed,
tested, constructed, fabricated, analyzed, recommended,
merchandised, advertised, promoted, and/or sold fossil
fuel products, which were intended by Defendants, and
each of them, to be burned for energy, refined into petrochemicals, and refined and/or incorporated into petrochemical products including but not limited to fuels and
plastics.
252. Defendants, and each of them, heavily marketed,
promoted, and advertised fossil fuel products and their
derivatives, which were sold or used by their respective
affiliates and subsidiaries. Defendants’ received direct financial benefit from their affiliates’ and subsidiaries’ sales
of fossil fuel products. Defendants’ roles as promoters and
marketers were integral to their respective businesses
and a necessary factor in bringing fossil fuel products and
their derivatives to the consumer market, such that Defendants had control over, and a substantial ability to influence, the manufacturing and distribution processes of
their affiliates and subsidiaries.
253. Throughout the time at issue, fossil fuel products
have not performed as safely as an ordinary consumer
would expect them to, and have been unreasonably dangerous for their intended, foreseeable, and ordinary use,
because greenhouse gas emissions from their use cause
numerous global and local changes to Earth’s climate. In
particular, ordinary consumers did not expect that:
168

a. fossil fuel products are the primary cause of
global warming since the dawn of the industrial
revolution, and by far the primary cause of
global warming acceleration in the 20th and
21st centuries;
b. fossil fuel products would cause acceleration of
sea level rise since the beginning of the 20th
century;
c. normal and/or foreseeable use of fossil fuel
products would cause more frequent and extreme drought;
d. normal and/or foreseeable use of fossil fuel
products would cause more frequent and extreme precipitation events;
e. normal and/or foreseeable use of fossil fuel
products would cause increased frequency and
severity of heat waves and extreme temperatures;
f. normal and/or foreseeable use of fossil fuel
products would cause other injurious changes
to the environment as alleged herein;
g. by increasing sea level rise and increasing the
severity and intensity of droughts, extreme
precipitation events, heat waves, and the associated consequences of those physical and environmental changes, fossil fuel products cause
damage to publicly and privately-owned infrastructure and buildings, including homes;
h. the social cost of each ton of CO2 emitted into
the atmosphere increases as total global emissions increase, so that unchecked extraction
and consumption of fossil fuel products is more

169

harmful and costly than moderated extraction
and consumption; and
i. for these reasons and others, the unmitigated
use of fossil fuel products present significant
threats to the environment and human health
and welfare.
254. Throughout the times at issue, Defendants individually and in concert widely disseminated marketing
materials, refuted the scientific knowledge generally accepted at the time, advanced pseudo-scientific theories of
their own, and developed public relations materials,
among other public messaging efforts, that prevented
reasonable consumers from forming an expectation that
fossil fuel products would cause grave climate changes, including those described herein.
255. The above-described defects were beyond the
knowledge of an ordinary consumer, and neither the City
nor any ordinary consumer could have avoided the harm
caused by Defendants’ defective fossil fuel products by
the exercise of reasonable care.
256. Defendants’ individual and aggregate fossil fuel
products were defective at the time of manufacture, and
reached the consumer in a condition substantially unchanged from the time of manufacture; and were used in
the manner in which they were intended to be used, or in
a manner foreseeable to Defendants and each of them, by
individual and corporate consumers; the result of which
was the addition of CO2 emissions to the global atmosphere with attendant global and local consequences.
257. As a direct and proximate result of Defendants’
and each of their acts and omissions, Plaintiff Mayor and
City Council of Baltimore has sustained and will sustain

170

substantial expenses and damages set forth in this Complaint, including damage to publicly owned infrastructure
and real property, and injuries to public resources that interfere with the rights of the City and residents.
258. Defendants’ acts and omissions as alleged herein
are indivisible causes of Mayor and City Council of Baltimore’s injuries and damage as alleged herein, because, inter alia, it is not possible to determine the source of any
particular individual molecule of CO2 in the atmosphere
attributable to anthropogenic sources because such
greenhouse gas molecules do not bear markers that permit tracing them to their source, and because greenhouse
gasses quickly diffuse and comingle in the atmosphere.
259. Defendants’ wrongful conduct as set forth herein
was committed with actual malice. Defendants had actual
knowledge that their products were defective and dangerous when use as intended or in a foreseeable manner, and
acted with conscious disregard for the probable dangerous consequences of their conduct’s and products’ foreseeable impact upon the rights of others, including the City
of Baltimore. Therefore, the City requests an award of punitive damages in an amount reasonable, appropriate, and
sufficient to punish these Defendants for the good of society and deter Defendants from ever committing the same
or similar acts.
260. Wherefore, Plaintiff prays for relief as set forth
below.

171

FIFTH CAUSE OF ACTION
(Negligent Design Defect)
(Against All Defendants)
261. Plaintiff Mayor and City Council of Baltimore realleges each and every allegation contained above, as
though set forth herein in full.
262. Defendants knew or should have known of the
climate effects inherently caused by the normal use and
operation of their fossil fuel products, including the likelihood and likely severity of global and local sea level rise,
more frequent and extreme drought, more frequent and
extreme precipitation events, increased frequency and severity of heat waves and extreme temperatures, and the
associated consequences of those physical and environmental changes, and including injuries to Plaintiff, its citizens, and its natural resources, as described herein.
263. Defendants, collectively and individually, had a
duty to use due care in developing, designing, testing, inspecting, and distributing their fossil fuel products. That
duty obligated Defendants collectively and individually to,
inter alia, prevent defective products from entering the
stream of commerce, and prevent reasonably foreseeable
harm that could have resulted from the ordinary and/or
reasonably foreseeable use of Defendants’ products.
264. Defendants, and each of them, breached their
duty of due care by, inter alia:
a. allowing fossil fuel products to enter the stream
of commerce, despite knowing them to be defective due to their inevitable propensity to
cause sea level rise, more frequent and extreme
drought, more frequent and extreme precipitation events, increased frequency and severity
172

of heat waves and extreme temperatures, and
the associated consequences of those physical
and environmental changes;
b. failing to act on the information and warnings
they received from their own internal research
staff, as well as from the international scientific
community, that the unabated extraction, promotion, and sale of their fossil fuel products
would result in material dangers to the public,
including the City of Baltimore and its citizens
and natural resources;
c. failing to take actions including, but not limited
to, pursuing and adopting known, practical, and
available technologies, energy sources, and
business practices that would have mitigated
greenhouse gas pollution caused by Defendants’ fossil fuel products and eased the transition to a lower carbon economy; shifting to nonfossil fuel products, and researching and/or offering technologies to mitigate CO2 emissions
in conjunction with sale and distribution of
their fossil fuel products; and pursuing other
available alternatives that would have prevented or mitigated the injuries to Plaintiff, its
citizens, and its natural resources caused by
global warming and associated physical and environmental consequences, that Defendants,
and each of them, knew or should have foreseen
would inevitably result from use of Defendants’
fossil fuel products:
d. engaging in a campaign of disinformation regarding global warming and the climatic effects
of fossil fuel products that prevented customers, consumers, regulators, and the general
173

public from staking steps to mitigate the inevitable consequences of fossil fuel consumption,
and incorporating those consequences into either short-term decisions or long-term planning.
265. Defendants’ individual and collective acts and
omissions were actual, substantial causes of sea level rise,
more frequent and extreme drought, more frequent and
extreme precipitation events, increased frequency and severity of heat waves and extreme temperatures, and the
associated consequences of those physical and environmental changes, including harms and injuries set forth
herein to Plaintiff, its citizens, and its natural resources,
as sea levels would not have risen to the levels that caused
those injuries, and prevailing climatic and meteorological
regimes would not have been disrupted to a magnitude
that caused those injuries, but for Defendants’ introduction of their fossil fuel products into the stream of commerce.
266. As a direct and proximate result of Defendants’
and each of their acts and omissions, Plaintiff Mayor and
City Council of Baltimore has sustained and will sustain
substantial expenses and damages set forth in this Complaint, including damage to publicly owned infrastructure
and real property, and injuries to public resources that interfere with the rights of the City and residents.
267. Defendants’ acts and omissions as alleged herein
are indivisible causes of Mayor and City Council of Baltimore’s injuries and damage as alleged herein, because, inter alia, it is not possible to determine the source of any
particular individual molecule of CO2 in the atmosphere
attributable to anthropogenic sources because such

174

greenhouse gas molecules do not bear markers that permit tracing them to their source, and because greenhouse
gasses quickly diffuse and comingle in the atmosphere.
268. Defendants’ wrongful conduct as set forth herein
was committed with actual malice. Defendants had actual
knowledge that their products were defective and dangerous when used as intended or in a foreseeable manner,
and acted with conscious disregard for the probable dangerous consequences of their conduct’s and products’
foreseeable impact upon the rights of others, including the
City. Therefore, the City requests an award of punitive
damages in an amount reasonable, appropriate, and sufficient to punish these Defendants for the good of society
and deter Defendants from ever committing the same or
similar acts.
269. Wherefore, Plaintiff prays for relief as set forth
below.
SIXTH CAUSE OF ACTION
(Negligent Failure to Warn)
(Against All Defendants)
270. Plaintiff Mayor and City Council of Baltimore realleges each and every allegation contained above, as
though set forth herein in full.
271. Defendants, and each of them, at all times had a
duty to issue adequate warnings to Plaintiff, the public,
consumers, and public officials of the reasonably foreseeable or knowable severe risks posed by their fossil fuel
products.
272. Defendants knew or should have known, based
on information passed to them from their internal re-

175

search divisions and affiliates and/or from the international scientific community, of the climate effects inherently caused by the normal use and operation of their fossil fuel products, including the likelihood and likely severity of global warming, global and local sea level rise, more
frequent and extreme drought, more frequent and extreme precipitation events, increased frequency and severity of heat waves and extreme temperatures, and the
associated consequences of those physical and environmental changes, including the City’s harms and injuries
described herein.
273. Defendants knew or should have known, based
on information passed to them from their internal research divisions and affiliates and/or from the international scientific community, that the climate effects described herein rendered their fossil fuel products dangerous, or likely to be dangerous, when used as intended or
in a reasonably foreseeable manner.
274. Throughout the times at issue, Defendants
breached their duty of care by failing to adequately warn
any consumers or any other party of the climate effects
that inevitably flow from the intended or foreseeable use
of their fossil fuel products.
275. Throughout the times at issue, Defendants individually and in concert widely disseminated marketing
materials, refuted the scientific knowledge generally accepted at the time, advanced pseudo-scientific theories of
their own, and developed public relations materials that
prevented reasonable consumers from recognizing the
risk that fossil fuel products would cause grave climate
changes, undermining and rendering ineffective any
warnings that Defendants may have also disseminated.

176

276. Given the grave dangers presented by the climate effects that inevitably flow from the normal or foreseeable use of fossil fuel products, a reasonable extractor,
manufacturer, formulator, seller, or other participant responsible for introducing fossil fuel products into the
stream of commerce, would have warned of those known,
inevitable climate effects.
277. Defendants’ conduct was a direct and proximate
cause of the City’s injuries and a substantial factor in the
harms suffered by the City as alleged herein.
278. As a direct and proximate result of Defendants’
and each of their acts and omissions, Plaintiff Mayor and
City Council of Baltimore has sustained and will sustain
substantial expenses and damages set forth in this Complaint, including damage to publicly owned infrastructure
and real property, and injuries to public resources that interfere with the rights of the City and its residents.
279. Defendants’ acts and omissions as alleged herein
are indivisible causes of Mayor and City Council of Baltimore’s injuries and damage as alleged herein, because, inter alia, it is not possible to determine the source of any
particular individual molecule of CO2 in the atmosphere
attributable to anthropogenic sources because such
greenhouse gas molecules do not bear markers that permit tracing them to their source, and because greenhouse
gasses quickly diffuse and comingle in the atmosphere.
280. Defendants’ wrongful conduct as set forth herein
was committed with actual malice. Defendants had actual
knowledge that their products were defective and dangerous and that they had not provided reasonable and adequate warnings against those known dangers, and acted
with conscious disregard for the probable dangerous con-

177

sequences of their conduct’s and products’ foreseeable impact upon the rights of others, including the City of Baltimore. Therefore, the City requests an award of punitive
damages in an amount reasonable, appropriate, and sufficient to punish these Defendants for the good of society
and deter Defendants from ever committing the same or
similar acts.
281. Wherefore, Plaintiff prays for relief as set forth
below.
SEVENTH CAUSE OF ACTION
(Trespass)
(Against All Defendants)
282. Plaintiff Mayor and City Council of Baltimore realleges each and every allegation contained above, as
though set forth herein in full.
283. Plaintiff owns, leases, occupies, and/or controls
real property throughout the City.
284. Defendants, and each of them, have intentionally, recklessly, or negligently caused flood waters, extreme precipitation, saltwater, and other materials, to enter the City’s real property, by extracting, refining, formulating, designing, packaging, distributing, testing, constructing, fabricating, analyzing, recommending, merchandising, advertising, promoting, marketing, and/or
selling fossil fuel products, knowing those products in
their normal or foreseeable operation and use would cause
global and local sea levels to rise, more frequent and extreme droughts to occur, more frequent and extreme precipitation events to occur, increased frequency and severity of heat waves and extreme temperatures, and the associated consequences of those physical and environmental changes.
178

285. The Mayor and City Council of Baltimore did not
give permission for Defendants, or any of them, to cause
floodwaters, extreme precipitation, saltwater, and other
materials to enter its property as a result of the use of Defendants’ fossil fuel products.
286. The Mayor and City Council of Baltimore has
been and continues to be actually injured and continues to
suffer damages as a result of Defendants and each of their
having caused flood waters, extreme precipitation, saltwater, and other materials, to enter its real property, by inter alia submerging real property owned by the City,
causing flooding and increased water table which has invaded and threatens to invade real property owned by the
City and rendered it unusable, causing storm surges and
heightened waves which have invaded and threatened to
invade real property owned by the City, and in so doing
rendering the City’s property unusable.
287. Defendants’ and each Defendant’s introduction
of their fossil fuel products into the stream of commerce
was a substantial factor in causing the harms and injuries
to City’s public and private real property as alleged
herein.
288. Defendants’ acts and omissions as alleged herein
are indivisible causes of Mayor and City Council of Baltimore’s injuries and damage as alleged herein, because, inter alia, it is not possible to determine the source of any
particular individual molecule of CO2 in the atmosphere
attributable to anthropogenic sources because such
greenhouse gas molecules do not bear markers that permit tracing them to their source, and because greenhouse
gasses quickly diffuse and comingle in the atmosphere.
289. Defendants’ wrongful conduct as set forth herein
was committed with actual malice. Defendants had actual

179

knowledge that their products were defective and dangerous, and acted with conscious disregard for the probable
dangerous consequences of their conduct’s and products’
foreseeable impact upon the rights of others, including the
City of Baltimore. Therefore, the City requests an award
of punitive damages in an amount reasonable, appropriate, and sufficient to punish these Defendants for the good
of society and deter Defendants from ever committing the
same or similar acts.
290. Wherefore, Plaintiff prays for relief as set forth
below.
EIGHTH CAUSE OF ACTION
(Consumer Protection Act)
(Against All Defendants)
291. Plaintiff Mayor and City Council of Baltimore realleges each and every allegation contained above, as
though set forth herein in full.
292. Maryland’s Consumer Protection Act (“CPA”)
forbids any business from engaging in “any unfair or deceptive trade practice,” including making any “[f]alse,
falsely disparaging, or misleading oral or written statement, visual description, or other representation of any
kind which has the capacity, tendency, or effect of deceiving or misleading consumers.” Md. Comm. L. § 13-301(1).
It also prohibits fraud-based deception, including
“[d]eception, fraud, false pretense, false premise, misrepresentation, or knowing concealment, suppression, or
omission of any material fact with the intent that a consumer rely on the same in connection with” the sale of any
consumer goods or services. Id. § 13-301(9).
293. The CPA authorizes a private right of action for
“any person . . . to recover for injury or loss sustained . . .
180

as a result of” an unfair or deceptive trade practice. Md.
Comm. L. § 13-408(a). “Person” is in turn defined to include a “corporation . . . or any other legal or commercial
entity.” Md. Comm. L. § 13-101(h).
294. All Defendants are “persons” as defined under
the CSA, and are required to comply with the provisions
of the CSA in their marketing, promotion, sale, and distribution of fossil fuel products.
295. Throughout all times at issue, Defendants and
each of them violated the CSA by engaging in the deceptive marketing and promotion of their products both by
(1) making false and misleading statements regarding the
known severe risks posed by their fossil fuel products that
had the capacity, tendency, or effect of misleading consumers and by (2) making false representations and misleading omissions of material fact regarding the known
severe risks posed by their fossil fuel with the intent that
consumers would rely on those representations. In particular, Defendants engaged in deceptive marketing and
promotion of their products by, inter alia disseminating
misleading marketing materials and publications refuting
the scientific knowledge generally accepted at the time,
advancing pseudo-scientific theories of their own, and developing public relations materials that prevented reasonable consumers from recognizing the risk that fossil fuel
products would cause grave climate changes, undermining and rendering ineffective any warnings that Defendants may have separately disseminated.
296. The various false and misleading material omissions by Defendants rendered even their apparently
truthful statements about their fossil fuel products’ effects on climate false and misleading, because those statements were materially incomplete. At the time Defendants disseminated their false and misleading statements
181

or caused such statements to be made or disseminated,
they knowingly failed to include material facts regarding
the risks and benefits of their fossil fuel products, and intended that recipients of their marketing messages would
rely upon such omissions.
297. By reason of Defendants’ foregoing deception,
misrepresentations, and omissions of material fact, Defendants obtained income, profits, and other benefits it
would not otherwise have obtained.
298. By reason of that same conduct, the City of Baltimore incurred harm and was damaged in ways it would
not otherwise have been, as sort forth herein.
VII. PRAYER FOR RELIEF
The Plaintiff, the MAYOR AND CITY COUNCIL
OF BALTIMORE, seeks judgment against these Defendants for:
1. Compensatory damages in an amount according to
proof;
2. Equitable relief, including abatement of the nuisances complained of herein;
3. Civil penalties for each violation of the Maryland
Consumer Protection Act;
4. Reasonable attorneys’ fees as permitted by law;
5. Punitive damages;
6. Disgorgement of profits;
7. Costs of suit; and
8. For such and other relief as the court may deem
proper.

182

MAYOR AND CITY COUNCIL OF BALTIMORE
Dated: July 20, 2018
By its Attorneys,
By: /s/ Andre M. Davis
ANDRE M. DAVIS
Baltimore City Solicitor
SUZANNE SANGREE
Senior Public Safety Counsel
ELIZABETH RYAN MARTINEZ
Assistant Solicitor
BALTIMORE CITY LAW DEPARTMENT
100 N. Holliday Street, Suite 109
Baltimore, MD 21202
Tel:
(443) 388-2190
Fax: (410) 576-7203
Email: Suzanne.Sangree2@baltimorecity.gov
andre.davis@haltimorecity.gov
liz.martinez@baltimorecity.gov
SHER EDLING LLP
VICTOR M. SHER (pro hac vice forthcoming)
MATTHEW K. EDLING
(pro hac vice forthcoming)
TIMOTHY R. SLOANE
(pro hac vice forthcoming)
MARTIN D. QUIÑONES
(pro hac vice forthcoming)
MEREDITH S. WILENSKY
(pro hac vice forthcoming)
KATIE H. JONES (pro hac vice forthcoming)
100 Montgomery St., Ste. 1410
San Francisco, CA 94104
Tel:
(628) 231-2500
Fax: (628) 231-2929

183

Email: vic@sheredling.com
matt@sheredling.com
tim@sheredling.com
marty@sheredling.com
meredith@sheredling.com
katie@sheredling.com
Attorneys for the Mayor and
City Council of Baltimore

184

REQUEST FOR JURY TRIAL
Plaintiff hereby demands a jury trial on all causes of
action for which a jury is available under the law.
MAYOR AND CITY COUNCIL OF BALTIMORE
Dated: July 20, 2018
By its Attorneys,
By: /s/ Andre M. Davis
ANDRE M. DAVIS
Baltimore City Solicitor
SUZANNE SANGREE
Senior Public Safety Counsel
ELIZABETH RYAN MARTINEZ
Assistant Solicitor
BALTIMORE CITY LAW DEPARTMENT
100 N. Holliday Street, Suite 109
Baltimore, MD 21202
Tel:
(443) 388-2190
Fax: (410) 576-7203
Email: Suzanne.Sangree2@baltimorecity.gov
andre.davis@haltimorecity.gov
liz.martinez@baltimorecity.gov
SHER EDLING LLP
VICTOR M. SHER (pro hac vice forthcoming)
MATTHEW K. EDLING
(pro hac vice forthcoming)
TIMOTHY R. SLOANE
(pro hac vice forthcoming)
MARTIN D. QUIÑONES
(pro hac vice forthcoming)
MEREDITH S. WILENSKY
(pro hac vice forthcoming)
185

KATIE H. JONES (pro hac vice forthcoming)
100 Montgomery St., Ste. 1410
San Francisco, CA 94104
Tel:
(628) 231-2500
Fax: (628) 231-2929
Email: vic@sheredling.com
matt@sheredling.com
tim@sheredling.com
marty@sheredling.com
meredith@sheredling.com
katie@sheredling.com
Attorneys for the Mayor and
City Council of Baltimore

186

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
(Northern Division)
MAYOR AND CITY COUNCIL OF BALTIMORE,
Plaintiff,
v.
BP P.L.C.; BP AMERICA, INC.; BP PRODUCTS NORTH
AMERICA INC.; CROWN CENTRAL PETROLEUM
CORPORATION; CROWN CENTRAL LLC; CROWN
CENTRAL NEW HOLDINGS LLC; CHEVRON CORP.;
CHEVRON U.S.A., INC.; EXXON MOBIL CORP.; EXXONMOBIL OIL CORPORATION; ROYAL DUTCH SHELL PLC;
SHELL OIL COMPANY; CITGO PETROLEUM CORP.;
CONOCOPHILLIPS; CONOCOPHILLIPS COMPANY; LOUISIANA LAND & EXPLORATION CO.; PHILLIPS 66; PHILLIPS
66 COMPANY; MARATHON OIL COMPANY; MARATHON OIL
CORPORATION; MARATHON PETROLEUM CORPORATION;
SPEEDWAY LLC; HESS CORP.; CNX RESOURCES CORPORATION; CONSOL ENERGY INC.; CONSOL MARINE TERMINALS LLC, Defendants.
NOTICE OF REMOVAL BY DEFENDANTS
CHEVRON CORPORATION AND
CHEVRON U.S.A., INC.

PLEASE TAKE NOTICE THAT Defendants Chevron Corp. and Chevron U.S.A., Inc. (collectively, “the
Chevron Parties”), remove this action—with reservation
of all defenses and rights—from the Circuit Court for Baltimore City, Case No. 24-C-18-004219, to the United
187

States District Court for the District of Maryland pursuant to 28 U.S.C. §§ 1331, 1334, 1441(a), 1442, 1452, and
1367(a), and 43 U.S.C. § 1349(b).
This Court has original federal question jurisdiction
under 28 U.S.C. § 1331, because the Complaint arises under federal laws and treaties, and presents substantial
federal questions as well as claims that are completely
preempted by federal law. This Court has supplemental
jurisdiction under 28 U.S.C. § 1367(a) over any claims
over which it does not have original federal question jurisdiction because they form part of the same case or controversy as those claims over which the Court has original
jurisdiction. As set forth below, removal is proper pursuant to 28 U.S.C. §§ 1441, 1442, 1446, and 1452, and 43
U.S.C. § 1349(b).
In addition, the Complaint is legally without merit,
and, at the appropriate time, Defendants will move to dismiss Plaintiff’s claims pursuant to Rule 12 of the Federal
Rules of Civil Procedure.
Through its Complaint, the Mayor and City Council of
Baltimore calls into question longstanding decisions by
the Federal Government regarding, among other things,
national security, national energy policy, environmental
protection, development of outer continental shelf lands,
the maintenance of a national petroleum reserve, mineral
extraction on federal lands (which has produced billions of
dollars for the Federal Government), and the negotiation
of international agreements bearing on the development
and use of fossil fuels. Many of the Defendants have contracts with the Federal Government to develop and extract minerals from federal lands and to sell fuel and associated products to the Federal Government for the Nation’s defense. The gravamen of the Complaint seeks either to undo all of those Federal Government policies or
188

to extract “compensation” and force Defendants to relinquish the profits they obtained by having contracted with
the Federal Government or relied upon national policies
to develop fossil fuel resources.
Through its Complaint, the Mayor and City Council of
Baltimore calls into question longstanding decisions by
the Federal Government regarding, among other things,
national security, national energy policy, environmental
protection, development of outer continental shelf lands,
the maintenance of a national petroleum reserve, mineral
extraction on federal lands (which has produced billions of
dollars for the Federal Government), and the negotiation
of international agreements bearing on the development
and use of fossil fuels. Many of the Defendants have contracts with the Federal Government to develop and extract minerals from federal lands and to sell fuel and associated products to the Federal Government for the Nation’s defense. The gravamen of the Complaint seeks either to undo all of those Federal Government policies or
to extract “compensation” and force Defendants to relinquish the profits they obtained by having contracted with
the Federal Government or relied upon national policies
to develop fossil fuel resources.
In the Complaint’s view, a state court, on a petition by
a city, may regulate the nationwide—and indeed, worldwide—economic activity of key sectors of the American
economy, those that supply the fuels that power production and innovation, keep the lights on, and that form the
basic materials from which innumerable consumer, technological, and medical devices are themselves fashioned.
Though nominally asserted under state law, the Complaint puts at issue long-established federal statutory,
regulatory, and constitutional issues and frameworks, and
it seeks to hold a small number of oil and gas companies—

189

who themselves are responsible for a mere fraction of
global greenhouse gas emissions—liable for the alleged
effects of global warming, including sea level rise,
droughts, and extreme precipitation caused by greenhouse gas emissions from countless nonparties.
This case is about global emissions. Plaintiff alleges
that the worldwide use of fossil fuels “plays a direct and
substantial role in the unprecedented rise in emissions of
greenhouse gas pollution,” which “is the main driver of
the gravely dangerous changes occurring to the global climate.” Compl. ¶ 2. Importantly, however, Plaintiff’s
claims are not limited to harms caused by fossil fuels extracted, sold, marketed, or used in Maryland. Instead,
their claims depend on Defendants’ nationwide and global
activities, as well as the activities of billions of fossil fuel
consumers, including not only entities such as the U.S.
government and military, but also hospitals, schools, manufacturing facilities, and individual households.
This lawsuit implicates bedrock federal-state divisions
of responsibility, and appropriates to itself the direction
of such federal spheres as nationwide economic development, international relations, and America’s national security. Reflecting the substantial and uniquely federal interests posed by greenhouse gas claims like these, the Supreme Court, the Ninth Circuit, and several federal district courts have recognized that causes of action of the
types asserted here are governed by federal common law,
not state law.
The Complaint has no basis in law and is inconsistent
with serious attempts to address important issues of national and international policy. Accordingly, Plaintiff’s
Complaint should be heard in this federal forum to protect
the national interest by its prompt dismissal.

190

I. TIMELINESS OF REMOVAL
1. Plaintiff, the Mayor and City Council of Baltimore,
filed a Complaint against the Chevron Parties and other
named Defendants in the Circuit Court for Baltimore
County, Maryland, Case No. 24-C-18-004219, on July 20,
2018. A copy of all process, pleadings, or orders in the possession of the Chevron Parties is attached as Exhibit A to
the Declaration of Tonya Kelly Cronin, filed concurrently
herewith.
2. This notice of removal is timely under 28 U.S.C.
§ 1446(b) because it is filed fewer than 30 days after receipt by the Chevron Parties of a copy of the initial pleading setting forth the claims for relief upon which this action is based. 28 U.S.C. § 1446(b). The Chevron Parties
have not yet been served as of this date. See Kelly Decl.
¶ 2. The consent of the other defendants is not required
because removal does not proceed “solely under 28 U.S.C.
§ 1441.” 28 U.S.C. § 1446(b)(2)(A). The Chevron Parties
have removed this action to federal court on several bases,
including, for example, 28 U.S.C. § 1442(a)(1) and 28
U.S.C. § 1452. Further, consent is not required from any
defendant that has not been served. See 28 U.S.C.
§ 1446(b)(2)(A); HBCU Pro Football, LLC v. New Vision
Sports Properties, LLC, 2010 WL 2813459, at *2 (D. Md.
July 14, 2010) (“Defendants . . . who are unserved when
the removal petition is filed need not join it.” (quoting
Getty Oil Corp. v. Ins. Co. of N. America, 841 F.2d 1254,
1262 n.9. (4th Cir. 1988) (alterations in original))).1
In filing this Notice of Removal, the Chevron Parties do not waive,
and expressly preserve any right, defense, affirmative defense, or objection, including, without limitation, personal jurisdiction, insufficient process, and/or insufficient service of process. A number of Defendants contend that personal jurisdiction in Maryland is lacking
1

191

II. SUMMARY OF ALLEGATIONS AND GROUNDS
FOR REMOVAL
3. Plaintiff is the Mayor and City Council of Baltimore, Maryland. Plaintiff brings claims against Defendants for alleged injuries relating to climate change, including damages and injunctive relief from injuries suffered
from “global warming” and other “changes occurring to
the global climate,” including sea level rise, storms, heatwaves, drought, extreme precipitation, and other natural
phenomena. See, e.g., Compl. ¶¶ 2, 8. Plaintiff asserts the
following claims on behalf of itself: public nuisance; private
nuisance; strict liability for failure to warn; strict liability
for design defect; negligent design defect; negligent failure to warn; trespass; and violation of the Consumer Protection Act. In addition to compensatory and punitive
damages, Plaintiff seeks the “disgorgement of profits,” as
well as “[e]quitable relief, including abatement of the nuisances complained of” in the Complaint (Compl., Prayer
for Relief).
4. The Chevron Parties will deny that any Maryland
court has personal jurisdiction and will deny any liability
as to Plaintiff’s claims. The Chevron Parties expressly reserve all rights in this regard. For purposes of meeting the
jurisdictional requirements for removal only, however, the
Chevron Parties submit that removal is proper on at least
eight independent and alternative grounds.

over them, and these Defendants will move to dismiss for lack of personal jurisdiction at the appropriate time. See, e.g., Carter v. Bldg.
Material & Const. Teamsters’ Union Local 216, 928 F. Supp. 997,
1000–01 (N.D. Cal. 1996) (“A petition for removal affects only the forum in which the action will be heard; it does not affect personal jurisdiction.”) (citing Morris & Co. v. Skandinavia Ins. Co., 279 U.S.
405, 409 (1929)).

192

5. First, the action is removable under 28 U.S.C.
§ 1441(a) and 28 U.S.C. § 1331 because Plaintiff’s claims,
to the extent that such claims exist, implicate uniquely federal interests and are governed by federal common law,
and not state common law. See Nat’l Farmers Union Ins.
Cos. v. Crow Tribe of Indians, 471 U.S. 847, 850 (1985).
Federal common law applies in those few areas of the law
that so implicate “uniquely federal interests” that application of state law is affirmatively inappropriate. See, e.g.,
Boyle v. United Techs. Corp., 487 U.S. 500, 504, 507 (1988);
Am. Elec. Power Co., Inc. v. Connecticut, 564 U.S. 410, 424
(2011) (“AEP”) (“borrowing the law of a particular State
would be inappropriate”). Plaintiff’s claims, to the extent
they exist at all, arise under federal common law, not state
law, and are properly removed to this Court.
6.
Second, removal is authorized under 28 U.S.C.
§ 1441(a) and 28 U.S.C. § 1331 because the action necessarily raises disputed and substantial federal questions
that a federal forum may entertain without disturbing a
congressionally approved balance of responsibilities between the federal and state judiciaries. See Grable & Sons
Metal Prods., Inc. v. Darue Eng’g & Mfg., 545 U.S. 308
(2005). In fact, the causes of action as alleged in the Complaint attack federal policy decisions and threaten to upset
longstanding federal-state relations, second-guess policy
decisions made by Congress and the Executive Branch,
and skew divisions of responsibility set forth in federal
statutes and the United States Constitution. Additionally,
the action necessarily raises disputed and substantial federal questions that implicate the federal regulatory
scheme for protecting and preserving the “navigable waters of the United States.” See 33 U.S.C. § 403; 33 U.S.C.
§ 426i; see also Grable, 545 U.S. at 314.

193

7. Third, removal is authorized under 28 U.S.C.
§ 1441(a) and 28 U.S.C. § 1331 because Plaintiff’s claims
are completely preempted by the Clean Air Act and/or
other federal statutes and the United States Constitution,
which provide an exclusive federal remedy for plaintiffs
seeking stricter regulations regarding the nationwide and
worldwide greenhouse gas emissions put at issue in the
Complaint.
8. Fourth, this Court has original jurisdiction over
this lawsuit and removal is proper pursuant to the Outer
Continental Shelf Lands Act (“OCSLA”), because this action “aris[es] out of, or in connection with (A) any operation conducted on the outer Continental Shelf which involves exploration, development, or production of the minerals, or the subsoil or seabed of the outer Continental
Shelf, or which involves rights to such minerals.” 43
U.S.C. § 1349(b); see also Tenn. Gas Pipeline v. Houston
Cas. Ins. Co., 87 F.3d 150, 155 (5th Cir. 1996).
9. Fifth, Defendants are authorized to remove this
action under 28 U.S.C. § 1442(a)(1) because, assuming the
truth of Plaintiff’s allegations, they were “acting under” a
federal officer; they can assert colorable federal defenses;
and a causal nexus exists between their actions and federal authority. See Ripley v. Foster Wheeler LLC, 841
F.3d 207, 209–10 (4th Cir. 2016)
10. Sixth, removal is authorized under 28 U.S.C.
§ 1441(a) and 28 U.S.C. § 1331 because Plaintiff’s claims
are based on alleged injuries to and/or conduct on federal
enclaves. As such, Plaintiff’s claims arise under federalquestion jurisdiction and are removable to this Court. See
U.S. Const., art. I, § 8, cl. 17; Jones v. John Crane-Houdaille, Inc., 2012 WL 1197391, at *1 (D. Md. Apr. 6, 2012)
(“A suit based on events occurring in a federal enclave . . .

194

must necessarily arise under federal law and implicates
federal question jurisdiction under § 1331.”).
11. Seventh, removal is authorized under 28 U.S.C.
§ 1452(a) and 28 U.S.C. § 1334(b) because Plaintiff’s statelaw claims are related to cases under Title 11 of the
United States Code. Plaintiff alleges that Defendants (improperly defined by Plaintiff to include the conduct of Defendants’ respective subsidiaries and affiliates, see, e.g.,
Compl ¶¶ 22(b)–(f), 150, 183(a), 252) engaged in conduct
constituting a public nuisance over many decades. Because Plaintiff’s claims are predicated on historical activities of Defendants, including predecessor companies and
companies that they may have acquired or with which
they may have merged, and because there are hundreds,
if not thousands, of non-joined necessary and indispensable parties, there are many other Title 11 cases that may
be related. See In re Celotex Corp., 124 F.3d 619 (4th Cir.
1997).
12. Eighth, and finally, Plaintiff’s claims fall within
the Court’s original admiralty jurisdiction under 28
U.S.C. § 1333, and are removable under 28 U.S.C.
§ 1441(a), for that reason alone. See Jerome B. Grubart,
Inc. v. Great Lakes Dredge & Dock Co., 513 U.S. 527
(1995).
13. For the convenience of the Court and all parties,
Defendants will address each of these grounds in additional detail. Should Plaintiff challenge this Court’s jurisdiction, Defendants will further elaborate on these
grounds and will not be limited to the specific articulations
in this Notice.

195

III. THIS COURT HAS FEDERAL-QUESTION
JURISDICTION
BECAUSE
PLAINTIFF’S
CLAIMS ARISE, IF AT ALL, UNDER FEDERAL COMMON LAW
14. This action is removable because Plaintiff’s claims,
to the extent that such claims exist, necessarily are governed by federal common law, and not state common law.
28 U.S.C. § 1331 grants federal courts original jurisdiction
over “‘claims founded upon federal common law as well as
those of a statutory origin.’” Nat’l Farmers Union, 471
U.S. at 850 (quoting Illinois v. City of Milwaukee, 406
U.S. 91, 100 (1972) (“Milwaukee I”)). As the Fourth Circuit has explained, it is “established that there is a body of
federal common law by which a public nuisance in one
state which infringes upon the environmental and ecological rights of another state may be abated.” Comm. for
Consideration of Jones Falls Sewage Sys. v. Train, 539
F.2d 1006, 1008 (4th Cir. 1976). As Plaintiff’s claims arise
under federal common law, this Court has federal-question jurisdiction and removal is proper.
15. Though “[t]here is no federal general common
law,” Erie R. Co. v. Tompkins, 304 U.S. 64, 78 (1938) (emphasis added), federal common law continues to exist, and
to govern, in a few subject areas in which there are
“uniquely federal interests,” Boyle, 487 U.S. at 504. See
generally Henry J. Friendly, In Praise of Erie—and the
New Federal Common Law, 39 N.Y.U. L. Rev. 383 (1964).
Such uniquely federal interests will require the application of federal common law where, for example, the issue
is one that by its nature, is “‘within national legislative
power’” and there is “a demonstrated need for a federal
rule of decision” with respect to that issue. AEP, 564 U.S.
at 421 (citation omitted). Federal common law therefore
applies, in the post-Erie era, in those discrete areas in

196

which application of state law would be inappropriate and
would contravene federal interests. Boyle, 487 U.S. at
504–07. The decision that federal common law applies to a
particular issue thus inherently reflects a determination
that state law does not apply. See City of Milwaukee v.
Illinois & Michigan, 451 U.S. 304, 312 n.7 (1981) (“Milwaukee II”) (“[I]f federal common law exists, it is because
state law cannot be used.”); Resolution Tr. Corp. v. Everhart, 37 F.3d 151, 154 (4th Cir. 1994) (“Federal common
law is appropriately made . . . where there is a significant
conflict between some federal policy or interest and the
use of state law.”); Nat’l Audubon Soc’y v. Dep’t of Water,
869 F.2d 1196, 1204 (9th Cir. 1988).
16. Courts have applied federal common law to global
warming-based tort claims because it applies to “‘subjects
within the national legislative power where Congress has
so directed or where the basic scheme of the Constitution
so demands.’” Native Vill. of Kivalina v. ExxonMobil
Corp., 696 F.3d 849, 855 (9th Cir. 2012) (quoting AEP, 564
U.S. at 421) (further citation and internal quotation marks
omitted). Although Congress sometimes affirmatively directs the application of federal common law, “[m]ore often, federal common law develops when courts must consider federal questions that are not answered by statutes.” Id. (emphasis added). Given that claims asserting
injuries from global warming have an intrinsic interstate
and transnational character, such claims inherently raise
federal questions and fall within the settled rule that federal common law governs “the general subject of environmental law and specifically includes ambient or interstate
air and water pollution.” Id. at 855; see also id. (“federal
common law can apply to transboundary pollution suits”
such as the plaintiff’s); AEP, 564 U.S. at 421 (“Environmental protection is undoubtedly an area within national
legislative power, [and] one in which federal courts may
197

fill in statutory interstices.”); Massachusetts v. EPA, 549
U.S. 497, 498 (2007) (“The sovereign prerogatives to force
reductions in greenhouse gas emissions, to negotiate
emissions treaties with developing countries, and (in some
circumstances) to exercise the police power to reduce motor-vehicle emissions are now lodged in the Federal Government.”).
17. Moreover, two courts addressing nearly identical
claims have recently held that these claims arise under
federal common law. California v. BP P.L.C., 2018 WL
1064293, at *2 (N.D. Cal. Feb. 27, 2018) (“California”)
(holding that “Plaintiffs’ nuisance claims—which address
the national or international geophysical phenomenon of
global warming—are necessarily governed by federal
common law”); City of New York v. BP P.L.C., 2018 WL
3475470, at *4 (“City of New York”) (S.D.N.Y. July 19,
2018) (“[T]he City’s claims are ultimately based on the
‘transboundary’ emission of greenhouse gases, indicating
that these claims arise under federal common law . . . .”).
18. The conclusion that federal common law governs
an issue rests, not on a discretionary choice between federal law and state law, but on a determination that the issue is so distinctively federal in nature that application of
state law to the issue would risk impairing uniquely federal interests. Boyle, 487 U.S. at 506–07; see also, e.g., Caltex Plastics, Inc. v. Lockheed Martin Corp., 824 F.3d
1156, 1159–60 (9th Cir. 2016) (liability of defense contractor to third party under government contract for weapons
systems implicated “uniquely federal interests” in national security that would be impaired if disparate statelaw rules were applied); Everhart, 37 F.3d at 154 (“Federal common law is appropriately made . . . where there is
a significant conflict between some federal policy or inter-

198

est and the use of state law.”). In California, the court addressed nearly identical claims and held that “[i]f ever a
problem cried out for a uniform and comprehensive solution, it is the geophysical problem described by the complaints, a problem centuries in the making (and studying)
with causes ranging from volcanoes, to wildfires, to deforestation to stimulation of other greenhouse gases—and,
most pertinent here, to the combustion of fossil fuels.”
2018 WL 1064293, at *3; see also City of New York, 2018
WL 3475470, at *4 (S.D.N.Y. July 19, 2018) (“[C]laims . . .
based on the ‘transboundary’ emission of greenhouse
gases . . . require a uniform standard of decision.”).
19. Although Plaintiff purports to style its nuisance
and other common law claims as arising under state law,
the question of whether a particular common law claim is
controlled by federal common law rather than state law is
itself a question of law that is governed by federal law as
set forth in Erie and its progeny. While Plaintiff contends
that its claims arise under Maryland law, the question of
which state, if any, may apply its law to address global climate-change issues is a question that is itself a matter of
federal law, given the paramount federal interest in avoiding conflicts of law in connection with ambient air and water. Moreover, the law is well settled that, in determining
whether a case arises under federal law and is properly
removable, the Plaintiff’s proffered position on a question
of law is not entitled to any deference but is instead subject to independent and de novo review by the court. See,
e.g., Mayes v. Rapoport, 198 F.3d 457, 460 (4th Cir. 1999)
(“We review de novo questions of subject matter jurisdiction, including those relating to the propriety of removal.”).

199

20. Because global warming occurs only as the result
of the undifferentiated accumulated emissions of all emitters in the world over an extended period of time, any
judgment as to the reasonableness of particular emissions, or as to their causal contribution to the overall phenomenon of global warming, inherently requires an evaluation at an interstate and, indeed, transnational level.
Thus, even assuming that state tort law may properly address local source emissions within that specific state, the
imposition of tort liability for Defendants’ alleged unreasonable contributions to global warming would require an
over-arching consideration of all of the emissions traceable to the extraction and sale of Defendants’ products in
each of the states, and, in fact, in the more than 180 nations of the world. Given the Federal Government’s exclusive authority over foreign affairs and foreign commerce,
and its preeminent authority over interstate commerce,
tort claims concerning global warming directly implicate
uniquely federal interests, and a “patchwork of fifty different answers to the same fundamental global issue
would be unworkable.” California, 2018 WL 1064293, at
*3; see also City of New York, 2018 WL 3475470, at *7
(“[T]he immense and complicated problem of global
warming requires a comprehensive solution that weighs
the global benefits of fossil fuel use with the gravity of the
impending harms.”). Indeed, the Supreme Court expressly held in AEP that in cases like this, “borrowing the
law of a particular State would be inappropriate.” 564 U.S.
at 422. Such global warming-related tort claims, to the extent they exist, are therefore governed by federal common law. Kivalina, 696 F.3d at 855–56; California, 2018
WL 1064293, at *3; City of New York, 2018 WL 3475470,
at *3.

200

21. Under the principles set forth above, Plaintiff’s
claims are governed by federal common law. The gravamen of Plaintiff’s claims is that “production and use of Defendants’ fossil fuel products plays a direct and substantial role in the unprecedented rise in emissions of greenhouse gas pollution” which “is the main driver of the
gravely dangerous changes occurring to the global climate.” Compl. ¶ 2; see, e.g., id. ¶¶ 44–45, 49, 92, 96–100,
221, 239, 253, 276, 284. Plaintiff’s Complaint alleges that
Defendants are responsible for “more than one in every
six tons of carbon dioxide and methane emitted worldwide,” id. ¶ 18, and that “greenhouse gas pollution is the
dominant factor in each of the independent causes of
[global] sea level rise,” id. ¶ 49; see also id. ¶ 96–100, and
other natural phenomena, such as drought, extreme precipitation, and heatwaves, id. ¶¶ 74, 170, 193–95, 213–17,
221(b), 224, 233, 253, 264(a), 272, 284. As is evident from
the term “global warming” itself, both the causes and the
injuries Plaintiff identifies are not constrained to particular sources, cities, counties, or even states, but rather implicate inherently national and international interests, including treaty obligations and federal and international
regulatory schemes. See id. ¶ 3 n.4 (describing other
sources of emissions); ¶ 7 (effectively acknowledging that
85% of CO2 emissions allegedly caused by persons other
than Defendants); ¶ 96 (CO2 emissions cause “global sea
level rise”) (emphasis added); see, e.g., Massachusetts, 549
U.S. at 509, 523–24 (describing Senate rejection of the
Kyoto Protocol because emissions-reduction targets did
not apply to “heavily polluting nations such as China and
India,” and EPA’s determination that predicted magnitude of future Chinese and Indian emissions “offset any
marginal domestic decrease”); AEP, 564 U.S. at 427–29
(describing regulatory scheme of the Clean Air Act and
role of the EPA); see also The White House, Statement by
201

President Trump on the Paris Climate Accord (June 1,
2017), available at https://www.whitehouse.gov/thepress-office/2017/06/01/statement-president-trump-paris
-climate-accord (announcing United States’ withdrawal
from Paris Climate Accord based on financial burdens, energy restrictions, and failure to impose proportionate restrictions on Chinese emissions).
22. Indeed, the Complaint itself demonstrates that the
unbounded nature of greenhouse gas emissions, diversity
of sources, and magnitude of the attendant consequences
have catalyzed myriad federal and international efforts to
understand and address such emissions. See, e.g., Compl.
¶ 143. The paramount federal interest in addressing the
worldwide effect of greenhouse gas emissions is manifested in the regulatory scheme set forth in the Clean Air
Act as construed in Massachusetts v. EPA. See AEP, 564
U.S. at 427–29. Federal legislation regarding greenhouse
gas emissions reflects the understanding that “[t]he appropriate amount of regulation in any particular greenhouse gas-producing sector cannot be prescribed in a vacuum: as with other questions of national or international
policy, informed assessment of competing interests is required. Along with the environmental benefit potentially
achievable, our Nation’s energy needs and the possibility
of economic disruption must weigh in the balance.” Id. at
427. As a “question[] of national or international policy,”
the question of how to address greenhouse gas emissions
that underlies the requested relief at the heart of Plaintiff’s claims implicates inherently federal concerns and is
therefore governed by federal common law. See id.; see
also Milwaukee II, 451 U.S. at 312 n.7 (“[I]f federal common law exists, it is because state law cannot be used.”).
Because common law claims that rest on injuries allegedly
caused by global warming implicate uniquely federal interests, such claims (to the extent they exist at all) must
202

necessarily be governed by federal common law. This
Court therefore has original jurisdiction over this action.
IV. THE ACTION IS REMOVABLE BECAUSE IT
RAISES DISPUTED AND SUBSTANTIAL FEDERAL ISSUES
23. “Except as otherwise expressly provided by Act of
Congress, any civil action brought in a State court of
which the district courts of the United States have original jurisdiction, may be removed . . . to the district court
of the United States for the district and division embracing the place where such action is pending.” 28 U.S.C.
§ 1441(a). Federal district courts, in turn, “have original
jurisdiction of all civil actions arising under the Constitution, laws, or treaties of the United States.” 28 U.S.C.
§ 1331. The Supreme Court has held that suits apparently
alleging only state-law causes of action nevertheless
“arise under” federal law if the “state-law claim[s] necessarily raise a stated federal issue, actually disputed and
substantial, which a federal forum may entertain without
disturbing any congressionally approved balance of federal and state judicial responsibilities.” Grable, 545 U.S.
at 314. Applying this test “calls for a common-sense accommodation of judgment to the kaleidoscopic situations
that present a federal issue.” Id. at 313.
24. Plaintiff’s Complaint attempts to undermine and
supplant federal regulation of greenhouse gas emissions
and hold a national industry responsible for the alleged
consequences of rising ocean levels and hydrologic cycle
disruptions such as drought, extreme precipitation, heatwaves, and wildfires that are allegedly caused by global
climate change. There is no question that Plaintiff’s claims
raise “federal issues, actually disputed and substantial,”

203

for which federal jurisdiction would not upset “any congressionally approved balance of federal and state judicial
responsibilities.” Id. at 314.
25. The issues of greenhouse gas emissions, global
warming, hydrologic cycle disruption, and sea level rise
are not unique to Baltimore City, the State of Maryland,
or even the United States. Yet the Complaint attempts to
supplant decades of national energy, economic development, and federal environmental protection and regulatory policies by prompting a Maryland state court to take
control over an entire industry and its interstate commercial activities, and impose massive damages contrary to
the federal regulatory scheme.
26. Collectively as well as individually, Plaintiff’s
causes of action depend on the resolution of disputed and
substantial federal questions in light of complex national
considerations. For example, the Complaint’s first and
second causes of action both seek relief for an alleged nuisance. Indeed, “the scope and limitations of a complex federal regulatory framework are at stake in this case. And
disposition of whether that framework may give rise to
state law claims as an initial matter will ultimately have
implications for the federal docket one way or the other.”
Bd. of Comm’rs of Se. La. Flood Protection Auth. v. Tenn.
Gas Pipeline Co., 850 F.3d 714, 723 (5th Cir. 2017) (cert.
petition pending) (“Flood Protection Authority”).
27. Under federal law, federal agencies must “assess
both the costs and benefits of [an] intended regulation
and, recognizing that some costs and benefits are difficult
to quantify, propose or adopt a regulation only upon a reasoned determination that the benefits of the intended regulation justify its costs.” Executive Order 12866, 58 Fed.
Reg. 190. Under Maryland law, were it to apply, nuisance
claims require a plaintiff to prove that the defendant’s
204

conduct is “unreasonable,” which depends upon whether
“in view of the circumstances of the case,” a nuisance
amounts to a “derogation of the rights” of the plaintiff.
Wietzke v. Chesapeake Conference Ass’n, 421 Md. 355, 376
(2011). Plaintiff alleges that Defendants, through their national and, indeed, global activities, “created, contributed
to, and/or assisted, and/or were a substantial contributing
factor in the creation of the public nuisance by, inter alia,
. . . caus[ing] or exacerbate[ing] global warming and related consequences, including, but not limited to, sea level
rise, drought, extreme precipitation events, and extreme
heat events.” Compl. ¶ 221. Plaintiff alleges that “[t]he seriousness of rising sea levels, more frequent and extreme
drought, more frequent and extreme precipitation events,
increased frequency and severity of heat waves and extreme temperatures, and the associated consequences of
those physical and environmental changes, is extremely
grave, and outweighs the social utility of Defendants’ conduct.” Id. ¶¶ 224, 233.
28. But Congress has directed a number of federal
agencies to regulate Defendants’ conduct, and thus to engage in the same analysis of benefits and impacts that
Plaintiff would have the state court undertake. Indeed,
federal agencies have performed these cost-benefit analyses. See, e.g., Final Carbon Pollution Standards for New,
Modified and Reconstructed Power Plants, 80 Fed. Reg.
at 64683–84 (EPA considering the impacts of “wildfire”
and “extreme precipitation events,” such as “droughts,
floods, hurricanes, and major storms”). The benefits and
harms of Defendants’ conduct are broadly distributed
throughout the Nation, to all residents as well as all state
and government entities. Given this diffuse and broad impact, Congress has acted through a variety of federal statutes—primarily, but not exclusively, the Clean Air Act—

205

to strike the balance between energy extraction and production and environmental protections. See Clean Air Act,
42 U.S.C. § 7401(c) (Congressional statement that the
goal of the Clean Air Act is “to encourage or otherwise
promote reasonable Federal, State, and local governmental actions . . . for pollution prevention”); see also, e.g., Energy Reorganization Act of 1974, 42 U.S.C. § 5801 (Congressional purpose to “develop, and increase the efficiency and reliability of use of, all energy sources” while
“restoring, protecting, and enhancing environmental
quality”); Mining and Minerals Policy Act, 30 U.S.C.
§ 1201 (Congressional purpose to encourage “economic
development of domestic mineral resources” balanced
with “environmental needs”); Surface Mining Control and
Reclamation Act, 30 U.S.C. § 1201 (Congressional findings that coal mining operations are “essential to the national interest” but must be balanced by “cooperative effort[s] . . . to prevent or mitigate adverse environmental
effects”).
29. The question of whether the federal agencies
charged by Congress to balance energy and environmental needs for the entire Nation have struck that balance in
an appropriate way is “inherently federal in character”
and gives rise to federal question jurisdiction. Buckman
Co. v. Plaintiffs’ Legal Comm., 531 U.S. 341, 347 (2001);
see also Pet Quarters, Inc. v. Depository Trust & Clearing Corp., 559 F.3d 772, 779 (8th Cir. 2009) (affirming federal question jurisdiction where claims implicated federal
agency’s acts implementing federal law); Bennett v.
Southwest Airlines Co., 484 F.3d 907, 909 (7th Cir. 2007)
(federal removal under Grable appropriate where claims
were “a collateral attack on the validity of” agency action
under a highly reticulated regulatory scheme). Adjudicating these claims in federal court is appropriate because
the relief sought by Plaintiff would necessarily alter the
206

regulatory regime designed by Congress, impacting residents of the Nation far outside the state court’s jurisdiction. See, e.g., Grable, 545 U.S. at 312 (claims that turn on
substantial federal questions “justify resort to the experience, solicitude, and hope of uniformity that a federal forum offers on federal issues”); West Virginia ex rel.
McGraw v. Eli Lilly & Co., 476 F. Supp. 2d 230, 234
(E.D.N.Y. 2007) (removal under Grable is appropriate
where state common law claims implicate “an intricate
federal regulatory scheme . . . requiring some degree of
national uniformity in interpretation”).
30. The Complaint also calls into question Federal
Government decisions to contract with Defendants for the
extraction, development, and sale of fossil fuel resources
on federal lands. Such national policy decisions have expanded fossil fuel production and use, and produced billions of dollars in revenue to the federal treasury. Available, affordable energy is fundamental to economic growth
and prosperity generally, as well as to national security
and other issues that have long been the domain of the
Federal Government. Yet, Plaintiff’s claims require a determination that the complained-of conduct—the lawful
activity of placing fossil fuels into the stream of interstate
and foreign commerce—is unreasonable, and that determination raises a policy question that, under the Constitution and the applicable statutes, treaties, and regulations, is a federal question. See Nance v. Baltimore Am.
Mortg. Corp., 2010 WL 4291579, at *1 (D. Md. Oct. 29,
2010) (holding that removal jurisdiction existed over case
that implicated the Home Ownership and Equity Protection Act, not because it created a federal cause of action
but because “the interpretation of the relevant [federal]
provision lies at the heart of Plaintiffs’ claim. This is
wholly sufficient to establish federal question jurisdiction

207

and make removal of this action proper.”). The cost-benefit analysis required by the claims asserted in the Complaint would thus necessarily entail a usurpation by the
state court of the federal regulatory structure of an essential, national industry. “The validity of [Plaintiff’s] claims
would require that conduct subject to an extensive federal
permitting scheme is in fact subject to implicit restraints
that are created by state law.” Flood Control Authority,
850 F.3d at 724; see also Bader Farms, Inc. v. Monsanto
Co., 2017 WL 633815, at *3 (E.D. Mo. Feb. 16, 2017)
(“Count VII is in a way a collateral attack on the validity
of APHIS’s decision to deregulate the new seeds”); Bennett, 484 F.3d at 909 (holding that federal removal is
proper under Grable “when the state proceeding
amounted to a collateral attack on a federal agency’s action”). Indeed, the “inevitable result of such suits,” if successful, is that Defendants “would have to change” their
federally regulated “methods of doing business and controlling pollution to avoid the threat of ongoing liability.”
Ouellette, 479 U.S. at 495.
31. Plaintiff’s claims also necessarily implicate substantial federal questions by seeking to hold Defendants
liable for compensatory and punitive damages, as well as
injunctive relief, based on allegations that Defendants
have waged a “campaign to obscure the science of climate
change” and “disseminat[ed] and fund[ed] the dissemination of information intended to mislead . . . regulators,”
which Plaintiff alleges defrauded and interfered with federal decision-making, thereby “delay[ing] efforts to curb
those emissions.” Compl. ¶ 179; see also id. ¶¶ 177–90,
221–28.
32. To show causation, Plaintiff must establish that
federal regulators were misled and would have adopted
different energy and climate policies absent the alleged

208

misrepresentations. Such a liability determination would
require a court to construe federal regulatory decisionmaking standards, and determine how federal regulators
would have applied those standards under counterfactual
circumstances. See id. ¶ 161 (arguing that Global Climate
Coalition “on behalf of Defendants” sought to “prevent[]
U.S. adoption of the Kyoto Protocol”); see also Flood Protection Authority, 850 F.3d at 723 (finding necessary and
disputed federal issue in plaintiffs’ state-law tort claims
because they could not “be resolved without a determination whether multiple federal statutes create a duty of
care that does not otherwise exist under state law”).
33. Plaintiff’s Complaint, which seeks to hold Defendants liable for “[p]unitive damages” and requests “[d]isgorgement of profits” through their businesses of manufacturing, producing, and/or promoting the sale of fossil
fuel products, (e.g., Compl., Prayer for Relief)—despite
Defendants’ uncontested compliance with state and federal law—necessarily implicates numerous other disputed
and substantial federal issues. Beyond the strictly jurisdictional character of the points addressed above and
herein, it is notable that this litigation places at issue multiple significant federal issues, including but not limited
to: (1) whether Defendants can be held liable consistent
with the First Amendment for, purportedly, “championing . . . anti-science campaigns” that Plaintiff alleges deceived federal agencies (id. ¶ 10); (2) whether a state court
may hold Defendants liable for conduct that was global in
scale (production of fossil fuels), that allegedly produced
effects that are global in scale (increased CO2 levels and
rising sea levels), and on that basis, order Defendants to
modify their conduct on a global scale (abating rising sea
levels), consistent with the constitutional principles limiting the jurisdictional and geographic reach of state law

209

and guaranteeing due process; (3) whether fossil fuel producers may be held liable, consistent with the Due Process Clause, for climate change when it is the combustion
of fossil fuels—including by Plaintiff and the People of
Maryland themselves—that leads to the release of greenhouse gases into the atmosphere; (4) whether a state may
impose liability under state common law when the Supreme Court has held that the very same federal common
law claims are displaced by federal statute, and notwithstanding the commonsense principle that “[i]f a federal
common law cause of action has been extinguished by
Congressional displacement, it would be incongruous to
allow it to be revived in any form,” Kivalina, 696 F.3d at
857 (emphasis added); (5) whether a state court may regulate and burden on a global scale the sale and use of what
federal policy has deemed an essential resource, consistent with the United States Constitution’s Commerce
Clause and foreign affairs doctrine, as well as other constitutional principles; (6) whether a state court may review and assess the validity of acts of foreign states in enacting and enforcing their own regulatory frameworks;
and (7) whether a state court may determine the ability to
sue based on alleged damages to land, such as coastal
property and interstate highways (see Compl. ¶¶ 197,
199), which depends on the interpretation of federal laws
relating to the ownership and control of property.
34. Plaintiff’s Complaint also raises substantial federal
issues because the asserted claims intrude upon both foreign policy and carefully balanced regulatory considerations at the national level, including the foreign affairs
doctrine. Plaintiff seeks to govern extraterritorial conduct
and encroach on the foreign policy prerogative of the Federal Government’s Executive Branch as to climate change
treaties. “There is, of course, no question that at some
point an exercise of state power that touches on foreign
210

relations must yield to the National Government’s policy,
given the ‘concern for uniformity in this country’s dealings with foreign nations’ that animated the Constitution’s
allocation of the foreign relations power to the National
Government in the first place.” Am. Ins. Assoc. v. Garamendi, 539 U.S. 396, 413 (2003). Yet, this is the precise
nature of Plaintiff’s action brought in state court. See
United States v. Belmont, 301 U.S. 324, 331 (1937) (“The
external powers of the United States are to be exercised
without regard to state laws or policies . . . [I]n respect of
our foreign relations generally, state lines disappear.”);
Hines v. Davidowitz, 312 U.S. 52, 63 (1941) (“Our system
of government . . . requires that federal power in the field
affecting foreign relations be left entirely free from local
interference.”). Indeed, Plaintiff’s Complaint takes issue
with multiple federal decisions, threatening to upend the
Federal Government’s longstanding energy and environmental policies and “compromis[ing] the very capacity of
the President to speak for the Nation with one voice in
dealing with other governments” on the issue of climate
change. Garamendi, 539 U.S. at 424.
35. Through its action, Plaintiff seeks to regulate
greenhouse gas emissions worldwide, far beyond the borders of the United States. This is premised, in part, according to Plaintiff, on Defendants’ purported campaign
to undermine national and international efforts, like the
Kyoto Protocol, to rein in greenhouse gas emissions.
Compl. ¶¶ 158, 161. Plaintiff alleges that its injuries are
caused by global weather phenomena, such as increases
in the Earth’s ambient temperatures, ocean temperature,
sea level, and extreme storm events, and that Defendants
are a substantial contributing factor to such climate
change as a result of their collective operations on a worldwide basis, which Plaintiff claims accounts for more than
one-sixth of total global greenhouse gas emissions. Id.
211

¶¶ 18, 193–94. But “[n]o State can rewrite our foreign policy to conform to its own domestic policies. Power over external affairs is not shared by the States; it is vested in the
national government exclusively. It need not be so exercised as to conform to State laws or State policies,
whether they be expressed in constitutions, statutes, or
judicial decrees.” United States v. Pink, 315 U.S. 203,
233–34 (1942). States have no authority to impose remedial schemes or regulations to address what are matters
of foreign affairs. Al Shimari v. CACI Int’l, Inc., 679 F.3d
205, 231 (4th Cir. 2012) (“[T]he federal government has
exclusive power over foreign affairs, and . . . states have
very little authority in this area.”). Yet Plaintiff seeks to
replace international negotiations and Congressional and
Executive decisions with its own preferred foreign policy,
using the ill-suited tools of Maryland common law and private litigation in a state court. Even when states (as opposed to the City of Baltimore here) have made similar
efforts, enacting laws seeking to supplant or supplement
foreign policy, the Supreme Court has held that state law
can play no such role. See Crosby v. Nat’l Foreign Trade
Council, 530 U.S. 363, 375–81 (2000); Garamendi, 539
U.S. at 420–24.
36. Plaintiff’s claims depend on the resolution of substantial, disputed federal questions relating to rising levels of navigable waters of the United States that Plaintiff
alleges were caused by Defendants’ extraction, processing, promotion, and consumption of global energy resources. Among other assertions, Plaintiff claims the sea
level rise will affect the port and waterfront of Baltimore—both navigable waters of the United States. See
Compl. ¶ 196–97. These claims raise federal questions as
Congress has given the Army Corps of Engineers (“the
Corps”), which has a District office in Baltimore, jurisdiction to regulate navigable waters of the United States. See
212

33 U.S.C. § 403; see also, e.g., 33 U.S.C. § 426i. Adjudication of Plaintiff’s claims will require the Court to evaluate
Plaintiff’s claims of injury related to a rise in levels of the
“navigable waters” and whether the remedy Plaintiff
seeks is consistent with federal action. This, in turn, will
require interpretation of an extensive web of federal statutes and regulations. See, e.g., 33 C.F.R. § 320.4(a)(1)–(2);
33 U.S.C. § 408(a). Accordingly, Plaintiff’s claims provide
a basis for federal jurisdiction because they present federal issues that are (1) “necessarily raise[d],” (2) “actually
disputed,” (3) “substantial,” and (4) capable of resolution
in federal court “without disturbing any congressionally
approved balance of federal and state judicial responsibilities.” Grable, 545 U.S. at 314.
37. Plaintiff’s claims also require the Court to evaluate
the exercise of federal authority over many prior years.
For example, the Corps has considered potential impacts
of sea-level change in its planning activities since 1986.
See, e.g., U.S. Army Corps of Engineers, Eng’g Circular
1105-2-186: Planning Guidance on the Incorporation of
Sea Level Rise Possibilities in Feasibility Studies (Apr.
21, 1989); U.S. Army Corps of Engineers, Technical Letter 1100-2-1, Procedures to Evaluate Sea Level Change:
Impacts, Responses and Adaptation (June 30, 2014). And
the Corps is currently evaluating a “long-term restoration
effort” of the Chesapeake Bay, including efforts to “pursue, design and construct restoration and protection projects to enhance the resiliency of the Chesapeake Bay and
its aquatic ecosystems against the impacts of coastal
storm erosion, coastal flooding, more intense and more
frequent storms, and sea level rise.” U.S. Army Corps of
Engineers, Chesapeake Bay Comprehensive Water Resources and Restoration Plan: State of Maryland (June
2018). But Plaintiff’s nuisance claims are grounded on al-

213

leged past and future “[s]ea level rise,” which Plaintiff alleges “endangers City property and infrastructure, causing coastal flooding of low-lying areas, erosion, and storm
surges.” Compl. ¶ 199. Because Plaintiff alleges that the
comprehensive regulatory scheme Congress established
to address these very issues failed to prevent its injuries,
its Complaint challenges—and necessarily requires evaluation of—a federal regulatory scheme and the adequacy
of past federal decision making under that scheme. This
gives rise to federal question jurisdiction. See Bd. Of
Comm’rs of Se. La. Flood Prot. Auth.-E. v. Tenn. Gas
Pipeline Co., L.L.C., 850 F.3d 714, 724 (5th Cir. 2017) (in
the context of comprehensive regulatory scheme, nuisance claims amount to “a collateral attack . . . premised
on the notion that the scheme provides inadequate protection” (brackets omitted)); Pet Quarters, Inc. v. Depository
Trust and Clearing Corp., 559 F.3d 772, 779 (8th Cir.
2009) (complaint “presents a substantial federal question
because it directly implicates actions taken by” a federal
agency); McKay v. City and Cty. of San Francisco, 2016
WL 7425927, at *4 (N.D. Cal. Dec. 23, 2016) (denying remand and ruling that federal jurisdiction lies under Grable because state-law claims were “tantamount to asking
the Court to second guess the validity of the FAA’s decision”); Bader Farms, Inc., 2017 WL 633815, at *3.
V. THE ACTION IS REMOVABLE BECAUSE IT IS
COMPLETELY PREEMPTED BY FEDERAL
LAW
38. This Court also has original jurisdiction over this
lawsuit because Plaintiff requests relief that would alter
or amend the rules regarding nationwide—and even
worldwide—regulation of greenhouse gas emissions. This
action is completely preempted by federal law.

214

39. The Supreme Court has held that a federal court
will have jurisdiction over an action alleging only state-law
claims where “the extraordinary pre-emptive power [of
federal law] converts an ordinary state common law complaint into one stating a federal claim for purposes of the
well-pleaded complaint rule.” Metro. Life Ins. Co. v. Taylor, 481 U.S. 58, 65 (1987).
40. For the reasons set forth above, litigating in state
court the inherently transnational activity challenged by
these complaints would inevitably intrude on the foreign
affairs power of the federal government and is completely
preempted. See Garamendi, 539 U.S. at 418 (“[S]tate action with more than incidental effect on foreign affairs is
preempted, even absent any affirmative federal activity in
the subject area of the state [action], and hence without
any showing of conflict.”); see also California v. Gen. Motors Corp., 2007 WL 2726871, at *14 (N.D. Cal. Sept. 17,
2007) (dismissing claims against automakers because the
federal government “ha[s] made foreign policy determinations regarding the United States’ role in the international concern about global warming,” and a “global
warming nuisance tort would have an inextricable effect
on . . . foreign policy”).
41. In addition, Plaintiff’s claims are preempted by the
Clean Air Act. A state cause of action is preempted under
this “complete preemption” doctrine where a federal statutory scheme “provide[s] the exclusive cause of action for
the claim asserted and also set[s] forth procedures and
remedies governing that cause of action.” Beneficial Nat’l
Bank v. Anderson, 539 U.S. 1, 8 (2003). It also requires a
determination that the state-law cause of action falls
within the scope of the federal cause of action, including
where it “duplicates, supplements, or supplants” that
cause of action. Aetna Health Inc. v. Davila, 542 U.S. 200,

215

209 (2004). A federal court addressing nearly identical
claims recently found that the Clean Air Act displaced
these claims. City of New York, 2018 WL 3475470, at *6
(S.D.N.Y. July 19, 2018) (“[T]he Clean Air Act displaces
claims arising from damages caused by domestic greenhouse gas emissions because Congress has expressly delegated these issues to the EPA.”).
42. Both requirements for complete preemption are
present here. Among other things, Plaintiff’s Complaint
seeks an “abatement” of a nuisance it alleges Defendants
have caused—namely, a rise in sea levels, an increase in
the frequency and intensity of flooding, and an increase in
the intensity and frequency of storms and storm-related
damages. As such, it seeks regulation of greenhouse gas
emissions far beyond the borders of Maryland and even
the borders of the United States. This can be accomplished only by a nationwide and global reduction in the
emission of greenhouse gases. Even assuming that such
relief can be ordered against Defendants for their production and sale of fossil fuels, which are then combusted by
others at a rate Plaintiff claims causes the alleged injuries,
this claim must be decided in federal court because Congress has created a cause of action by which a party can
seek the creation or modification of nationwide emission
standards by petitioning the Environmental Protection
Agency (“EPA”). That federal cause of action was designed to provide the exclusive means by which a party can
seek nationwide emission regulations. Because Plaintiff’s
state causes of action would “duplicate[], supplement[], or
supplant[]” that exclusive federal cause of action, they are
completely preempted.

216

A. The Clean Air Act Provides the Exclusive Cause
of Action for Challenging EPA Rulemakings.
43. The Clean Air Act permits private parties, as well
as state and municipal governments, to challenge EPA
rulemakings (or the absence of such) and to petition the
EPA to undertake new rulemakings. See, e.g., 5 U.S.C.
§ 553(e); 42 U.S.C. §§ 7604, 7607. The Fourth Circuit has
observed that the Clean Air Act preempts such state common law nuisance cases because “[i]f courts across the nation were to use the vagaries of public nuisance doctrine
to overturn the carefully enacted rules governing airborne emissions, it would be increasingly difficult for anyone to determine what standards govern. Energy policy
cannot be set, and the environment cannot prosper, in this
way.” N.C. ex rel. Cooper v. Tenn Valley Auth., 615 F.3d
291, 298 (4th Cir. 2010).
44. The Clean Air Act provides the exclusive cause of
action for regulation of nationwide emissions. The Act establishes a system by which federal and state resources
are deployed to “protect and enhance the quality of the
Nation’s air resources so as to promote the public health
and welfare and the productive capacity of its population.”
42 U.S.C. § 7401(b)(1). At the heart of this system are the
emission standards set by the EPA. Specific Clean Air Act
provisions authorize or require emission standards to be
set if certain findings are made, and such standards must
comport with the statutory criteria set by Congress, consistent with the dual goals of the Act. Under the Clean Air
Act, “emissions have been extensively regulated nationwide.” N.C. ex rel. Cooper v. Tenn Valley Auth., 615 F.3d
at 298. Regulation of greenhouse gas emissions, including
carbon dioxide, is governed by the Clean Air Act, see Massachusetts, 549 U.S. at 528-29, and EPA has regulated
these emissions under the Act, see, e.g., 40 C.F.R. §§
217

51.166(b)(1)(i), 52.21(b)(1)(i) (regulation of greenhouse
gases through the Act’s prevention of significant deterioration of air quality permitting program); 77 Fed. Reg.
62,624 (Oct. 15, 2012) (regulation of greenhouse gas emissions from light-duty motor vehicles); 81 Fed. Reg. 73,478
(Oct. 25, 2016) (regulation of greenhouse gas emissions
from medium- and heavy-duty engines and motor vehicles).
45. Congress manifested a clear intent that judicial review of Clean Air Act matters must take place in federal
court. 42 U.S.C. § 7607(b).
46. This congressionally mandated statutory and regulatory scheme is thus the “exclusive” means for seeking
the nationwide regulation of greenhouse gas emissions
and “set[s] forth procedures and remedies” for that relief,
Beneficial Nat’l Bank, 539 U.S. at 8, irrespective of the
savings clauses applicable to some other types of claims.
B. Plaintiff’s Asserted State-Law Causes of Action
Duplicate, Supplement, and/or Supplant the
Federal Cause of Action.
47. Plaintiff asks the Court to order Defendants to
“abate nuisances” alleged to have caused “the increase in
global mean temperature and consequent increase in
global mean sea surface height and disruptions to the hydrologic cycle, including, but not limited to, more frequent
and extreme droughts, more frequent and extreme precipitation events, increased frequency and severity of heat
waves and extreme temperatures, and the associated consequences of those physical and environmental changes,
since 1965.” Compl. ¶ 13, 193; see also id., Prayer for Relief (requesting “[e]quitable relief, including abatement of
the nuisances complained of herein”).

218

48. According to Plaintiff’s own allegations, the alleged nuisances can be abated only by a global—or at the
very least national—reduction in greenhouse gas emissions. See Compl. ¶ 235 (“[I]t is not possible to determine
the source of any particular individual molecule of CO2 in
the atmosphere attributable to anthropogenic sources because such greenhouse gas molecules do not bear markers
that permit tracing them to their source, and because
greenhouse gases quickly diffuse and comingle in the atmosphere.”); id. ¶ 94 (describing “global” greenhouse gas
emissions relating to fossil fuel products). Indeed, Plaintiff’s allegations purport to show that Defendants “undertook a momentous effort to evade international and national regulation of greenhouse gas emissions”—not state
or local regulations. Id. ¶ 169 (emphases added); see also
id. ¶ 145 (“Defendants embarked on a decades-long campaign designed to . . . undermine national and international efforts like the Kyoto Protocol to rein in greenhouse
gas emissions.”); id. ¶ 143 (acknowledging, inter alia, federal legislative efforts to regulate CO2 and other greenhouse gases that allegedly “prompted Defendants to
change their tactics . . . to a public campaign aimed at
evading regulation”); id. ¶¶ 158, 159(a), 161, (describing
alleged efforts to encourage the United States to reject
the international Kyoto Protocol).
49. Plaintiff’s state-law tort claims are effectively an
end-run around a petition for a rulemaking regarding
greenhouse gas emissions because they seek to regulate
nationwide emissions that Plaintiff concedes conform to
the EPA’s emission standards. See, e.g., San Diego Bldg.
Trades Council v. Garmon, 359 U.S. 236, 247 (1959); Cipollone v. Liggett Grp., Inc., 505 U.S. 504, 539 (1992). The
claims would require precisely the cost-benefit analysis of
emissions that the EPA is charged with undertaking and
would directly interfere with the EPA’s determinations.
219

See supra ¶¶ 27–28. Because Congress has established a
clear and detailed process by which a party can petition
the EPA to establish stricter nationwide emissions standards, Plaintiff’s claims are completely preempted by the
Clean Air Act.
50. Congress has provided an exclusive statutory remedy for the regulation of greenhouse gas emissions which
provides federal procedures and remedies for that cause
of action. Because Plaintiff’s claims fall within the scope
of the federal cause of action, Plaintiff’s claims are completely preempted by federal law and this Court has federal-question jurisdiction.
VI.

THE ACTION IS REMOVABLE UNDER THE
OUTER CONTINENTAL SHELF LANDS ACT

51. This Court also has original jurisdiction pursuant
to the Outer Continental Shelf Lands Act (“OCSLA”). 43
U.S.C. § 1349(b); see Tenn. Gas Pipeline, 87 F.3d at 155.
This action “aris[es] out of, or in connection with (A) any
operation conducted on the outer Continental Shelf which
involves exploration, development, or production of the
minerals, or the subsoil or seabed of the outer Continental
Shelf, or which involves rights to such minerals.” 43
U.S.C. § 1349(b); In re Deepwater Horizon, 745 F.3d 157,
163 (5th Cir. 2014) (“th[e] language [of § 1349(b)(1)] [i]s
straightforward and broad”). The outer continental shelf
(“OCS”) includes all submerged lands that belong to the
United States but are not part of any State. 43 U.S.C.
§§ 1301, 1331.
52. The breadth of federal jurisdiction granted by
OCSLA reflects the Act’s “expansive substantive reach.”
See EP Operating Ltd. P’ship v. Placid Oil Co., 26 F.3d
563, 569 (5th Cir. 1994). “OCSLA was passed . . . to establish federal ownership and control over the mineral wealth
220

of the OCS and to provide for the development of those
natural resources.” Id. at 566. “[T]he efficient exploitation
of the minerals of the OCS . . . was . . . a primary purpose
for OCSLA.” Amoco Prod. Co. v. Sea Robin Pipeline Co.,
844 F.2d 1202, 1210 (5th Cir. 1988). Indeed, OCSLA declares it “to be the policy of the United States that . . . the
outer Continental Shelf . . . should be made available for
expeditious and orderly development.” 43 U.S.C.
§ 1332(3). It further provides that “since exploration, development, and production of the minerals of the outer
Continental Shelf will have significant impacts on coastal
and non-coastal areas of the coastal States . . . such States,
and through such States, affected local governments, are
entitled to an opportunity to participate, to the extent consistent with the national interest, in the policy and planning decisions made by the Federal Government relating
to exploration for, and development and production of,
minerals of the outer Continental Shelf.” Id. § 1332(4)
(emphasis added).
53. When enacting Section 1349(b)(1), “Congress intended for the judicial power of the United States to be
extended to the entire range of legal disputes that it knew
would arise relating to resource development on the
[OCS].” Laredo Offshore Constructors, Inc. v. Hunt Oil.
Co., 754 F.2d 1223, 1228 (5th Cir. 1985). Consistent with
Congress’ intent, courts repeatedly have found OCSLA
jurisdiction where resolution of the dispute foreseeably
could affect the efficient exploitation of minerals from the
OCS.2 See, e.g., EP Operating, 26 F.3d at 569–70; United
As stated in 43 U.S.C. § 1333(a)(1): “The Constitution and laws
and civil and political jurisdiction of the United States are extended
to the subsoil and seabed of the outer Continental Shelf and to all artificial islands, and all installations and other devices permanently or
2

221

Offshore v. S. Deepwater Pipeline, 899 F.2d 405, 407 (5th
Cir. 1990).
54. OCSLA jurisdiction exists even if the Complaint
pleads no substantive OCSLA claims. See, e.g., In re
Deepwater Horizon, 745 F.3d at 163. The Court, moreover, may look beyond the facts alleged in the Complaint to
determine that OCSLA jurisdiction exists. See, e.g.,
Plains Gas Solutions, LLC v. Tenn. Gas Pipeline Co.,
LLC, 46 F. Supp. 3d 701, 703 (S.D. Tex. 2014); St. Joe Co.
v. Transocean Offshore Deepwater Drilling Inc., 774 F.
Supp. 2d 596, 2011 A.M.C. 2624, 2640 (D. Del. 2011) (citing
Amoco Prod. Co. v. Sea Robin Pipeline Co., 844 F.2d 1202,
1205 (5th Cir. 1998)).
55. Under OCSLA, the Department of Interior administers an extensive federal leasing program aiming to develop and exploit the oil and gas resources of the federal
Continental Shelf. 43 U.S.C. § 1334 et seq. Pursuant to this
authority, the Department of Interior “administers more
than 5,000 active oil and gas leases on nearly 27 million
OCS acres. In FY 2015, production from these leases generated $4.4 billion in leasing revenue . . . [and] provided
more than 550 million barrels of oil and 1.35 trillion cubic
feet of natural gas, accounting for about sixteen percent
of the Nation’s oil production and about five percent of domestic natural gas production.” Statement of Abigail Ross
Hopper, Director, Bureau of Ocean Energy Management,
Before the House Committee on Natural Resources (Mar.
2, 2016), available at https://www.boem.gov/FY2017Budget-Testimony-03-01-2016. Certain Defendants here,
temporarily attached to the seabed . . . for the purpose of exploring
for, developing, or producing resources therefrom . . . to the same extent as if the outer Continental Shelf were an area of exclusive Federal jurisdiction located within a State . . . .”

222

of course, participate very substantially in the federal
OCS leasing program. For example, from 1947 to 1995,
Chevron U.S.A., Inc. produced 1.9 billion barrels of crude
oil and 11 billion barrels of natural gas from the federal
outer continental shelf in the Gulf of Mexico alone. U.S.
Dep’t of Int., Minerals Mgmt. Serv., Gulf of Mex. Region,
Prod. by Operator Ranked by Vol. (1947–1995), available
at https://www.data.boem.gov/Production/Files/Rank%
20File%20Gas%201947%20-%201995.pdf. In 2016, Chevron U.S.A. produced more than 49 million barrels of crude
oil and 50 million barrels of natural gas from the outer
continental shelf on the Gulf of Mexico. U.S. Dep’t of Int.,
Bureau of Safety & Envtl. Enf’t, Gulf of Mex. Region,
Prod. by Operator Ranked by Vol. (2016), available at
https://www.data.boem.gov/Production/Files/Rank%20Fi
le%20Gas%202016.pdf. Numerous other Defendants conduct, and have for decades conducted, similar oil and gas
operations on the federal OCS; indeed, Defendants and
their affiliated companies presently hold approximately
32.95% of all outer continental shelf leases. See Bureau of
Ocean Energy Management, Lease Owner Information,
available at https://www.data.boem.gov/Leasing/LeaseOwner/Default.aspx. For example, certain BP companies
and Exxon Mobil currently own lease interests in, and the
BP companies operate, “one of the largest deepwater producing fields in the Gulf of Mexico,” which is capable of
producing up to 250,000 barrels of oil per day. See Thunder Horse Field Fact Sheet, available at http://www.bp.
com/content/dam/bp-country/en_us/PDF/Thunder_
Horse_Fact_Sheet_6_14_2013.pdf. And as noted on the
BP website, production from this and other OCS activities
will continue into the future. Id. (“BP intends to sustain
its leading position as an active participant in all facets of
the Deepwater US Gulf of Mexico—as an explorer, developer, and operator.”). A substantial portion of the national
223

consumption of fossil fuel products stems from production
on federal lands, as approved by Congress and Executive
Branch decision-makers.
56. The Complaint itself makes clear that a substantial
part of Plaintiff’s claims “‘arise[] out of, or in connection
with,” Defendants’ “operation[s] ‘conducted on the outer
Continental Shelf” that involve “the exploration and production of minerals.” In re Deepwater Horizon, 745 F.3d
at 163. Plaintiff, in fact, challenges all of Defendants’ “extraction . . . of coal, oil, and natural gas” activities, e.g.,
Compl. ¶¶ 3, 18, a substantial quantum of which arise from
outer continental shelf operations, see Ranking Operator
by Oil, Bureau of Ocean Energy Mgmt., available at
https://www.data.boem.gov/Main/HtmlPage.aspx?page=
rankOil (documenting Chevron’s oil and natural gas production on the federal outer continental shelf from 1947 to
2017). Plaintiff alleges that emissions have risen due to increased outer continental shelf extraction technologies.
See, e.g., Compl. ¶¶ 172–73 (discussing arctic offshore
drilling equipment and patents which may be relevant to
conduct near Alaskan outer continental shelf). And Plaintiff challenges energy projects that occurred in Canadian
waters. Compl. ¶¶ 135, 138. Defendants conduct similar
activity in American waters and many of the emissions
Plaintiff challenges necessarily arise from the use of fossil
fuels extracted from the OCS.
57. The relief sought also arises out of and impacts
OCS extraction and development. See, e.g., Compl.,
Prayer for Relief (seeking damages designed to cripple
the energy industry and equitable relief that would no
doubt rein in extraction, including that on the OCS). And
“any dispute that alters the progress of production activities on the OCS threatens to impair the total recovery of

224

the federally-owned minerals from the reservoir or reservoirs underlying the OCS. Congress intended such a dispute to be within the grant of federal jurisdiction contained in § 1349.” Amoco Prod. Co., 844 F.2d at 1211.
VII. THE ACTION IS REMOVABLE UNDER THE
FEDERAL OFFICER REMOVAL STATUTE
58. The Federal Officer Removal statute allows removal of an action against “any officer (or any person acting under that officer) of the United States or of any
agency thereof . . . for or relating to any act under color of
such office.” 28 U.S.C. § 1442(a)(1). A party seeking removal under section 1442 must establish “(1) it is a federal
officer or a person acting under that officer, (2) a colorable
federal defense; and (3) the suit is for an act under color
of office, which requires a causal nexus between the
charged conduct and asserted official authority.” Ripley,
841 F.3d at 209–10 (internal citations, quotation marks,
and alterations omitted). All three elements are satisfied
here for the Chevron Parties and many other Defendants,
which have engaged in activities pursuant to the directions of federal officers that, assuming the truth of Plaintiff’s allegations, have a causal nexus to Plaintiff’s claims,
and which have colorable federal defenses to Plaintiff’s
claims. Among other things, Defendants have acted pursuant to government mandates and contracts, performed
functions for the U.S. military, and engaged in activities
on federal lands pursuant to federal leases.
59. First, Defendants “acted under” a federal officer
because “the government exert[ed] some ‘subjection,
guidance, or control,’” over Defendants’ actions and because Defendants “engage[d] in an effort ‘to assist, or to
help carry out, the duties or tasks of the federal superior.’” Sawyer v. Foster Wheeler LLC, 860 F.3d 249, 255

225

(4th Cir. 2017) (quoting Watson v. Philip Morris Cos., 551
U.S. 142, 151–52 (2007)).
60. Second, assuming the truth of Plaintiff’s allegations, there is a causal nexus between Defendants’ alleged
actions, taken pursuant to a federal officer’s direction, and
Plaintiff’s claims. In Sawyer, the Fourth Circuit held removal proper where a military contractor, sued for failing
to warn about asbestos in military equipment, showed extensive evidence of federal control over its activities. This
included “highly detailed ship specifications and military
specifications provided by the Navy,” where the Navy exercised “intense direction and control . . . over all written
documentation to be delivered with” the equipment, deviations from which “were not acceptable.” Id. at 253. Here,
Plaintiff’s causation and damages allegations depend on
the activities of Defendants over the past decades—many
of which were undertaken at the direction of, and under
close supervision and control by, federal officials.
61. To take only one example, the Chevron Parties and
other Defendants have long explored for and produced
minerals, oil and gas on federal lands pursuant to leases
governed by the OCSLA as described above. E.g., Kelly
Decl., Exs. B, C. In doing so, those Defendants were “‘acting under’ a federal ‘official’” within the meaning of Section 1442(a)(1). Watson v. Philip Morris Cos., Inc., 551
U.S. 142, 153 (2007). Under OCSLA, the Department of
Interior is charged with “manag[ing] access to, and . . .
receiv[ing] a fair return for, the energy and mineral resources of the Outer Continental Shelf.” Statement of
Walter Cruickshank, Deputy Director, Bureau of Ocean
Energy Management, Before The Committee On Natural
Resources, July, 6, 2016, available at https://www.boem.
gov/Congressional-Testimony-Cruickshank-07062016/.
To fulfill this statutory obligation, the Interior officials

226

maintain and administer the OCS leasing program, under
which parties such as Defendants are required to conduct
exploration, development and production activities that,
“in the absence of a contract with a private firm, the Government itself would have had to perform.” Watson, 551
U.S. at 154.
62. OCS leases obligate lessees like Defendants to “develop[] . . . the leased area” diligently, including carrying
out exploration, development and production activities approved by Department of Interior officials for the express
purpose of “maximiz[ing] the ultimate recovery of hydrocarbons from the leased area.” Ex. C § 10. Indeed, for decades Defendants’ OCSLA leases have instructed that
“[t]he Lessee shall comply with all applicable regulations,
orders, written instructions, and the terms and conditions
set forth in this lease” and that “[a]fter due notice in writing, the Lessee shall conduct such OCS mining activities
at such rates as the Lessor may require in order that the
Leased Area or any part thereof may be properly and
timely developed and produced in accordance with sound
operating principles.” Ex. B § 10 (emphasis added). All
drilling takes place “in accordance with an approved exploration plan (EP), development and production plan
(DPP) or development operations coordination document
(DOCD) [as well as] approval conditions”—all of which
must undergo extensive review and approval by federal
authorities, and all of which further had to conform to “diligence” and “sound conservation practices.” Ex. C §§ 9,
10. Federal officers further have reserved the rights to
control the rates of mining (Ex. B § 10) and to obtain
“prompt access” to facilities and records (Ex. B § 11, Ex.
C § 12). The government also maintains certain controls
over how the leased oil/gas/minerals are disposed of once
they are removed from the ground, as by preconditioning

227

the lease on a right of first refusal to purchase all materials “[i]n time of war or when the President of the United
States shall so prescribe” (Ex. B § 14, Ex. C § 15(d)), and
mandating that 20% of all crude and natural gas produced
pursuant to drilling leases be offered “to small or independent refiners” (Ex. C § 15(c)). The Federal Treasury
has reaped enormous financial benefits from those policy
decisions in the form of statutory and regulatory royalty
regimes that have resulted in billions of dollars of revenue
to the Federal Government.
63. Certain Defendants have also engaged in the exploration and production of fossil fuels pursuant to agreements with federal agencies. For example, in June 1944,
the Standard Oil Company (a Chevron predecessor) and
the U.S. Navy entered into a contract “to govern the joint
operation and production of the oil and gas deposits . . . of
the Elk Hills Reserve,” a strategic petroleum reserve
maintained by the Navy. Chevron U.S.A., Inc. v. United
States, 116 Fed. Cl. 202, 205 (Fed. Cl. 2014). “The Elk
Hills Naval Petroleum Reserve (NPR-1) . . . was originally
established in 1912 to provide a source of liquid fuels for
the armed forces during national emergencies.” GAO
Fact Sheet, Naval Petroleum Reserves – Oil Sales Procedures and Prices at Elk Hills, April Through December
1986 (Jan. 1987) (“GAO Fact Sheet”), available at
http://www.gao.gov/assets/90/87497.pdf. In response to
the OPEC oil embargo in 1973–74, the Naval Petroleum
Reserves Production Act of 1976 (Public Law 94-258,
April 5, 1976) was enacted, which “authorized and directed that NPR-1 be produced at the maximum efficient
rate for 6 years.” Id. In 1977, Congress “transferred the
Navy’s interests and management obligations to [the Department of Energy],” and Chevron continued its interest
in the joint operation until 1997. Id. That contract governing Standard’s rights shows the Federal Government’s
228

“full and absolute” power and “complete control” over fossil fuel exploration, production, and sales at the reserve:


The plan was designed to “[a]fford [the] Navy a
means of acquiring complete control over the development of the entire Reserve and the production of oil therefrom.” Ex. D, Recitals § 6(d)(i) (emphases added).



“[The] Navy shall, subject to the provisions hereof,
have the exclusive control over the exploration,
prospecting development and operation of the Reserve[.]” Ex. D § 3(a).



“[The] Navy shall have full and absolute power to
determine from time to time the rate of prospecting
and development on, and the quantity and rate of
production from, the Reserve, and may from time
to time shut in wells on the Reserve if it so desires.”
Ex. D § 4(a) (emphasis added).



“[A]ll exploration, prospecting, development, and
producing operations on the Reserve” occurred
“under the supervision and direction of an Operating Committee” tasked with “supervis[ing]” operations and “requir[ing] the use of sound oil field engineering practices designed to achieve the maximum economic recovery of oil from the reserve.”
Ex. D § 3(b). In the event of disagreement, “such
matter shall be referred to the Secretary of the
Navy for determination; and his decision in each
such instance shall be final and binding upon Navy
and Standard.” Ex. D § 9(a).



The Navy retained ultimate and even “absolute”
discretion to suspend production, decrease the
minimum amount of production per day that

229

Standard was entitled to receive, or increase the
rate of production. Ex. D §§ 4(b), 5(d)(1).
The contract demonstrates that Defendants’ activities under federal officers went far beyond simple compliance
with the law or participation in a regulated industry.
64. Defendants also have supplied motor vehicle fuels
under agreements with the Federal Government, including the Armed Forces. For instance, CITGO Petroleum
Corporation (“CITGO”) was a party to fuel supply agreements with the Navy Exchange Service Command
(“NEXCOM”), which is a department of the Naval Supply
Systems Command of the U.S. Navy. Among other things,
NEXCOM sells goods and services at a savings to active
duty military, retirees, reservists, and their families.
Starting in approximately 1988 through approximately
2012, pursuant to its agreements with NEXCOM, CITGO
supplied CITGO branded gasoline and diesel fuel to NEXCOM for service stations operated by NEXCOM on Navy
bases located in a number of states across the country.
The NEXCOM agreements contained detailed fuel specifications, and CITGO complied with these government
specifications in supplying the fuel to NEXCOM. CITGO
also contracted with NEXCOM to provide demolition, site
preparation, design, construction, and related financing
services to build new gasoline service stations on Navy bases in the 1990s.
65. As discussed above, these and other federal activities are encompassed in Plaintiff’s Complaint. See supra
¶¶ 51–64. Plaintiff alleges that the drilling and mining operations Defendants performed led to the sale of fossil
fuels—including to the Federal Government—which led
to the release of greenhouse gases by end-users—including to the Federal Government. Furthermore, the oil and

230

gas Defendants extracted—which the Federal Government (i) reserved the right to buy in total in the event of a
time of war or whenever the President so prescribed and
(ii) has purchased from Defendants to fuel its military operations—is the very same oil and gas that Plaintiff alleges is a “defective” product giving rise to strict liability.
Accordingly, Plaintiff seeks to hold Defendants liable for
the very activities Defendants performed under the control of a federal official, and thus the nexus element has
been satisfied.
66. Third, Defendants intend to raise numerous meritorious federal defenses, including preemption, see Prince
v. Sears Holdings Corp., 848 F.3d 173, 179 (4th Cir. 2017),
the government contractor defense, see Boyle v. United
Techs. Corp., 487 U.S. 500 (1988); Sawyer, 860 F.3d at
255–56, and others. In addition, Plaintiff’s claims are
barred by the United States Constitution, including the
Commerce and Due Process clauses, as well as the First
Amendment and the foreign affairs doctrine. These and
other federal defenses are more than colorable. See
Willingham v. Morgan, 395 U.S. 402, 407 (1969) (a defendant invoking section 1442(a)(1) “need not win his case
before he can have it removed”). Accordingly, removal under Section 1442 is proper.
VIII. THE ACTION IS REMOVABLE BECAUSE
THIS CASE ARISES FROM ACTS ARISING
FROM MULTIPLE FEDERAL ENCLAVES
67. This Court also has original jurisdiction under the
federal enclave doctrine. The Constitution authorizes
Congress to “exercise exclusive legislation in all cases
whatsoever” over all places purchased with the consent of
a state “for the erection of forts, magazines, arsenals,
dock-yards, and other needful buildings.” U.S. Const., art.

231

I, § 8, cl. 17. “A suit based on events occurring in a federal
enclave . . . must necessarily arise under federal law and
implicates federal question jurisdiction under § 1331.”
Jones, 2012 WL 1197391, at *1. This Court has denied a
motion to remand where plaintiff’s claims “ar[o]se out of
work performed by [defendant] at [a] Government enclave.” Norair Eng’g Corp. v. URS Fed. Servs., Inc., 2016
WL 7228861, at *3 (D. Md. Dec. 14, 2016). The “key factor” in determining whether a federal court has federal
enclave jurisdiction “is the location of the plaintiff’s injury
or where the specific cause of action arose.” Sparling v.
Doyle, 2014 WL 2448926, at *3 (W.D. Tex. May 30, 2014);
see also Fung v. Abex Corp., 816 F. Supp. 569, 571 (N.D.
Cal. 1992) (“Failure to indicate the federal enclave status
and location of the exposure will not shield plaintiffs from
the consequences of this federal enclave status.”); Bd. of
Comm’rs of Se. La. Flood Protection Auth.-E. v. Tenn.
Gas Pipeline Co., LLC, 29 F. Supp. 3d 808, 831 (E.D. La.
2014) (noting that defendants’ “conduct” or “the damage
complained of” must occur on a federal enclave). Federal
jurisdiction is available if some of the events or damages
alleged in the complaint occurred on a federal enclave. See
Stokes v. Adair, 265 F.2d 662, 665–66 (4th Cir. 1959) (district court had jurisdiction where “exclusive jurisdiction
over [the location of the alleged injury had been] ceded by
[the] state to the United States”).
68. Three requirements exist for land to be a federal
enclave: (1) the United States must have acquired the land
from a state; (2) the state legislature must have consented
to the jurisdiction of the Federal Government; and (3) the
United States must have accepted jurisdiction. Wood v.
Am. Crescent Elevator Corp., No. 11-397, 2011 WL
1870218, at *2 (E.D. La. May 16, 2011).

232

69. Upon information and belief, the Federal Government owns federal enclaves in the area at issue where
Plaintiff’s “damage complained of” allegedly occurs.
Tenn. Gas Pipeline, 29 F. Supp. 3d at 831. Indeed, Plaintiff broadly alleges injuries to huge swaths of the City, see
Compl. ¶¶ 196–205, and “[f]ailure to indicate the federal
enclave status and location of the exposure will not shield
plaintiffs from the consequences of this federal enclave
status,” Fung, 816 F. Supp. at 571.
70. On information and belief, Defendants maintain or
maintained oil and gas operations on military bases or
other federal enclaves such that the Complaint, which bases the claims on the “extracting, refining, processing,
producing, promoting and[/or] marketing of fossil fuel
products” (Compl. ¶ 18), arises under federal law. See, e.g.,
Humble Pipe Line Co. v. Waggoner, 376 U.S. 369, 372
(1964) (noting that the United States exercises exclusive
jurisdiction over oil and gas rights within Barksdale Air
Force Base in Louisiana); see also Mississippi River Fuel
Corp. v. Cocreham, 390 F.2d 34, 35 (5th Cir. 1968) (on
Barksdale AFB, “the reduction of fugitive oil and gas to
possession and ownership[] takes place within the exclusive jurisdiction of the United States”). Indeed, as of 2000,
approximately 14% of the National Wildlife Refuge System “had oil or gas activities on their land,” and these activities were spread across 22 different states. See GAO,
U.S. Fish and Wildlife Service: Information on Oil and
Gas Activities in the National Wildlife Refuge (Oct. 30,
2001), available at http://www.gao.gov/new.items/d0264r.
pdf. Furthermore, Chevron and its predecessor companies for many years engaged in production activities on
the Elk Hills Reserve—a strategic oil reserve maintained
by the Naval Department—pursuant to a joint operating
agreement with the Navy. See Chevron U.S.A., 116 Fed.

233

Cl. at 205. Pursuant to that agreement, Standard Oil “operat[ed] the lands of Navy and Standard in the Reserve.”
Ex. D at 4.
71. In addition, the Complaint relies upon conduct occurring in the District of Columbia—itself a federal enclave, see, e.g., Collier v. District of Columbia, 46 F. Supp.
3d 6 (D.D.C. 2014); Hobson v. Hansen, 265 F. Supp. 902,
930 (D.D.C. 1967)—as a basis for Plaintiff’s claims. Indeed, Plaintiff complains that Defendants’ supposedly
wrongful conduct included their memberships in various
“trade association[s],” and providing funding to “think
tanks,” which allegedly had the effect of “evad[ing] regulation” of fossil fuel products by “deceiv[ing]” policymakers about the role of fossil fuel products in causing global
warming. Compl. ¶¶ 166–167, 170. The Complaint also
points to Defendants’ purported funding of “lobbyist[s]”
to influence legislation and legislative priorities. Here,
too, “some of the[] locations” giving rise to Plaintiff’s
claims “are federal enclaves,” further underscoring the
presence of federal jurisdiction. Bell, 2012 WL 1110001, at
*2. As the Ninth Circuit contemplated in Jacobson v. U.S.
Postal Serv., 993 F.2d 649, 657 (9th Cir. 1992), free speech
placed at issue in a federal enclave falls under the jurisdiction of the federal courts. Id. (observing that newspaper vendors were required to obtain permits pursuant to
a federal statute to sell newspapers in front of U.S. post
office locations, which the Court deemed to be “within the
federal enclave”). Because Plaintiff claims that Defendants’ speech within the federal enclave of the District of
Columbia was, among other alleged causes, the basis of its
injury, and because Plaintiff complains of damages allegedly occurring on federal enclaves, this Court is the only
forum suited to adjudicate the merits of this dispute.

234

IX. THE ACTION IS REMOVABLE UNDER THE
BANKRUPTCY REMOVAL STATUTE
72. The Bankruptcy Removal Statute allows removal
of “any claim or cause of action in a civil action other than
a proceeding before the United States Tax Court or a civil
action by a governmental unit to enforce such governmental unit’s police or regulatory power, to the district court
for the district where such civil action is pending, if such
district court has jurisdiction of such claim or cause of action under section 1334 of this title.”3 28 U.S.C. § 1452(a).
Section 1334, in turn, provides that “the district courts
shall have original but not exclusive jurisdiction of all civil
proceedings, arising under Title 11, or arising in or related to cases under title 11” of the United States Code.
28 U.S.C. § 1334(b). The Fourth Circuit has emphasized
that “‘related to’ jurisdiction is to be ‘broadly interpreted.’” In re A.H. Robins Co., Inc., 86 F.3d 364, 372 (4th
Cir. 1996). An action is thus “related to” a bankruptcy case
Removal is also sought under the numerous other statutes and
theories set forth herein that make removal to this Court appropriate.
Indeed, this Court has “original but not exclusive jurisdiction of all
civil proceedings, arising under Title 11, or arising in or related to
cases under title 11” of the United States Code. 28 U.S.C. § 1334(b).
Nonetheless, the Chevron Parties recognize that Local Rule 103.5(d)
states that “[r]emovals under 28 U.S.C. § 1452 or § 1441 in cases related to bankruptcy cases should be filed with the Bankruptcy Clerk”
and that, pursuant to Local Rule 402 (incorporating 28 U.S.C.
§ 157(a)), “all cases . . . related to cases under Title 11 shall be deemed
to be referred to the bankruptcy judges of this District.” However, in
light of the numerous other grounds for removal to this Court, as
noted above, removal is properly sought in this Court, and it is appropriate for the Court to withdraw any applicable reference to the bankruptcy court and require this matter to proceed solely in this Court.
See, e.g., Houck v. Substitute Tr. Servs., Inc., 791 F.3d 473, 481 (4th
Cir. 2015); Kelly v. Schlossberg, 2018 WL 3142021, at *5 (D. Md. June
27, 2018).
3

235

if it “could conceivably have any effect on the estate being
administered in bankruptcy.” In re Celotex Corp., 124
F.3d at 625. Where a Chapter 11 plan has been confirmed,
there must be a “close nexus” between the post- confirmation case and the bankruptcy plan for related-to jurisdiction to exist. Valley Historic Ltd. P’ship v. Bank of New
York, 486 F.3d 831, 836 (4th Cir. 2007). “Practically speaking, under this inquiry matters that affect the interpretation, implementation, consummation, execution, or administration of the confirmed plan will typically have the requisite close nexus.” Id. at 836–37 (brackets and citation
omitted).
73. Plaintiff’s claims are purportedly predicated on
historical activities of Defendants, including predecessor
companies, subsidiaries, and companies that Defendants
may have acquired or with which they may have merged,
as well as numerous unnamed but now bankrupt entities.
Indeed, Plaintiff explicitly premises its theories of liability
on the actions of Defendants’ subsidiaries. See, e.g., Compl
¶ 252.4 Because there are hundreds of non-joined necessary and indispensable parties, there are many other Title
11 cases that may be related. Indeed, the related climatechange cases that Plaintiff’s counsel recently filed on behalf of other cities and counties already generated bankruptcy court proceedings. See, e.g., In re Peabody Energy
Corp., 2017 WL 4843724, Case No. 16-42529 (Bankr. E.D.
Mo. Oct. 24, 2017) (holding that the plaintiffs’ state-law
claims were discharged when Peabody emerged from
4
To the extent Plaintiff seeks to hold Defendants liable for the conduct of their subsidiaries, affiliates or other related entities, such attempts are improper. See, e.g., Todd v. Xoom Energy Maryland,
LLC, 2016 WL 727108, at *11 n.10 (D. Md. Feb. 22, 2016) (“[M]ere
ownership of a subsidiary does not justify the imposition of liability
on the parent.”).

236

bankruptcy in March 2017); In re Arch Coal, Inc., Case
No. 16-40120, Dkt. 1615 (Bankr. E.D. Mo. Nov. 21 2017)
(stipulation providing that any action in the Peabody
bankruptcy proceedings that results in dismissal of any of
the plaintiffs’ claims against Peabody will require dismissal of claims against Arch). Accordingly, Plaintiff’s broad
claim has the required close nexus with Chapter 11 plans
to support federal jurisdiction. Celotex, 124 F.3d at 625;
see also In re Dow Corning Corp., 86 F.3d 482, 493–94 (6th
Cir. 1996).
74. As just one example of how Plaintiff’s historical allegations have created a “close nexus” with a Chapter 11
plan, one of Chevron’s current subsidiaries, Texaco Inc.,
filed for bankruptcy in 1987. In re Texaco Inc., 87 B 20142
(Bankr. S.D.N.Y. 1987). The Chapter 11 plan, which was
confirmed in 1988, bars certain claims against Texaco
arising prior to March 15, 1988. Id. Dkt. 1743. Plaintiff’s
Complaint alleges that Texaco, as well as unnamed Chevron “predecessors” and “subsidiaries,” engaged in culpable conduct prior to March 15, 1988, and it attributes this
conduct to defendant “Chevron.” See Compl. ¶¶ 18–19,
111, 115, 120, 174. Plaintiff’s claims against Chevron thus
are at least partially barred by Texaco’s confirmed Chapter 11 plan to the extent that the claims relate to Texaco’s
conduct prior to 1988. Accordingly, even though Texaco’s
Chapter 11 plan has been confirmed and consummated,
Plaintiff’s claim has a “close nexus” to the plan to support
federal jurisdiction. See In re Wilshire Courtyard, 729
F.3d 1279, 1292–93 (9th Cir. 2013) (federal court had “‘related to’ subject matter jurisdiction . . . despite the fact
that the Plan transactions have been long since consummated”).

237

75. Finally, Plaintiff’s action is primarily one to protect
its “pecuniary interest.” See City & Cnty. of San Francisco v. PG&E Corp., 433 F.3d 1115, 1124 (9th Cir. 2006).
As demonstrated by Plaintiff’s request for billions of dollars in compensatory damages, “punitive damages,” and
“disgorgement of profits” (see, e.g., Compl. ¶¶ 227, 247,
259, 268, 280, 289, Prayer for Relief), this action is primarily pecuniary in nature. See also id. ¶¶ 16 (“The City must
spend substantial funds to plan for and respond to these
[climate change-related] phenomena, and to mitigate
their secondary and tertiary impacts.”“), 210 (alleging
that “[t]he City has incurred and will incur expenses in
planning and preparing for, treating and responding to,
and educating residents about the public health impacts
associated with anthropogenic global warming”), 212 (alleging that “[t]he City has and is planning, at significant
expense, adaptation strategies to address climate change
related impacts,” and that “the City has incurred and will
incur significant expense in educating and engaging the
public on climate change issues, and to promote and implement policies to mitigate and adapt to climate change
impacts, including promoting energy and water efficiency
and renewable energy”), 213 (alleging that the City “has
incurred and will incur significant expenses related to
planning for and predicting future sea level rise-related
and hydrologic cycle change-related injuries to its real
property, improvements thereon, municipal infrastructure, and citizens, and other community assets in order to
preemptively mitigate and/or prevent injuries to itself and
its citizens”). These allegations make clear that Plaintiff’s
action is primarily brought to fill the City’s coffers by
reaping a financial windfall. See PG&E Corp., 433 F.3d at
1125 n.11.

238

X. THE ACTION IS REMOVABLE BECAUSE
PLAINTIFF’S CLAIMS FALL WITHIN THE
COURT’S ADMIRALTY JURISDICTION
76. Finally, Plaintiff’s claims are removable because
they fall within the Court’s original admiralty jurisdiction.
The Constitution extends the federal judicial power “to all
Cases of admiralty and maritime Jurisdiction.” U.S.
Const. Art. III, § 2. “Congress has embodied that power
in a statute giving federal district courts ‘original jurisdiction [over] . . . [a]ny civil case of admiralty or maritime
jurisdiction[.]” Jerome B. Grubart, Inc. v. Great Lakes
Dredge & Dock Co., 513 U.S. 527, 531 (1995) (alterations
in original). “The admiralty and maritime jurisdiction of
the United States extends to and includes cases of injury
or damage, to person or property, caused by a vessel on
navigable waters, even though the injury or damage is
done or consummated on land.” 46 U.S.C. § 30101(a) (emphasis added).
77. The alleged injuries have occurred on the navigable waters. Plaintiff alleges that several Defendants’ production and sale of fossil fuels occur on and/or over the
navigable waters of the United States. See, e.g., Compl.
¶ 22(b) (“Chevron Corporation’s and its subsidiaries’ operations consist of . . . transporting crude oil and refined
products by . . . marine vessel . . . .”). Beyond that, Plaintiff
alleges that the tort arises from production of fossil fuels,
including worldwide extraction, a significant portion of
which takes place on “mobile offshore drilling unit[s]” that
operate in navigable waters. See In re Oil Spill by the Oil
Rig Deepwater Horizon in the Gulf of Mexico, on April
20, 2010, 808 F. Supp. 2d 943, 949 (E.D. La. 2011). “Under
clearly established law,” a floating drilling platform is “a
vessel, not a fixed platform,” id., and “[o]il and gas drilling
on navigable waters aboard a vessel is recognized to be

239

maritime commerce,” Theriot v. Bay Drilling Corp., 783
F.2d 527, 538–39 (5th Cir. 1986). Moreover, Defendants’
fossil fuel extraction is connected to maritime activity because, according to Plaintiff’s Complaint, it has the “potential to disrupt maritime commerce” by damaging
ports. Grubart, 513 U.S. at 538; see Compl. ¶ 197 (alleging
that rising seas will inundate Baltimore’s port). Because
Plaintiff’s claims fall within the Court’s admiralty jurisdiction, they are removable under 28 U.S.C. §§ 1441 and
1333.
XI. THIS COURT HAS JURISDICTION AND REMOVAL IS PROPER
78. Based on the foregoing allegations from the Complaint, and others not specifically described herein, this
Court has original jurisdiction over this action under 28
U.S.C. § 1331. Accordingly, removal of this action is
proper under 28 U.S.C. §§ 1334, 1441, 1442, 1452, and
1446, as well as 43 U.S.C. § 1349(b).
79. The United States District Court for the District
of Maryland is the appropriate venue for removal pursuant to 28 U.S.C. § 1441(a) because it embraces the place
where Plaintiff originally filed this case, in the Circuit
Court for Baltimore City, Maryland. See 28 U.S.C. § 84(a);
28 U.S.C. § 1441(a). Pursuant to Local Rule 501.2, the action should be assigned to the Northern Division of this
Court.
80. All defendants that have been properly joined and
served (or purported to be served) have consented to the
removal of the action, see Kelly Decl., ¶ 4, and there is no
requirement that any party not properly joined and
served consent. See HBCU Pro Football, LLC v. New Vision Sports Properties, LLC, 2010 WL 2813459, at *2 (D.
Md. July 14, 2010); 28 U.S.C. § 1446(b)(2)(A) (requiring
240

consent only from “all defendants who have been properly
joined and served”).5 Copies of all process, pleadings, and
orders from the state-court action being removed to this
Court that Chevron has been able to obtain from the Circuit Court and other defendants and which are in the possession of Chevron are attached hereto as Exhibit A to the
Kelly Declaration. Pursuant to 28 U.S.C. § 1446(a), this
constitutes “a copy of all process, pleadings, and orders”
received by the Chevron Parties in the action.
81. Upon filing this Notice of Removal, Defendants
will furnish written notice to Plaintiff’s counsel, and will
file and serve a copy of this Notice with the Clerk of the
Circuit Court for Baltimore City, pursuant to 28 U.S.C.
§ 1446(d).
Accordingly, Defendants remove to this Court the
above action pending against them in the Circuit Court for
Baltimore City, Maryland.

5
In addition, the consent of all defendants is not required for bankruptcy removal under 28 U.S.C. § 1452 and federal officer removal.
See Creasy v. Coleman Furniture Corp., 763 F.2d 656, 660 (4th Cir.
1985) (“Under the bankruptcy removal statute, . . . any one party has
the right to remove the state court action without the consent of the
other parties.”); Joyner v. A.C. & R. Insulation Co., 2013 WL 877125,
at *2 n.4 (D. Md. Mar. 7, 2013) (“Although, as a general matter, all
defendants must join in or consent to the removal of an action to federal court, that requirement does not apply when the case is removed
under the federal officer removal statute . . . .” (citation omitted)).

241

Respectfully submitted,

Dated: July 31, 2018

/s/ Tonya Kelly Cronin
TONYA KELLY CRONIN, Bar Number 27166
JONATHAN BIRAN, Bar Number 28098
ARON U. RASKAS, Bar Number 04393
RIFKIN WEINER LIVINGSTON LLC
2002 Clipper Park Road, Unit 108
Baltimore, MD 21211
Tel: 410-769-8080
Fax: 410-769-8811
tkelly@rwllaw.com
jbiran@rwllaw.com
araskas@rwllaw.com
Attorneys for Defendants
Chevron Corporation and Chevron U.S.A., Inc.

242

IN THE SUPREME COURT
OF THE UNITED STATES
No. 19A368
BP P.L.C., ET AL., APPLICANTS
v.
MAYOR AND CITY COUNCIL OF BALTIMORE
Filed: Oct. 22, 2019
Application (19A368) denied by the Court. Justice
Alito took no part in the consideration or decision of this
application.

243

